<html>
<title> - REVIEW OF THE NUCLEAR EMERGENCY IN JAPAN AND IMPLICATIONS FOR THE UNITED STATES</title>
<body><pre>[Senate Hearing 112-909]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-909

   REVIEW OF THE NUCLEAR EMERGENCY IN JAPAN AND IMPLICATIONS FOR THE 
                             UNITED STATES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON CLEAN AIR AND NUCLEAR SAFETY

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2011

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE 

88-763 PDF                    WASHINGTON : 2015
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming, Ranking 
FRANK R. LAUTENBERG, New Jersey          Member
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
JEFF MERKLEY, Oregon                 LAMAR ALEXANDER, Tennessee
BARBARA BOXER, California, (ex       MIKE JOHANNS, Nebraska
    officio)                         JAMES M. INHOFE, Oklahoma, (ex 
                                         officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 12, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     7
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     8
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    12
Gillibrand, Hon. Kirsten E., U.S. Senator from the State of New 
  York...........................................................    13
Capps, Hon. Lois, U.S. House of Representative from the State of 
  California.....................................................    14
Bilbray, Hon. Brian P., U.S. House of Representative from the 
  State of California............................................    16

                               WITNESSES

Jackson, Hon. Lisa, Administrator, U.S. Environmental Protection 
  Agency.........................................................    18
    Prepared statement...........................................    19
Jaczko, Gregory B., Chairman Nuclear Regulatory Commission.......    21
    Prepared statement...........................................    23
    Responses to additional questions from:
        Senator Boxer............................................    27
        Senator Inhofe...........................................    29
    Tables:
        Licensee Emergency Classes...............................    31
        Fees Billed for License Renewal 


        Most Recently Issued License Renewals 


Blakeslee, Sam, Senator, California State Senate, District 15....   115
    Prepared statement...........................................   116
    Responses to additional questions from Senator Boxer.........   133
Boyd, James D., vice chairman, California Energy Commission, 
  California Liaison Officer to the U.S. Nuclear Regulatory 
  Commission.....................................................   134
    Prepared statement...........................................   136
    Responses to additional questions from Senator Boxer.........   142
    Letter to Michael Lesar, Chief, U.S. Nuclear Regulatory 
      Commission, dated April 12, 2010 


Schiliro, Lewis D., J.D., cabinet secretary, Delaware Department 
  of Safety and Homeland Security................................   160
    Prepared statement...........................................   161
Sommerhoff, Curtis S., director, Miami-Dade Department of 
  Emergency Management...........................................   163
    Prepared statement...........................................   166
Pardee, Charles, chief operating officer, Exelon Generation 
  Company........................................................   167
    Prepared statement...........................................   170
    Responses to additional questions from:
        Senator Boxer............................................   177
        Senator Inhofe...........................................   180
Cochran, Thomas B., Ph.D., senior scientist, Nuclear Program, 
  Natural Resources Defense Council, Inc.........................   181
    Prepared statement 



                          ADDITIONAL MATERIAL

Letter of support from W. Gary Gates, president and CEO, Omaha 
  Public Power District, dated April 12, 2011....................   221

 
   REVIEW OF THE NUCLEAR EMERGENCY IN JAPAN AND IMPLICATIONS FOR THE 
                             UNITED STATES

                              ----------                              


                        TUESDAY, APRIL 12, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                 joint with
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The full committees met, pursuant to notice, at 2:45 p.m. 
in room 406, Dirksen Senate Office Building, Hon. Thomas R. 
Carper (chairman of the subcommittee) presiding.
    Present: Senators Carper, Barrasso, Boxer, Inhofe, 
Lautenberg, Udall, Merkley, Gillibrand, Alexander and Boozman.
    Also present: Representatives Capps and Bilbray.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The committee will come to order.
    When Senator Carper comes, I am going to ask him to take 
the gavel since he is the Chair of the appropriate 
Subcommittee. But I want us to get started because we have a 
number of witnesses today.
    I want to say welcome to my distinguished Ranking Member.
    Just over 1 month ago today, Japan was hit by a 9.0 
magnitude earthquake and a tsunami that measured roughly 30 
feet high. The devastation brought on by these catastrophic 
events is heart breaking and our deepest condolences go out to 
the victims and their families. Today we are hearing that this 
event now, in terms of radiation leaked, is equal to that of 
Chernobyl. So, the news is not good coming out of Japan.
    The tragedy serves as an important wake up call for us. We 
cannot ignore it. I think one thing that we would all agree to 
is we must plan for the unexpected and when we know of threats 
we must act quickly to address them. So, what can we learn from 
the tragic situation in Japan?
    The United States has 104 commercial nuclear power reactors 
operating at 65 sites in 31 States. Twenty-three reactors are 
boiling water reactors with Mark I containment systems like the 
ones at the Daiichi plant. It is true that the NRC has 
instituted an improvement program for this type of reactor. 
However, the lessons from the tragedy in Japan demonstrate the 
importance of reassessing the safety of these reactors.
    The compromised reactors in Japan, like those in the United 
States, were built on a set of assumptions regarding the 
potential magnitude of natural disasters such as earthquakes 
and tsunamis. We know that some U.S. nuclear facilities are 
located in areas with high and moderate seismic activity. I can 
tell you, you are going to hear from our people, that we have a 
couple of those.
    The situation in Japan has shown us we must take a hard 
look at the risk assumptions that were made when the reactors 
were designed. We know in the case of Japan, they designed it 
for a lower magnitude quake.
    As a result of the catastrophic situation in Japan, Senator 
Tom Carper, who is going to chair this hearing as soon as I 
complete my remarks, Tom Carper and I have called on the NRC to 
conduct a comprehensive review of all nuclear facilities in the 
United States to assess their capacity to withstand and respond 
to natural or manmade disasters.
    Senator Feinstein and I also requested special immediate 
attention be given to those U.S. nuclear reactors that are 
subjected to significant seismic activity or are located near 
coastlines such as San Onofre Nuclear Generating Station and 
Diablo Canyon Nuclear Power Plant.
    The NRC has identified both of these plants in California 
as being located in high seismicity zones. The Commissioners 
found another nine plants, which are located in North Carolina, 
Illinois, Georgia, South Carolina, Virginia and Tennessee, but 
they are in moderate seismicity zones.
    Both reactors in California are located in high density 
areas. Four hundred twenty-four thousand people live within 50 
miles of Diablo and 7.4 million people live within 50 miles of 
San Onofre. Let me repeat that. Four hundred twenty-four 
thousand people live within 50 miles of Diablo and 7.4 million 
live within 50 miles of San Onofre.
    Other nuclear facilities in the United States are also 
located in highly populated areas. If you look at the one in 
New York, it is about 17 million people live within that 50-
mile radius.
    Although evacuation plans are generally a State and local 
concern, there have been calls for more involvement from FEMA 
to assess those plans.
    Today we will hear testimony from a number of our 
colleagues as well as the Chairman of the NRC, Greg Jaczko, who 
has been so helpful to us moving forward, and of course we will 
hear from the Administrator of the EPA, Lisa Jackson.
    I am very interested to hear how the EPA is monitoring the 
radiation in the United States and we have, Lisa and I, have 
talked over the weeks. I am just making sure we have accurate 
up-to-date information on the radioactivity.
    We know that low levels of radiation have been detected in 
the United States from the compromised reactors in Japan. We 
can only imagine what the potential impacts on health and 
environment would be if, God forbid, we ever experienced the 
same type of accidents that occurred in Japan.
    Small but elevated levels of radiation have been detected 
in milk and other food. We are going to talk about that. 
Experts say that we are OK right now. I want to probe that. I 
want to make sure of that. Whether it is the NRC's review 
process of our reactors or EPA's monitoring of our drinking 
water, complete transparency and prompt disclosure are vital to 
maintaining the Government's credibility, our credibility, 
frankly, at this Oversight Committee.
    The Federal Government must heed the wake up call from the 
catastrophe in Japan. As Chairman of this committee, working 
with everybody on both sides of the aisle, and particularly my 
Subcommittee Chair, I will continue to provide vigorous 
oversight to ensure that we learn the tragic lessons from the 
Fukushima reactors and take reasonable steps to make our 
Nation's nuclear facilities as safe as they can be made.
    I know that Chairman Jaczko and Administrator Jackson share 
my concern for the safety of the American people. Our common 
goal is to ensure we are prepared and obviously we take another 
hard look at what is going on in our country at a time when we 
need every bit of energy we can get. There is no question about 
that. But, as we know from looking at what is going on over 
there, it is the unthinkable and we have to avoid it.
    So, with that I am going to turn the gavel over to Senator 
Carper and ask Senator Inhofe to make his opening statement.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, Senator Johanns was going to be here today. 
He is very interested in this hearing but was unable to do so. 
He asked if I would put into the record a statement from the 
Omaha Public Power District, which I put into the record right 
now, Mr. Chairman.
    Senator Carper. [Presiding.] Without objection.
    Senator Inhofe. Chairman Jaczko, I appreciate your efforts 
to assure the Nation that we are, that the nuclear plants here 
in the United States are safe and I appreciate very much, 
Administrator Jackson, your repeated assurances that traces of 
radioactive materials that have drifted here from Japan will 
not impact public health.
    I am sure we all agree that we need to study the accident 
at the Fukushima Nuclear Plant and learn from it. As Chairman 
Jaczko frequently reminds us, we cannot be complacent with 
regard to nuclear safety. Even so, we cannot allow ourselves to 
be paralyzed by fear. Any, harnessing any energy source carries 
some level of risk, and we need to be, to make sure that we can 
safely manage that risk.
    Ensuring the safe use of nuclear energy is a very serious 
job. In 1974, Congress established an independent Commission 
and charged five individuals with the responsibility to protect 
public health and safety. The public is best served by a 
Commission that functions collectively and collegially to pool 
their expertise. I am concerned that the public may currently 
be getting less than it deserves.
    I was surprised to learn from my staff that Chairman Jaczko 
has invoked emergency authority and transferred Commission 
functions to himself in the wake of the earthquake in Japan, 
especially after speaking with me personally by phone and then 
appearing before this committee. Let us get our dates straight 
because I want the Commissioner to address this.
    First of all, it took place on the 11th, our phone call 
took place on the 14th, the hearing took place on the 16th, and 
never was this mentioned that this was going to be invoked. The 
law confers emergency authority on the Chairman in the wake of 
an emergency at a particular facility or materials regulated by 
the NRC. At present, I am not aware of an emergency condition 
that exists in the United States, in any United States 
facility.
    Chairman Jaczko, I want to work with you as the NRC tries 
to understand what happened in Japan, what the United States 
can learn from it, but our collaboration, and indeed, 
collaboration with all of us in Congress, can only proceed 
prudently if we have openness and fairness and transparency. 
That applies to your office.
    So, as we move forward I hope you would provide us with 
full and complete information about your activities and that 
you will work with your fellow Commissioners in the same 
spirit. In that vein, I look forward to your testimony and to 
yours, Administrator Jackson, and to working with both of you 
on gaining full understanding of the impact of the Fukushima 
accident.
    Before I yield to my colleague, I think it is significant 
that I get my request in here. I am anxious to see progress on 
the nominations of Commissioners Ostendorff and Svinicki which 
I hope President Obama sends us soon. Given the scope of the 
issues before the Commission, it is important we have our 
Commission full with all the members appointed and confirmed.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Chairman Jaczko, I appreciate your efforts to assure the nation 
that our nuclear plants here in the U.S. are safe. Administrator 
Jackson, I also appreciate your repeated reassurances that traces of 
radioactive materials that have drifted here from Japan will not impact 
public health.
    I'm sure we all agree that we need to study the accident at the 
Fukushima nuclear plant and learn from it. As Chairman Jaczko 
frequently reminds us, we can't be complacent with regard to nuclear 
safety. Even so, we can't allow ourselves to be paralyzed by fear. 
Harnessing any energy source carries some measure of risk that must be 
safely managed for our nation to prosper.
    Ensuring the safe use of nuclear energy is a very serious job. In 
1974, Congress established an independent commission and charged five 
individuals with the responsibility to protect public health and 
safety. The public is best served by a commission that functions 
collectively and collegially to pool their expertise. I'm concerned 
that the public may currently be getting less than it deserves.
    I was surprised to learn from my staff that Chairman Jaczko has 
invoked emergency authority and transferred Commission functions to 
himself in the wake of the earthquake in Japan, especially after 
speaking with me personally by telephone and appearing before this 
committee in a public briefing--and failing to mention it either time. 
The law confers emergency authority on the Chairman in the wake of an 
emergency at a particular facility or materials regulated by the NRC. 
At present, I'm not aware that an emergency condition exists at any 
U.S. facility.
    Chairman Jaczko, I want to work with you as the NRC tries to 
understand what happened in Japan, and what the United States can learn 
from it. But our collaboration--indeed, collaboration with all of us, 
Congress--can only proceed fruitfully if we have openness and 
transparency. That applies to your office. So as we move forward, I 
hope you will provide us with full and complete information about your 
activities, and that you will work with your fellow commissioners in 
the same spirit.
    In that vein, I look forward to your testimony, and yours 
Administrator Jackson, and to working with both of you on gaining a 
full understanding of the impact of the Fukushima accident.
    But, before I yield to my colleague, I'd be remiss if I didn't say 
I'm anxious to see progress on the renominations of Commissioners 
Ostendorff and Svinicki which I hope President Obama sends us soon. 
Given the scope of issues before the Commission, it is important that 
the agency continues to benefit from their valuable expertise.

STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM THE STATE 
                          OF DELAWARE

    Senator Carper. You bet. Thank you very much, Senator 
Inhofe.
    Let me begin by saying, first of all, Senator Inhofe and 
Madam Chair, thanks very much for holding this hearing and for 
giving me the opportunity to co-chair it with you.
    Let me begin by saying that, again, I have said this before 
and I will certainly say it again here today, our thoughts and 
prayers go out to all of the citizens of Japan, especially 
those families of the thousands of disaster victims and those 
that are going through a very, very difficult time. As this 
tragedy unfolds, I encourage the Nuclear Regulatory Commission 
and other U.S. agencies to continue to coordinate with the 
Japanese government to provide any assistance that they need to 
recover.
    The events that struck Japan are reminders that we are all 
vulnerable to unexpected disasters, whether it is an act of 
nature or a terrorist attack. While we cannot predict when or 
where the next major disaster will occur, we know that it will 
occur and we also know that adequate protection, adequate 
preparation in response planning are vital to minimize both the 
injury and death when it does happen.
    Today's hearing is one of many I hope that this committee 
will have to make sure that our Nation has prepared for the 
worst in order to prevent any lives lost from nuclear power in 
this country. In the United States we have, as you know, 104 
nuclear power plants in some 31 States which generate 
approximately one-fifth of our Nation's total electric 
consumption. Nuclear power has helped to curb our reliance on 
dirty fossil fuels and reduce air pollution that damages our 
health and causes global warming.
    Over the years, the NRC has strived to create a culture of 
safety in the nuclear energy industry and as long as I have 
been on this Subcommittee, we have worked very hard to 
reinforce those efforts. As a result, we have seen, not seen, 
any direct deaths from nuclear power by radiation exposure in 
this country in over 50 years.
    As part of its culture of safety, the NRC requires nuclear 
facilities to be designed to withstand natural disasters and 
terrorist attacks. After September 11th, the NRC took a closer 
look at the nuclear industry and put in place additional safety 
and security requirements.
    Despite all of the protections that are in place, the 
crisis in Japan is a clear warning, a clear reminder, that we 
cannot become complacent when it comes to nuclear safety. I 
often say it, and my colleagues are tired of hearing me say it, 
if it is not perfect, make it better. That certainly applies to 
nuclear plants and the way that they are operated with respect 
to their safety.
    That is why Chairman Boxer and I asked the NRC for a 
conference review of our nuclear fleet. We want to make sure 
that every precaution is being taken to safeguard the American 
people from a similar nuclear accident. The NRC is just getting 
started on this review and I anxiously await their results.
    Today I look forward to hearing from our witnesses an 
update on the Fukushima Daiichi Nuclear Plant and an update on 
our response to that crisis. I also look forward to hearing 
what we can learn from the ongoing crisis in order to prevent 
similar events from occurring right here.
    I am particularly interested in hearing about the State of 
Emergency Planning Process from the Delaware Department of 
Safety and Homeland Security. Secretary Schiliro, we welcome 
you especially.
    As Chairman of the Subcommittee on Nuclear Safety, I take 
seriously my responsibilities, our responsibilities, to make 
certain that we are taking appropriate measures to make the 
nuclear industry as safe as it can possibly be. As I said 
before, while I am a proponent of clean energy, my top priority 
of our domestic power, our nuclear power industry, to me is 
public safety.
    With that having been said, I look over to my right and I 
see Senator Lamar Alexander of Tennessee. We welcome you and 
await your comments.
    [The prepared statement of Senator Carper follows:]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    Let me begin by saying my thoughts and prayers go out to all 
citizens of Japan, especially to the families of the thousands of 
disaster victims. As this tragedy unfolds, I encourage the Nuclear 
Regulatory Commission (NRC) and other U.S. agencies to continue to 
coordinate with the Japanese government to provide any assistance they 
need to recover.
    The events that struck Japan are reminders that we are all 
vulnerable to unexpected disasters, whether an act of nature or a 
terrorist attack. While we cannot predict when or where the next major 
disaster will occur, we know adequate preparation and response planning 
are vital to minimize injury and death when it does happen. Today's 
hearing is one of many I hope this committee will have to make sure our 
nation has prepared for the worst--in order to prevent any lives lost 
from nuclear power in this country.
    In the United States we have 104 nuclear power plants in 31 states, 
which generate approximately a fifth of our Nation's total electric 
consumption. Nuclear power has helped curb our reliance on dirty fossil 
fuels and reduce air pollution that damages our health and causes 
global warming.
    Over the years, the NRC has strived to create a ``culture of 
safety'' in the U.S. nuclear energy industry. As a result, we have not 
seen any direct deaths from nuclear power plant radiation exposure in 
this country. As part of its ``culture of safety,'' the NRC requires 
nuclear facilities to be designed to withstand natural disasters and 
terrorist attacks. After September 11th, the NRC took a closer look at 
the nuclear industry and put into place additional safety and security 
requirements.
    Despite all the protections in place, the crisis in Japan is a 
clear warning that we must not become complacent when it comes to 
nuclear safety. As I often say, if it is not perfect, make it better. 
That is why Chairman Boxer and I asked the NRC for a comprehensive 
review of our nuclear fleet. We wanted to make sure every precaution is 
being taken to safeguard the American people from a similar nuclear 
incident. The NRC is just getting started on this review and I 
anxiously await their results.
    Today, I look forward to hearing from our witnesses an update on 
the Fukushima Daiichi nuclear plant and update on our response to that 
crisis. I also look forward to hearing what we can learn from the 
ongoing crisis in order to prevent similar events from occurring here. 
I'm particularly interested in hearing about the State emergency 
planning process from Delaware Department of Safety and Homeland 
Security Secretary Schiliro.
    As Chairman of the Subcommittee on Nuclear Safety, I take seriously 
my responsibility to make certain we are taking the appropriate 
measures to make the nuclear industry safe. As I have said before, 
while I am a proponent of clean energy, my top priority for our 
domestic nuclear power industry remains public safety.

STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM THE STATE 
                          OF TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman. I want to thank 
you and Senator Boxer for----
    Senator Carper. Senator, Senator, I did not notice that 
Senator Barrasso had stepped in.
    Senator Barrasso.
    [Remarks off microphone.]
    Senator Carper. Are you sure? OK, thank you very much.
    Senator Alexander. Thanks, Senator Barrasso. Well, I want 
to thank everybody. I thank Senators Boxer and Carper for 
having the hearing.
    I think nuclear power is, and I have said this before the 
Japan accident, something we ought to have more oversight of 
and that is because it is complex science, it is complex 
engineering, and it is vitally important to the future of our 
country.
    I remember back when I was Governor of Tennessee in the 
1980s. We had a question that was presented to me when we were 
building, TVA was building, one of its nuclear power plants. 
The issue was whether to distribute iodide tablets to people 
who were in the area of the new nuclear power plant.
    Some people said, oh, do not do that because you will scare 
people to death. The other argument, of course, was, well, if 
it would, if people understand what they are for, and they are 
only to be used in the event of an emergency, then it is better 
to go ahead and talk about the process that we are using and 
let people know what we are dealing with. So, I made the 
decision then, let us go ahead and let people who live within 
the area of the nuclear power plant have access to iodide 
tablets in case there was a problem.
    I feel the same way today about our nuclear power program 
in the United States and what happened in Japan. I cannot 
imagine a future for the United States that does not include 
nuclear power to create electricity. I mean, it is only 20 
percent of our electricity, but it is 70 percent of our clean 
electricity. Senator Carper has been very consistent. He cares 
deeply about climate change. This is one way to deal with it. 
He and I have worked hard on clean air in the Smoky Mountains 
and the East Coast. This is one way to deal with it.
    So, it is hard to imagine that. But on the other hand, I 
think those of us who, who find it especially important have 
maybe a special responsibility to see that there is clear 
oversight and public understanding of this complex system of 
science and engineering so that people are comfortable with 
whatever risks there are.
    As we look at our own history, actually, we have done a 
fair job of that. I mean, Three Mile Island spawned several 
improvements such as the Institute for Nuclear Power 
Operations, which has improved safety. It is important for 
Americans to know that while Three Mile Island was a 
significant accident and a big problem, that no one was hurt at 
Three Mile Island. That is important to know.
    September 11th. That had nothing to do with nuclear power 
but it caused nuclear power operators around the country to 
take a look at what would happen if there were a terrorist 
attack. You can go on YouTube and see what happens when an F-4 
Phantom Jet runs into a concrete wall at 500 miles an hour. The 
jet vaporizes but the plant is still there.
    Hurricane Katrina had nothing to do with nuclear power but 
it caused operators at the 104 nuclear plants around the 
country and the Nuclear Regulatory Commission to think about 
well, what would happen if we had a horrific event like the 
size of Hurricane Katrina.
    So, I think we still have a lot to learn from what happened 
in Japan. For example, spent fuel storage. There is a lot of 
talk about that. It helps us think about, is it possible, how 
long should it be in pools, how soon could it go to dry casks? 
It is important also to know, as the Chairman of the Nuclear 
Regulatory Commission says, as Dr. Chu has said, the 
President's Energy Chief and Nobel Prize Winning Physicist, 
that it is safe to store spent fuel onsite for 100 years.
    It is important to know that all the fuel that we have 
produced that is used fuel from commercial reactors in the 
United States would fit on one football field to a depth of 
about 20 feet. That is the mass that we are talking about.
    It is important to ask, what about Yucca Mountain? We do 
need to eventually dispose of it. We have collected $30 billion 
to pay for an eventual disposal. Why do we not do it?
    We could ask about safety improvements. We should be 
thinking about new reactors. In Tennessee, TVA's got 3,200 
people building a new reactor at Watts Bar. How can we know it 
is even safer than the other 104 reactors we have had at which, 
as Senator Carper said, we have not had one single fatality 
related to a reactor in the last, well, in the history of those 
facilities?
    So, there are important questions to ask. There is a lot of 
information to learn from the Japan disaster. But it is 
important, at the same time, to recognize the safety record 
that we have for this form of energy production in the United 
States and keep it all in perspective.
    Senator Carper and Senator Boxer, I welcome these hearings. 
The more of them, the better. I believe that the more we 
understand and talk about this complex system of energy 
production, the safer it is likely to be and the more useful it 
will be to help produce clean air in our country.
    Thank you.
    Senator Carper. Thank you, Senator Alexander. If it is OK 
with Senator Barrasso, I am going to slip over to Senator Udall 
and then back to you. OK? Senator Udall.

STATEMENT OF HON. TOM UDALL, U.S. SENATOR FROM THE STATE OF NEW 
                             MEXICO

    Senator Udall. Thank you, Senator Carper, and thank you 
very much, you and Senator Boxer, for holding this hearing. I 
appreciate very much and welcome my colleagues that I served 
with over in the House and look forward to hearing their 
testimony.
    As Senator Carper and others have said, I think our 
thoughts and prayers really do go out to the Japanese people 
for this tragedy and what has happened to them. I know when I 
talked the other day with Japan's Ambassador to the United 
States he was very, very appreciative of the level of 
scientific support that we were giving Japan. I know many 
scientists have come from both California and New Mexico and 
from our national labs and so that is something that they 
appreciate and I think we are all very proud of.
    This is a three-part disaster, an earthquake, a tsunami and 
a nuclear crisis and it is tragic. Americans should focus on 
assisting our close friends, the Japanese, in recovering from 
it. Nuclear energy has tremendous potential for good and also 
for harm. Nuclear accidents are rare, but their consequences 
can be severe. Nuclear energy safety must be the top priority 
for Government regulators and it should be the top priority for 
the industry as well.
    The Japanese crisis underscores the need for information 
transparency. Nuclear energy will almost certainly continue to 
be part of America's energy mix. We have 100, 104 reactors 
today, and if it economic, more will be built. But it will be 
harder to build reactors if the public lives in fear of them.
    Our role in Congress is to conduct the oversight to ensure 
that the NRC and the EPA do their job and ensure U.S. nuclear 
power plants are safe. Safety standards are of the utmost 
importance and we should be highly skeptical of proposals to 
``streamline'' or cut corners on safety standards. It will be 
up to the banks and the investor community to decide whether to 
invest in nuclear power projects compared to the other 
investment options out there.
    Nations like France, which rely heavily on nuclear power, 
also have taxpayers picking up most of the tab. That is not 
realistic for the United States' current budget situation.
    So, I very much appreciate this list of witnesses today and 
I am going to yield back my time so we can get quickly to the 
witnesses.
    Senator Carper. Thank you, Senator Udall.
    Senator Barrasso is the Ranking Republican Member of the 
Subcommittee on Clean Air and Nuclear Safety. Senator Barrasso, 
thank you for your patience.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I appreciate our guests for being here to testify and I 
want to associate myself with the opening remarks of Senator 
Udall regarding his concerns for the people of Japan. 
Absolutely. Incredible challenges, incredible loss and I think 
the hearts of all of us on this committee, and in this Body, 
have great, great concerns for the people in Japan.
    The tsunami and the earthquake occurred in Japan, not in 
the United States. The emergency that preceded the tsunami and 
the earthquake occurred in Japan. The emergency response is 
occurring in Japan with the help of the United States.
    Some people seem to want Americans to believe that the 
disaster occurred here and that is not the case. As Ranking 
Member Inhofe has pointed out, the current Chairman of the 
Nuclear Regulatory Commission is operating under his emergency 
powers since the disaster first occurred. The reasons why these 
emergency powers continue to be in effect, and the implications 
that has for future chairmen, does not have implications for 
the United States nuclear safety, does have implications for 
the United States nuclear safety response. This is one of the 
reasons that I believe the hearing today is so important.
    Some want to use this crisis in Japan as a tool to wipe out 
nuclear power in the United States. For example, there is an 
April 6th inside EPA story entitled ``Activists Step Up Effort 
to Strengthen Oversight of Uranium Recovery.'' The article 
states that ``environmentalists are stepping up their efforts 
to push EPA to strengthen its oversight of uranium mining and 
processing operations in the wake of the Japanese nuclear 
disaster, targeting the processed metal because its extraction 
marks the first step in the nuclear fuel cycle that its 
proponents tout as a low carbon alternative to fossil fuels.''
    Well, how uranium mining is tied to the Japanese nuclear 
emergency is beyond me. I would hope that the EPA 
Administrator, who is with us today, would ignore these types 
of attacks which would have occurred whether the Japanese 
disaster occurred or not.
    Earlier today in this very committee we heard testimony 
from those who want to stop hydraulic fracturing. This is the 
process whereby we can tap America's vast domestic natural gas 
reserves. Apparently, these activists do not want natural gas 
either.
    By attacking all of the affordable energy sources, 
including our nuclear and natural gas, activists are driving up 
the cost of energy. They are raising the costs of running a 
factory, or a mine, or a small business. They are raising the 
cost of heating and cooling homes across this country. This 
will cost thousand of jobs during our economic downturn.
    We cannot reach a clean energy future without natural gas 
and without nuclear power. We need all the power, not just 
some. That means coal, natural gas, wind, solar, hydro, 
geothermal and nuclear power. As Senator Carper and I talk 
about and discuss and agree, the cheapest energy is energy that 
is not used. So, we need to be more efficient in how we use our 
energy.
    But we need the kind of energy mix that keeps factories 
running and homes heated. Countries like Germany, which are 
phasing out domestic nuclear power, are discovering this fact. 
The Washington Post ran an Associated Press story on April 6th 
entitled Utilities: Germany Now Importing Energy After Taking 
Nuclear Power Plants Off the Grid. The article goes on and 
states that Chancellor Angela Merkel's decision to take some 
atomic power plants offline in the wake of Japan's disaster 
means Germany is now importing power from its nuclear-reliant 
neighbors. It goes on to say Germany now imports about 50 
gigawatts, gigawatt hours, or the capacity equivalent to 1.5 
reactors, from France and the Czech Republic every day. This is 
from the German Association of Energy and Water Industries.
    So, this same pattern that we are seeing in Germany will 
occur in the United States. American States that declare 
themselves nuclear free, whether they are California or 
elsewhere, whatever States declare themselves nuclear free and 
shut down their nuclear plants will have to have power shipped 
in from neighboring States. It is an energy shell game and it 
will not hide America's growing need for affordable domestic 
energy to power our economy.
    Let us be careful not to jump to conclusions and try to 
shut down another domestic energy source. Let us work together 
to make America's energy as clean as we can as fast we can 
without raising energy prices and costing American jobs.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Senator Carper. Thank you, Senator Barrasso.
    Senator Lautenberg.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    As said, we all agree that our sympathies, our concern and 
our desire is to be of help to the people in Japan who are 
affected as a result of the earthquake, tsunami and nuclear 
emergency. But we want to learn from it and we want to make 
sure that we are doing what we can for the people in our 
country.
    Since the latest disaster began unfolding, Americans have 
had one question on their minds. Could it happen here? I am not 
willing to wait to find out. We need to answer that question 
now.
    Soon after the meltdown in Japan began, I asked the Nuclear 
Regulatory Commission to conduct a comprehensive review of New 
Jersey's four nuclear power reactors which provide our State 
with about half of its electricity. I also requested the chief 
executives of New Jersey's nuclear power companies to join me 
in my office where they agreed to a thorough safety review at 
each of the four reactors. The people of New Jersey need to 
know if our State's nuclear plants are safe and we are 
determined to make sure that they get the peace of mind that 
they deserve, but the reality of being protected.
    But this is not the only issue in New Jersey. Nuclear 
energy provides 20 percent of America's electricity and so we 
have to make nuclear safety a national priority. The United 
States has a good track record of keeping our plants safe. 
There have been few accidents and few fatalities. But we have 
got to remain vigilant if we want to preserve this record.
    Now Japan, a world leader in technology in its plants, were 
built to resist earthquakes. But as we know, it was not enough. 
So here in the United States we cannot take anything for 
granted.
    To keep Americans safe also means making sure that we give 
citizens, our citizens, a clear guidance during emergencies. I 
was troubled when American citizens in Japan were told to stay 
at least 50 miles away from the site of this meltdown. In our 
country, the NRC Emergency Guidelines require people to stay 
only 10 miles away from plants during emergencies.
    So, make no mistake, nuclear power generates emission-free 
energy and it should and will be part of our energy future. But 
we cannot ever trade people's safety for the sake of meeting 
our energy demands. We saw Chernobyl a quarter of a century 
ago, the effects of a single nuclear accident that will linger 
for generations.
    So, I look forward to hearing from today's witnesses, and 
thank our colleagues from the House, about how we can learn 
from the past mistakes and make sure that nuclear power remains 
a safe, clean energy source.
    I want to respond to something that we heard, talked about 
this morning and that is, well, costs. Costs. Nuclear power 
does so much for us but has risks. When we think of the 
contribution that nuclear power brings to our energy needs, we 
know that we are going to keep on having nuclear power created. 
But burning fossil fuel has an extra cost. It has a lasting 
effect on our environment and on the health and wellbeing of 
our citizens.
    So, when we look at the costs for energy, we have to look 
at the costs of unfit air for those who have asthma or 
otherwise, and pollution generally. So, we have to look at the 
whole picture and I assure you that we would like to do just 
that.
    Thank you very much.
    Senator Carper. Thank you, Senator Lautenberg.
    Senator Merkley.

STATEMENT OF HON. JEFF MERKLEY, U.S. SENATOR FROM THE STATE OF 
                             OREGON

    Senator Merkley. Thank you, Mr. Chair.
    I express my deepest sympathies to the families in Japan, 
victims of the triple tragedy, the earthquake, the tsunami and 
certainly the nuclear disaster. I thank all of the heroes in 
Japan who raced to the scene to provide assistance to victims 
of the earthquake and tsunami and those who are working around 
the clock to cool the nuclear reactors and contain the 
radiation that is being released.
    It is very much our worst nightmare that a natural disaster 
of some kind should cause us some more tragedy in the United 
States and that is why it is certainly appropriate and 
important that we do everything possible to take and look at 
the lessons in Japan and apply them to our own system. Just as 
we applied a stress test to the banks in the financial crisis, 
we need to apply a stress test to our nuclear plants and 
understand what the weaknesses are.
    When the disaster happened in Japan, and certainly a lot of 
the discussion was around the cooling pools for rods, I was 
taken back to when I was traveling through Hanford many years 
ago, about 14 years ago, and was looking at the cooling pool at 
Hanford, and it had that kind of eerie blue glow at the bottom 
of the pool. I asked the question, if an earthquake occurs and 
it splits this pool, what happens when the water rushes out? 
Basically the response was a blank look with that would be bad. 
Certainly we have to be prepared in far better ways than simply 
saying that something would be bad.
    In the last two decades, we have built only three new 
nuclear reactors because the cost is so high by the time we 
account for human error, by the time we account for natural 
disaster, and by the time we account for terrorist attack and 
design plans accordingly. We have to take a look at those 
things because the upside risk is so substantial. So that is 
certainly a factor.
    We have strategies that have been put forward by groups 
like New Scale, a group in Oregon, other research that has been 
done on pebble bed strategies that have failsafe mechanisms 
and/or passive protections that I think certainly should be, we 
should look into and understand that part of this conversation, 
whether fundamentally different designs would greatly mitigate 
the risks.
    These disasters occur because we lose the heating transfer 
medium and plants overheat. But there are designs intended to 
make sure that there is no meltdown even when that happens, 
whether the medium be water or the medium be helium. That needs 
to be part of the national discussion.
    So with that, thank you very much, Madam Chair, and I yield 
back the balance of my time.
    Senator Carper. I believe the next person we recognize is 
Senator Gillibrand.
    Senator Gillibrand.

STATEMENT OF HON. KIRSTEN E. GILLIBRAND, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Gillibrand. Thank you so much, Mr. Chairman, for 
holding the hearing. Madam Chairwoman, I appreciate you holding 
this hearing as well. This is obviously an issue that we share 
a great passion for and in light of the disaster in Japan, I am 
really looking for answers. So, I just want to thank you both 
for drawing attention to such a serious issue.
    I want to thank Chairman Jaczko for coming. Congresswoman 
Capps, thank you so much for spending time with us to answer 
our questions.
    I may not have the opportunity to ask my questions, but I 
do want to highlight some of the areas of my concern and I will 
submit the questions directly for answers for the record, but I 
do hope you get to address this in part of this hearing.
    One issue is the issue of licensing exemptions. Now, in the 
Indian Point Plant, which is the one that serves about 30 
percent of New York's electricity right now, within a 50-mile 
radius it hits 16 million people. So, we have significant 
concern to focus on that, and all the plants in New York, to 
make sure they are safe.
    Now, with Indian Point, there have been a number of waivers 
given. I would like an analysis and a review of in what 
instances are waivers given? Are you going to re-look at the 
issue in light of the Japan disaster to see if those waivers 
were legitimate, if they should be reconsidered and perhaps 
withdrawn? The issue of waivers is something I care a lot 
about.
    The second issue is the issue of evacuations. In Japan, we 
have evacuated U.S. citizens within a 50-mile radius. The plan 
with regard to Indian Point is a 10-mile evacuation plan. I 
would like to know the reason why there are differences in 
evacuation plans.
    To do a 10-mile evacuation for Indian Point takes 9 hours. 
I understand that there are different types of redundancies at 
Indian Point, one is a going to a diesel system and another 
diesel thereafter, but, then it is a battery system that only 
lasts for 3 hours. How do you reconcile evacuations with what 
your redundancies are and how capable they are in such a 
situation?
    I also care a lot about security issues. Now, obviously, we 
are soon on the 10-year anniversary of 9/11 and one of the 9/11 
Commission recommendations was to secure all nuclear 
facilities. I would like to have an opportunity to talk to you 
about those security measures and where they stand and what 
kind of investigations are you doing with regard to employees, 
with regard to background controls and other potentially 
vulnerable infrastructure issues.
    Then the last issue is the spent fuel pool and dry cask 
storage issue. Are these pools designed to be long-term 
storage? What do you intend to do to move them from fuel pool 
to dry cask storage facilities as a general matter for safety?
    So, obviously that is a long list of concerns and issues. 
If you do get to address them, I will be very grateful. If not, 
I will submit them all for the record, Madam Chairwoman.
    Thank you very much, again, for your testimony.
    Senator Carper. Thank you for your statement and 
introducing Congresswoman Capps and Congressman Bilbray. Let me 
just say to Congresswoman Capps, thank you so much for sharing 
with us a former member of your staff, Emily Spain. She is a 
gift to the people of Delaware. So, we are grateful for that.
    With that, we would like to recognize Congresswoman Lois 
Capps, 23d District of California, and followed by Congressman 
Brian Bilbray, the 50th District of California. How many do you 
all have, 53? Fifty-three. We have one.
    [Laughter.]
    Senator Carper. But as I like to say in Delaware, if you 
can only send one, send the best.
    We are glad you are here, we recognize you and please 
proceed.

  STATEMENT OF HON. LOIS CAPPS, U.S. REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Ms. Capps. Thank you. Chairwoman Boxer, Ranking Member 
Inhofe, Chairman Carper and Members of the committee, thank you 
for holding this hearing and for the opportunity to testify.
    I am here today because my congressional District includes 
Diablo Canyon Nuclear Power Plant, which has become a central 
focus in the weeks following the Japanese earthquake, tsunami 
and subsequent nuclear crisis.
    Last month, I called upon the NRC to stay the license 
renewal process for Diablo Canyon until further studies 
demonstrate that the plant's design and operations can 
withstand an earthquake and other potential threats. Yesterday, 
Pacific Gas & Electric, which I will refer to as PG&E, asked 
the NRC to delay its license renewal application while it 
completes their studies.
    Here today, in light of PG&E's action, I am renewing my 
request to the NRC to halt the re-licensing process. I do not 
make this request lightly. Last month, I again toured the 
Diablo Canyon Nuclear Power Plant. Following that visit, I was 
convinced of two things. First, that the employees are 
committed to getting it right. Second, that we are not there 
yet.
    I am not alone in that assessment. I am grateful to be 
joined today by my constituent, California State Senator Sam 
Blakeslee, who also represents Diablo Canyon and its 
surrounding communities. State Senator Blakeslee will testify 
today both in his role as State elected official and also as a 
scientist with a Ph.D. in seismic studies. I am confident that 
our shared assessment of the situation will offer the committee 
valuable, on the ground insight into the current and future 
landscape of nuclear power in California.
    The bottom line is this. We do not have the answers we need 
to confidently move forward in extending the licensing 
agreement of Diablo Canyon. We should not move forward until we 
have those answers. Because the reactors do not need to be 
relicensed for more than a dozen years, we have plenty of time 
to find those answers.
    Mr. Chairman, what happened so tragically in Japan offers 
us an opportunity to question and question again whether we are 
ready, whether we can handle the unthinkable. Now, the NRC is 
already, had already determined that it is non-credible that 
there could be multiple catastrophes such as an earthquake and 
a meltdown at Diablo Canyon Plant. The NRC has maintained, 
``The chance of such a bizarre concatenation of events 
occurring is extremely small. Not only is this conclusion well 
supported by the record evidence, it accords most eminently 
with common sense notions of statistical probability.''
    Yet, the unthinkable did happen in Japan. An earthquake, a 
tsunami, and a nuclear accident, all occurring in sequence. 
Clearly, a bizarre concatenation of events is not merely 
hypothetical.
    Mr. Chairman, let us be clear. We know seismic uncertainty 
exists at the Diablo Canyon site. In the early 1970s, while the 
plant was originally under construction, scientists discovered 
the Hosgri Offshore Fault less than three miles away, forcing a 
major re-design and pushing the project billions of dollars 
over budget.
    In 2008, scientists discovered yet another fault, the 
Shoreline Fault, which lies offshore less than one mile from 
the plant. The stakes were raised just last month when the NRC 
confirmed that Diablo Canyon was one of two nuclear power 
plants in the highest risk area for seismic activity in the 
entire country.
    Clearly, we need answers to major questions. Can this 
plant, including the spent fuel pool, withstand an earthquake 
and a nuclear accident at the same time? How long would the 
plant be self-sustaining in the event of such damage? Is Diablo 
Canyon's evacuation plan during an incident workable?
    Many of us on the central coast of California remain 
concerned that the NRC has not taken action to answer these 
questions or address these warnings, so much so that the 
California Energy Commission has recommended, and our State 
Public Utilities Commission has directed, that independent, 
peer reviewed, advanced seismic studies be performed prior to 
applying for re-licensing. I agree with this assessment. That 
is why it is so important to halt the re-licensing process. We 
need to take some time to get all the answers.
    It is important to note that I am not calling for Diablo 
Canyon to be shut down. I am also not calling for PG&E to be 
denied an operating license. What I am doing today is asking 
that the re-licensing process be halted until updated, state-
of-the-art seismic studies and 3D seismic mapping are 
completed, that they be considered as part of the re-licensing 
process, and that these studies be done by third party, 
independent scientists.
    Failure to do so is unwise and irresponsible. It will feed 
public uncertainty about the oversight and safety of nuclear 
energy and it could cost taxpayers billions of dollars to once 
again belatedly address issues that should have been dealt with 
beforehand. That is why I am hopeful the NRC will work with all 
stakeholders to get answers to the seismic questions which, at 
this point, remain unstudied and unresolved prior to the 
continuation of the re-licensing process.
    Once again, I thank you for the opportunity to testify 
today.
    Senator Carper. Congresswoman Capps, thank you so much for 
coming. I very much appreciate it.
    Congressman Bilbray, welcome.

 STATEMENT OF HON. BRIAN P. BILBRAY, U.S. REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Mr. Chairman. Madam Chair, Members 
of the committee, it is an honor to be here.
    Let me say, first of all, as a lifelong resident of San 
Diego County, I have the same concerns that everyone who lives 
downwind of a nuclear power plant would have after seeing what 
happened in Japan. Every one of my children and grandchildren, 
except for those that have been exiled to Helena, MT, live 
within not only the downwind area from San Onofre but also 
within the tsunami zone of San Diego County.
    I speak not just as a father and a grandfather, but as 
somebody who had the privilege of serving two terms as the 
Chairman of the Disaster Council for the 3 million people of 
San Diego County that designed the evacuation and response to 
not just the nuclear issue but also the tsunami issue, and also 
had the privilege of serving on the California Coastal 
Commission, an agency that has oversight and review of the 
nuclear power plants in California. This issue really did bring 
back memories of all the hearings and processes that we have 
had.
    Frankly, there are still the facts to be taken, still 
research that needs to be done. But I think there are some 
indications that are very, very enlightening. One was the fact 
that even though the Japanese was not designed to those 
engineered at California plants, it did survive an earthquake 
that is well over what our plants ever perceived to be.
    In fact, the 9.0 that we are talking about that has struck 
this plant, we are looking at 7.0 maximum, or 7.2 maximum in 
California. That frequency of 7.2, as pointed out by Secretary 
Chu, occurs every 7,000 to 10,000 years. So, it gives you an 
idea of the engineering.
    The Japanese were hit with a ground motion of .52. Our 
California San Onofre is designed not for a .52 but for a .67. 
You have to remember that this is also in a region that 
geologists say will not get anything over a 7.2, and that 7.2 
will be between 7,000 and 10,000 years. It gives us some 
perspective of the challenges we have to have.
    The biggest concern was the fact that it was not the 
earthquake, as we know with the information now, but it was the 
tsunami. As a surfer, let me tell you something. This is not 
one thing that is joking in any matter, but it is one that is 
very, very disconcerting.
    The fact is that Japan had a 10-foot surge wall. San Onofre 
is sitting on a 20-foot elevation with a 30-foot-plus surge 
wall. Diablo is around 85. Obviously, in an area where all the 
experts say that the tidal waves would never reach that level, 
but if they did, the difference between the California 
facilities and the Japanese facilities is that the California 
facilities have gravity-feed cooling built into their system 
and they have their pump systems totally protected from 
inundation, which the Japanese did not have. They did not even 
have their fuel tanks protected, which was a major flaw. I 
think that is where good assessment can really be made on this 
issue.
    Now remember as we talk about nuclear, ladies and 
gentlemen, as a former member, 6 years on the Air Resources 
Board, we are talking about 20 percent of our energy that 
avoids emissions equal to 96 percent of all the automobiles 
that are driving on American soil. I think that we have got to 
recognize that the challenges that we have to go forward, 
especially those of us who are addressing environmental issues, 
need to remember that even the U.N. Council on Climate Change 
has said that a robust commitment to nuclear is, has to be, 
part of any plan looking to address climate change.
    But I think that one of the things we need to get out of 
this, Madam Chair and Mr. Chairman, is that where are we today, 
have we over engineered and was that over engineering prudent. 
I think the one thing that it looks like in California is we 
have and that should be reassuring.
    My biggest concern is that we do not talk about the fact 
that, as Madam Chair knows, we are not just talking San Onofre 
in San Diego, we are talking many nuclear reactors that are 
within not just miles but within yards of residences in San 
Diego that the U.S. Government owns. Those are issues that we 
sort of ignore and I think this one we address.
    I guess the biggest issue, and I would like to agree with 
you strongly on, Senator, is not just how do we address the 
technology that is 40 years old that we have on the ground 
operating today, but how do we move forward with technology 
that has been upgraded that not only avoids the threats of 
meltdowns, totally engineers out that problem, but also creates 
the opportunity to address that waste problem, that 100 yard by 
20 foot, that now nuclear waste not only could be a fuel that 
could be burned in the new technology that is now safe and 
designed not to do this, but also a technology that could use 
up our weapons grade material as we talk about going to zero 
options.
    So, I appreciate the chance to be able to address you 
today, Mr. Chairman.
    Senator Carper. Congressman Bilbray, Congresswoman Capps, 
great of you to come. Thank you so much for your contributions. 
We look forward to seeing you soon. Thank you.
    With that we are going to invite our second panel, Chairman 
Jaczko, Administrator Jackson, to join us at the table please. 
Neither of our guests on the second panel are strangers to this 
committee. It is great to see both of you. We appreciate your 
stewardship and the hard work that you are doing in response to 
the disaster, the disasters, in Japan.
    First we will hear from Lisa Jackson, who is the 
Administrator of the Environmental Protection Agency, and 
following her testimony, we will hear from Greg Jaczko, who is 
the Chairman of the Nuclear Regulatory Commission.
    I will ask you to use about 5 minutes for your statement, 
and then we will have some questions.
    Thank you so much for coming. Your entire statement will be 
made part of the record.
    Please proceed.

 STATEMENT OF LISA JACKSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Thank you, Chairman Carper. To you, Chairman 
Carper, Chairwoman Boxer, our Ranking Member Inhofe, and all 
the members of this committee, thank you for inviting me to 
testify on EPA's role in responding to the tragedy in Japan.
    I do want to begin by expressing my sympathy for those who 
have lost loved ones from the earthquake and tsunami, and my 
support to those who are working tirelessly to control the 
radiation at the Fukushima Daiichi Plant in Japan. Their 
efforts are selfless and truly heroic.
    As Japan works to address the challenges at their nuclear 
reactors, many Americans are concerned about what the 
radiological releases to the atmosphere may mean to them and 
what their Government is doing to make sure that they are safe 
here in the United States.
    Let me begin by speaking directly to those who are 
concerned about radiation detection that monitoring and 
sampling from EPA and other Federal agencies are picking up 
throughout the United States. Let me be clear. EPA has not 
seen, and does not expect to see, radiation in our air or water 
reaching harmful levels in the United States.
    All of the data which we have seen, which we continue to 
make public and available on our Web site, indicates that while 
radiation levels are slightly elevated in some places, they are 
significantly below problematic levels.
    To put this in perspective, days after the tsunami struck, 
we detected radioactive isotopes consistent with a nuclear 
incident at several air monitors along the West Coast. These 
readings were so minuscule that they were 100,000 times lower 
than the daily exposure we all receive.
    Keep in mind that all of us are exposed to radiation every 
day, both from natural sources such as minerals in the ground 
and manmade sources such as medical x-rays. That said, we will 
continue to monitor the environment for radiation. We will 
continue to make the data public. We will continue to explain 
what the data mean to the people and families we serve. As I 
have said to this committee many times before, transparency and 
communication with the public is a priority for our agency and 
will guide all of our actions.
    EPA's main role in this response is simple but very 
important. Using a variety of techniques, we monitor and track 
radiation and radionuclide releases into the environment in the 
United States. These radioactive releases range from ones that 
dissipate from the environment within days, such as iodine, to 
those that have half-lives of thousands of years, such as 
plutonium.
    Let me speak for just a moment about those monitoring 
efforts. EPA's nationwide radiation monitoring network, known 
as RadNet, continuously monitors the Nation's air, drinking 
water, rainwater and milk. The data provide the information 
scientists need to estimate long-term trends in environmental 
radiation levels and allows them to detect minuscule increases.
    RadNet's air monitoring system is made up of more than 100 
fixed stations that create a network of detection across the 
United States. Over the last 5 years, EPA has been enhancing 
the capabilities of the RadNet system by replacing existing 
monitoring equipment with new air monitors that send real time 
data to our laboratory.
    In response to the Japanese nuclear incident, we added to 
this system by quickly deploying mobile air monitors to far 
westerly locations, including Alaska and islands in the 
Pacific, to detect radiation as it slowly moved from Japan.
    In addition, several times a week, we collect filters from 
these air monitors and perform a detailed analysis that lets us 
find even minuscule amounts of radioactive material in the air.
    EPA also samples rainwater for radioactive isotopes. 
Monitoring stations across the country submit precipitation 
samples to EPA laboratories as rainfall, snow or sleet occur. 
Under usual circumstances, these samples are analyzed by EPA 
scientists quarterly. But during this response, we are 
analyzing precipitation samples as they come in to the 
laboratory and quickly post the results on our public Web site.
    Also, EPA routinely samples milk and drinking water from 
sites across the Nation. Like rainwater, these samples are 
normally collected and analyzed on a quarterly basis but, in 
response to the nuclear release in Japan, we have accelerated 
the normal sampling schedule.
    As I mentioned, the levels detected have been far below 
levels of public health concern. The information is all 
available on EPA's Web site, www.epa.gov/Japan2011. This Web 
site was quickly expanded after the tsunami so that the general 
public, especially those without a Ph.D. in nuclear physics, 
could easily understand what the monitors in their communities 
were indicating. EPA's Web site has been featured extensively 
on CNN, Fox, and Facebook and it helps answer many of the 
questions that some of your constituents may be asking.
    Madam Chairman, thank you for your leadership on these 
issues, both of our Chairmen, excuse me. I want to assure you 
that EPA will continue our coordination with our Federal 
partners and we will continue our outreach to the public and 
the elected officials to provide information on our monitoring 
results.
    Thank you so much.
    [The prepared statement of Ms. Jackson follows:]
    Statement of Lisa P. Jackson, Administrator, U.S. Environmental 
                           Protection Agency
    Good morning, Madam Chairman, Chairman Carper and Members of the 
Committee. I am pleased to be here today to discuss EPA's role in 
monitoring for radiation associated with the Fukushima Daiichi nuclear 
power plant emergency in Japan and the possible implications for the 
United States. Let me begin by expressing my sympathy for those who 
have lost loved ones from the earthquake and tsunami and my support to 
those who are working to control the radiation at the Fukushima Daiichi 
plant in Japan. Their efforts are selfless and deserve our recognition.
                             epa monitoring
    As part of its ongoing radiation monitoring program, EPA regularly 
monitors and tracks radiation and radionuclide releases into the 
environment in the United States. Monitoring allows us to track known 
releases and to watch for contaminants when there is an actual, 
potential, or unexpected release. In addition, EPA may bring monitoring 
equipment to the scene of an incident to look for localized radiation 
and to help protect people and the environment.
    EPA's nationwide radiation monitoring system, RadNet, contains 124 
fixed, or stationary air monitors across the United States (of which 
122 are currently operational), and 40 deployable air monitors that can 
be sent to take readings anywhere in the United States or its 
territories. The RadNet network continuously monitors the Nation's air 
and regularly monitors drinking water, milk, and precipitation for a 
variety of radionuclides (e.g., iodine-131) and radiation types (e.g., 
gross gamma (g)). The near-real-time air monitoring data is 
continuously reviewed by computer, and if the results show an unusual 
increase in radiation levels, EPA laboratory staff is alerted 
immediately and further analyzes additional data from the monitor. 
RadNet data provides a means to estimate levels of radioactivity in the 
environment, including background radiation as well as radioactive 
fallout from past atomic weapons testing, nuclear accidents, and other 
large-scale releases of radioactive materials. RadNet also provides the 
historical data needed to estimate long-term trends in environmental 
radiation levels.
    In the event of a threat of a significant radiation release, EPA 
typically will increase the frequency of RadNet sampling and generate 
many more data records for a given period of time compared to its 
routine operation. As a result of the events at the Fukushima nuclear 
plant in Japan, several EPA monitors have detected very low levels of 
radioactive material in the United States consistent with releases from 
the damaged nuclear reactors. In an effort to provide additional 
geographic coverage to areas in close proximity to the releases in 
Japan, EPA shipped 8 deployable monitors to islands in the Pacific, 
including Guam and the Commonwealth of the Northern Mariana Islands, 
and the Western United States, including Hawaii, Idaho, and Alaska. EPA 
has also accelerated its monitoring of precipitation, milk, and 
drinking water in response to the radiation concerns from the Japanese 
nuclear reactors. While the detections in air, precipitation, and milk 
were expected, the levels detected have been far below levels of 
public-health concern.
    EPA, along with the Nuclear Regulatory Commission, Department of 
Energy, Department of Defense, and the Department of Health and Human 
Services (FDA, CDC) are among the many Federal agencies taking roles in 
monitoring and assessing radiation emissions from the Japanese nuclear 
facilities and modeling the potential dose assessments of radiation 
that might reach the United States. As part of the Federal Government's 
ongoing effort to make our activities and science transparent and 
available to the public, EPA will continue to post all RadNet data in 
the current on-line data base, accessible through the EPA Web site: 
www.epa.gov/japan2011. In the highly unlikely event that radiation 
levels begin to approach levels of concern for public health, the 
Federal Government will coordinate with State and local governments to 
ensure that public health and safety precautions are communicated to 
the public.
                           monitoring results
    EPA's RadNet radiation air monitors across the United States have 
shown typical fluctuations in background radiation levels. The levels 
detected are far below levels of concern. Results of EPA's drinking 
water sampling, precipitation sampling, milk sampling, and air filter 
and cartridge analysis have detected very low levels of radioactive 
material consistent with releases from the damaged Japanese nuclear 
reactors.
    Keep in mind that all of us are exposed to radiation every day, 
both from natural sources such as minerals in the ground, and from man-
made sources such as medical x-rays. Scientists estimate that the 
average person in the United States receives a dose of about 310 
millirem of radiation per year from natural background sources. Over 
the course of a lifetime, a person will average an additional 300 
millirem per year from medical procedures. The amount of radiation that 
will have an impact on a person's health depends on the type of 
radiation and the sensitivity of the individual to the radiation 
exposure. Differences such as age, gender and even previous exposure 
are factors that might influence a person's reaction to radiation 
exposure.
    Air samples obtained through the RadNet system have, to date, 
contained very small amounts of iodine, cesium, and tellurium, which 
are consistent with possible releases from the damaged Japanese 
reactors. The largest amounts were found in samples from Alaska on 
March 19 and 24, 2011, but all of the radiation levels detected during 
the detailed filter analysis are hundreds of times below levels of 
concern.
    Drinking water samples taken at various locations throughout the 
U.S. during the week of April 4, 2011, ranged from non-detects to trace 
amounts of iodine-131--approximately 1.6 picocuries per liter (piC/L). 
(An infant would have to consume over 200 gallons of this water at the 
highest detection level to receive a radiation dose equivalent to a 
day's worth of the natural background radiation exposure we experience 
continuously from natural sources of radioactivity in our environment.) 
Drinking water samples from across the country are currently being 
analyzed. After all data are appropriately reviewed, EPA will release 
analysis results and will post the results on our Web site.
    Early precipitation samples collected by EPA indicated low levels 
of radioactivity. Given the sampling results in other environmental 
media, EPA expected to find very low levels of radiation in 
precipitation samples. Similar findings are to be expected in the 
coming weeks as radioactive materials are dispersed through the air 
from Japan. While the levels in some of the rainwater exceed the 
applicable Maximum Contaminant Level (MCL) of 3piC/L for drinking 
water, it is important to note that the corresponding MCL for iodine-
131 was calculated based on long-term chronic exposures over the course 
of a lifetime 70 years. The levels seen in rainwater are expected to be 
relatively short in duration and are not expected to present any threat 
to public health.
    Results from samples of milk taken March 28, 2011 in Phoenix, 
Arizona and Los Angeles, California showed approximately 3 pCi/L of 
iodine-131, which is more than 1,500 times lower than the Derived 
Intervention Level set by the U.S. Food and Drug Administration. These 
types of findings are to be expected in the coming days and are far 
below levels of public health concern, including for infants and 
children. Iodine-131 has a very short half-life of approximately 8 
days, and the level detected in milk and milk products is, therefore, 
expected to drop relatively quickly. Additional information about the 
broader Federal response can be found at: http://www.usa.gov/Japan2011.
                               conclusion
    Since the events in Japan occurred, EPA's Web site has had 
thousands of views and we have received many positive comments from the 
public on the information we have made available. The Agency will 
continue to provide monitoring results to the public in a very open and 
transparent manner. While we do not expect radiation from the damaged 
Japanese reactors to reach the United States at harmful levels, I want 
to assure you that EPA will continue our coordination with our Federal 
partners to monitor the air, milk, precipitation and drinking water for 
any changes, and we will continue our outreach to the public and the 
elected officials to provide information on our monitoring results.
    Madam Chairman, Mr. Chairman, thank you for the opportunity to 
testify. I welcome any questions you may have.

    Senator Carper. Thank you much, very much, Administrator 
Jackson.
    Before you testify, Mr. Chairman, I just want to say to 
you, to the other Commissioners, to the folks on your staff at 
the Nuclear Regulatory Commission, how much we appreciate the 
way you have stepped up and to respond to try to be as helpful 
as we can to the people of Miyagi and to say we appreciate your 
continued vigilance and we just encourage you not to let up.
    Thank you. Please proceed.

 STATEMENT OF GREGORY B. JACZKO, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Jaczko. Well, thank you, Mr. Chairman, and Madam 
Chairman and Ranking Member Barrasso. I also appreciate the 
opportunity to appear before you to address the response of the 
Nuclear Regulatory Commission to the recent tragic events in 
Japan.
    People across the country and around the world who have 
been touched by the magnitude and scale of this disaster are 
closely following the events in Japan and the repercussions in 
this country and in many other countries around the world.
    As many have indicated, our hearts go out to all those who 
have been dealing with the aftermath of these natural 
disasters.
    About 2 weeks ago, I made a brief visit to Japan to convey 
a message of support and cooperation to our Japanese 
counterparts there and to assess the ongoing situation. As part 
of that visit, I met with senior Japanese government and TEPCO 
officials and consulted with the NRC team of experts who are in 
Japan as part of our efforts to support U.S. Government 
assistance to Japan.
    Just to briefly recap, on Friday, March 11, when the 
earthquake and tsunami struck, the NRC's headquarters 
Operations Center began to operate on a 24 hour basis 
consistent with the emergency authorities and responsibilities 
of the agency under the Reorganization Act of 1980.
    For the past 3 weeks, the Operations Center has been 
monitoring and analyzing events in Japan. In spite of the 
evolving situation, the long hours and the intensity of the 
efforts, the NRC staff has approached their responsibilities 
with dedication, determination and professionalism. They still 
remain focused on our central safety and security mission for 
reactors and facilities here in the United States. I am, 
needless to say, incredibly proud of their work.
    As regards the current situation of the reactors in Japan, 
from the information we have, we believe the situation 
currently is static and we do not see significant changes on a 
day-to-day basis with the reactors. It is not yet, however, 
what we believe to be stable, namely that, given additional 
events or other circumstances, that there would not be the 
potential for significant additional problems at the reactors.
    So, the efforts continue to be on these efforts, I think, 
to transition from static to stable to ensure long-term, 
ultimately, the ability to cool the reactors and to provide 
cooling for the spent fuel pools.
    Looking forward to the work that we have as an agency 
dealing with facilities in this country, on Monday, March 21st, 
only 10 days after the events in Japan, the Commission acted 
quickly to move forward and establish a senior level task force 
to conduct a comprehensive review of our processes and 
regulations to determine whether the agency should make 
improvements to our regulatory system. This is a responsibility 
that we have to the American people, to undertake a systematic 
and methodical review of the safety of our own domestic nuclear 
facilities in light of the Japan situation.
    This review will be conducted in the short term and a 
longer term timeframe. The short-term review, which will take 
approximately 90 days, has already begun and will identify 
potential or preliminary near-term operational or regulatory 
issues. A longer term review will begin as soon as we have 
sufficient information from Japan. But we expect that review to 
be completed within 6 months from the beginning of the 
evaluation and, in fact, the Commission tasked our staff to do 
it in that time.
    As we move forward with these efforts, we also recognize 
the importance of sharing our lessons learned with other 
regulatory counterparts in other countries throughout the 
world. I recently returned from the Fifth Review Meeting of the 
Convention on Nuclear Safety which provided an important 
opportunity for participating nations to address the events in 
Japan and begin to formulate plans for short- and long-term 
cooperation.
    In conclusion, I want to reiterate that we continue to take 
our domestic responsibilities for licensing and oversight of 
the U.S. licensees as our top priority and that, I want to 
stress, we believe that plants in the United States continue to 
operate safely. Based on the 90-day review and the longer term 
review that we have undertaken, we will take all appropriate 
actions necessary to ensure the continuing safety of the 
American people.
    On behalf of the Commission, I thank you for the 
opportunity to appear before you today and would be happy to 
answer any questions that you may have.
    Thank you.
    [The prepared statement of Mr. Jaczko follows:]
        Statement of Gregory B. Jaczko, Chairman, U.S. Nuclear 
                         Regulatory Commission
    Chairman Boxer, Ranking Member Inhofe, Chairman Carper, Ranking 
Member Barrasso, and Members of the Committee, I appreciate the 
opportunity to appear before you to address the response of the United 
States Nuclear Regulatory Commission (NRC) to the recent tragic events 
in Japan. People across the country and around the world who have been 
touched by the magnitude and scale of this disaster are closely 
following the events in Japan and the repercussions in this country and 
in other countries.
    I would first like to reiterate my condolences to all those who 
have been affected by the earthquake and tsunami in Japan. Our hearts 
go out to all who have been dealing with the aftermath of these natural 
disasters, and we are mindful of the long and difficult road they will 
face in recovering. We know that the people of Japan are resilient and 
strong, and we have every confidence that they will come through this 
horrific time and move forward, with resolve, to rebuild their vibrant 
country. Our agency stands together with the people of Japan at this 
most difficult and challenging time. As part of that, I made a brief 
visit to Japan 2 weeks ago. I wanted to convey a message of support and 
cooperation to our Japanese counterparts there and to assess the 
ongoing situation. I also met with senior Japanese government and TEPCO 
officials, and consulted with our NRC team of experts who are in Japan 
as part of our assistance effort.
    The NRC is an independent regulatory safety agency, with 
approximately 4000 staff. We play a critically important role in 
protecting the American people and the environment. Our agency sets the 
rules by which commercial nuclear power plants operate, and nuclear 
materials are used in thousands of academic, medical and industrial 
settings in the United States. We have at least two resident inspectors 
who work full-time at every nuclear plant in the country, and we are 
proud to have world-class scientists, engineers and professionals 
representing nearly every scientific discipline.
    Since Friday, March 11th, when the earthquake and tsunami struck, 
the NRC's headquarters 24-hour Emergency Operations Center has been 
fully activated, with staffing augmented to monitor and analyze events 
at nuclear power plants in Japan. At the request of the Japanese 
government, and through the United States Agency for International 
Development (USAID), the NRC sent a team of its technical experts to 
provide on-the-ground support, and we have been in continual contact 
with them. Within the United States, the NRC has been working closely 
with other Federal agencies as part of our government's response to the 
situation.
    During these past several weeks, our staff has remained focused on 
our essential safety and security mission. I want to recognize their 
tireless efforts and their critical contributions to the U.S. response 
to assist Japan. In spite of the evolving situation, the long hours, 
and the intensity of efforts over the past week, NRC staff has 
approached their responsibilities with dedication, determination and 
professionalism, and I am incredibly proud of their efforts. The 
American people also can be proud of the commitment and dedication 
within the Federal workforce, which is exemplified by our staff every 
day.
    The NRC's primary responsibility is to ensure the adequate 
protection of the public health and safety of the American people. 
Toward that end, we have been very closely monitoring the activities in 
Japan and reviewing all currently available information. Review of this 
information, combined with our ongoing inspection and licensing 
oversight, gives us confidence that the U.S. plants continue to operate 
safely. To date, there has been no reduction in the licensing or 
oversight function of the NRC as it relates to any of the U.S. 
licensees.
    Our agency has a long history of conservative safety 
decisionmaking. We have been intelligently using risk insights to help 
inform our regulatory process, and, for more than 35 years of civilian 
nuclear power in this country, we have never stopped requiring needed 
improvements to plant designs, and modifying our regulatory framework 
as we learn from operating experience.
    At the same time the NRC is providing a very high level of support 
in response to the events in Japan, we continue to remain focused on 
our domestic responsibilities.
    I'd like to begin with a brief overview of our immediate and 
continuing response to the events in Japan. I then want to further 
discuss the reasons for our continuing confidence in the safety of the 
U.S. commercial nuclear reactor fleet, and the path forward for the NRC 
in order to learn all the lessons we can, in light of these events.
    On Friday, March 11th, an earthquake hit Japan, resulting in the 
shutdown of more than 10 reactors. The ensuing tsunami appears to have 
caused the loss of normal and emergency alternating current power to 
the six unit Fukushima Daiichi site. It is those six units that have 
received the majority of our attention since that time. Units One, Two, 
and Three were in operation at the time of the earthquake. Units Four, 
Five, and Six were in previously scheduled outages.
    Shortly after 4 o'clock AM EDT on Friday, March 11th, the NRC 
Emergency Operations Center made the first call, informing NRC 
management of the earthquake and the potential impact on U.S. plants. 
We went into monitoring mode later that morning at our Emergency 
Operations Center, and the NRC's first concern was possible impacts of 
the tsunami on U.S. plants and radioactive materials on the West Coast, 
and in Hawaii, Alaska, and U.S. Territories in the Pacific. We were in 
communication with licensees and NRC resident inspectors at Diablo 
Canyon Power Plant and San Onofre Nuclear Generating Station in 
California, and the Radiation Control Program Directors for California, 
Washington, Oregon and Hawaii.
    On that same day, we began interactions with our Japanese 
regulatory counterparts and dispatched two experts to Japan to help at 
the U.S. embassy in Tokyo. By Monday, March 14, we had dispatched a 
total of 11 NRC staff to provide technical support to the American 
embassy and the Japanese government. We have subsequently rotated in 
additional staff to continue our on-the-ground assistance in Japan. The 
areas of focus for this team are: (1) to assist the Japanese government 
and respond to requests from our Japanese regulatory counterparts; and 
(2) to support the U.S. Ambassador and the U.S. Government assistance 
effort.
    On Wednesday, March 16th, we collaborated with other U.S. 
government agencies and decided to advise American citizens to evacuate 
within a 50-mile range around the plant. The 50-mile evacuation 
recommendation that the NRC made to the U.S. Ambassador in Japan was 
made in the interest of protecting the health and safety of U.S. 
citizens in Japan. We based our assessment on the conditions as we 
understood them at the time. Since communications with knowledgeable 
Japanese officials were limited and there was a large degree of 
uncertainty about plant conditions at the time, it was difficult to 
accurately assess the potential radiological hazard. In order to 
determine the proper evacuation distance, the NRC staff performed a 
series of calculations using NRC's RASCAL computer code to assess 
possible offsite consequences. The computer models used meteorological 
model data appropriate for the Fukushima Daiichi vicinity. Source terms 
were based on hypothetical, but not unreasonable, estimates of fuel 
damage, containment, and other release conditions. These calculations 
demonstrated that the Environmental Protection Agency's (EPA's) 
Protective Action Guidelines could be exceeded at a distance of up to 
50 miles from the Fukushima site, if a large-scale release occurred 
from the reactors or spent fuel pools. The U.S. emergency preparedness 
framework provides for the expansion of emergency planning zones as 
conditions require. Acting in accordance with this framework, and with 
the best information available at the time, the NRC determined that 
evacuation out to 50 miles for U.S. citizens was a prudent course of 
action, and would be consistent with what we would do under similar 
circumstances in the United States, and we made that recommendation to 
the Ambassador and other U.S. Government agencies.
    We have an extensive range of stakeholders with whom we have 
ongoing interaction regarding the Japan situation, including the White 
House, congressional staff, our State regulatory counterparts, a number 
of other Federal agencies, and international regulatory bodies around 
the world.
    The NRC response in Japan and our Emergency Operations Center 
continue with the dedicated efforts of over 250 NRC staff on a rotating 
basis. The entire agency is coordinating and working together in 
response to this event so that we can provide assistance to Japan while 
continuing the vital activities necessary to fulfill our domestic 
responsibilities.
    It is important to note that the U.S. government has an extensive 
network of radiation monitors across this country. Monitoring by 
nuclear power plants and the EPA's system has not identified any 
radiation levels that affect public health and safety in this country. 
In fact, natural background radiation from sources such as rocks, the 
sun, and buildings, is 100,000 times more than doses attributed to any 
level that has been detected in the U.S. to date. Therefore, based on 
current data, we feel confident that there is no reason for concern in 
the United States regarding radioactive releases from Japan.
    There are many factors that assure us of ongoing domestic reactor 
safety. We have, since the beginning of our regulatory programs, used a 
philosophy of Defense-in-Depth, which recognizes that nuclear reactors 
require the highest standards of design, construction, oversight, and 
operation, and does not rely on any single layer of protection for 
public health and safety. Designs for every individual reactor in this 
country take into account site-specific factors and include a detailed 
evaluation for natural events, such as earthquakes, tornadoes, 
hurricanes, floods, and tsunamis, as they relate to that site.
    There are multiple physical barriers to radiation in every reactor 
design. Additionally, there are both diverse and redundant safety 
systems that are required to be maintained in operable condition and 
frequently tested to ensure that the plant is in a high condition of 
readiness to respond to any situation.
    We have taken advantage of the lessons learned from previous 
operating experience to implement a program of continuous improvement 
for the U.S. reactor fleet. We have learned from experience across a 
wide range of situations, including most significantly, the Three Mile 
Island accident in 1979. As a result of those lessons learned, we have 
significantly revised emergency planning requirements and emergency 
operating procedures. We have addressed many human factors issues 
regarding how control room employees operate the plant, added new 
requirements for hydrogen control to help prevent explosions inside of 
containment, and created requirements for enhanced control room 
displays of the status of pumps and valves.
    The NRC requires licensees to have a post-accident sampling system 
that enables the monitoring of radioactive material release and 
potential fuel degradation. One of the most significant changes after 
Three Mile Island was an expansion of the Resident Inspector Program, 
which now has at least two full-time NRC inspectors onsite at each 
nuclear power plant. These inspectors have unfettered access to all 
licensees' activities related to nuclear safety and security.
    As a result of operating experience and ongoing research programs, 
severe accident management guidelines have been developed for use at 
nuclear power plants. These procedures were developed to ensure that, 
in the event all of the above-described precautions failed and a severe 
accident occurred, the plant would still protect public health and 
safety. Severe accident management guidelines have been in effect for 
many years and are evaluated by the NRC inspection program.
    As a result of the events of September 11, 2001, we identified 
important equipment that, regardless of the cause of a significant fire 
or explosion at a plant, the NRC requires licensees to have available 
and staged in advance, as well as new procedures and policies to help 
deal with a severe situation.
    Our program of continuous improvement, based on operating 
experience, will now include evaluation of the significant events in 
Japan and what we can learn from them. We already have begun enhancing 
inspection activities through temporary instructions to our inspection 
staff, including the resident inspectors and the region-based 
inspectors in our four Regional offices, to look at licensees' 
readiness to deal with both design-basis accidents and beyond-design-
basis accidents.
    We have also issued an information notice to licensees to make them 
aware of the events in Japan, and the kinds of activities they should 
undertake to verify the continued operability of these mitigation 
measures. It is expected that licensees review the information related 
to their capabilities to mitigate conditions that result from severe 
accidents, including the loss of significant operational and safety 
systems.
    During the past several decades, there have been a number of new 
rulemakings that have enhanced the domestic fleet's preparedness 
against some of the problems we are seeing in Japan. The ``station 
blackout'' rule requires every plant in this country to analyze what 
the plant response would be if it were to lose all alternating current 
electricity so that it could respond using batteries for a period of 
time, and then have procedures in place to restore alternating current 
electricity to the site and provide cooling to the core.
    The hydrogen control rule requires modifications to reduce the 
impacts of hydrogen generated for beyond-design-basis events and core 
damage. There are equipment qualification rules that require equipment, 
including pumps and valves, to remain operable under the kinds of 
environmental temperature and radiation conditions that you would see 
under a design-basis accident.
    With regard to the type of containment design used by the most 
heavily damaged plants in Japan, the NRC has had a Boiling Water 
Reactor Mark I Containment Improvement Program since the late 1980s. 
This program resulted in the installation of hardened vent systems for 
containment pressure relief, as well as enhanced reliability of the 
automatic depressurization system.
    A final factor that underpins our belief in the ongoing safety of 
the U.S. fleet is the emergency preparedness and planning requirements 
in place that provide ongoing training, testing, and evaluations of 
licensees' emergency preparedness programs. In coordination with our 
Federal partner, the Federal Emergency Management Agency (FEMA), these 
activities include extensive interaction with State and local 
governments, as those programs are evaluated and tested on a periodic 
basis.
    Along with our confidence in the safety of U.S. nuclear power 
plants, our agency has a responsibility to the American people to 
undertake a systematic and methodical review of the safety of our 
domestic facilities, in light of the natural disaster and the resulting 
nuclear situation in Japan.
    Examining all available information is an essential part of the 
effort to analyze the event and understand its impact on Japan and its 
implications for the United States. Our focus is always on keeping 
nuclear plants and radioactive materials in this country safe and 
secure.
    On Monday, March 21, my colleagues on the Commission and I met to 
review the status of the situation in Japan and identify the steps 
needed to conduct that review. We consequently decided to establish a 
senior level agency task force to conduct a comprehensive review of our 
processes and regulations to determine whether the agency should make 
additional improvements to our regulatory system, and to make 
recommendations to the Commission for its policy direction.
    The review will be conducted in both a short-term and a longer-term 
timeframe. The short-term review has already begun, and the task force 
will brief the Commission after 30, 60, and 90 day intervals and these 
meetings will be public web-cast meetings. At the 90-day interval, the 
staff will produce a public report to identify potential or preliminary 
near-term operational or regulatory issues. The task force then will 
undertake a longer-term review as soon as NRC has sufficient 
information from the events in Japan. That longer-term review will be 
completed in 6 months from the beginning of the evaluation.
    The task force will evaluate all technical and policy issues 
related to the event to identify additional potential research, generic 
issues, changes to the reactor oversight process, rulemakings, and 
adjustments to the regulatory framework that may warrant action by the 
NRC. We also expect to evaluate potential interagency issues, such as 
emergency preparedness, and examine the applicability of any lessons 
learned to non-operating reactors and materials licensees. We expect to 
seek input from all key stakeholders during this process. A report with 
appropriate recommendations will be provided to the Commission within 6 
months of the start of this evaluation. Both the 90-day and final 
reports will be made publicly available.
    As we move forward with these efforts, we also recognize the 
importance to sharing our lessons learned with our regulatory 
counterparts. I recently returned from the Fifth Review Meeting of the 
Convention on Nuclear Safety, which provided an important opportunity 
for participating nations to address the events in Japan and begin to 
formulate plans for short- and long-term cooperation. We look forward 
to continuing this dialog. We also commend International Atomic Energy 
Agency (IAEA) Director General Amano's announcement of the Agency's 
intention to host a ministerial-level conference in June. We are 
pleased to support the IAEA as it works to address and incorporate the 
events at Fukushima into its activities, as well as continuing its work 
in areas that have already been identified as nuclear safety and 
security priorities.
    In conclusion, I want to reiterate that we continue to make our 
domestic responsibilities for licensing and oversight of the U.S. 
licensees our top priority and that the U.S. plants continue to operate 
safely. In light of the events in Japan, there will be a near-term 
evaluation of their relevance to the U.S. fleet, and we are continuing 
to gather the information necessary to take a longer, more 
comprehensive and thorough look at the events in Japan and their 
lessons for us. Based on these efforts, we will take all appropriate 
actions necessary to ensure the continuing safety of the American 
people.
    Chairman Boxer, Ranking Member Inhofe, Chairman Carper, Ranking 
Member Barrasso, and Members of the Committee, on behalf of the 
Commission, thank you for the opportunity to appear before you. I look 
forward to continuing to work with you to advance the NRC's important 
safety mission.
                               __________
  Response by Gregory B. Jaczko to Additional Questions from Senator 
                                 Boxer
    Question 1. On April 11, PG&E asked the NRC to delay issuance of 
the Diablo Canyon license renewal until after PG&E has completed the 3-
D seismic studies and submitted a report to the NRC addressing the 
results. According to press accounts, the NRC is moving forward with 
safety and other reviews of Diablo Canyon in preparation for a ruling 
on PG&E's request for a license extension. What specifically did PG&E 
communicate to the NRC regarding its request for a license extension? 
Why is the NRC continuing its review of PG&E's application?
    Will the NRC ensure that all stakeholders, including local 
citizens, are able to comment on the relevance of the 3-D seismic 
studies as part of the normal NRC relicensing process?
    Response. The NRC received a letter dated April 10, 2011, from 
Pacific Gas and Electric Company (PG&E) requesting that the NRC not 
issue renewed operating licenses for the Diablo Canyon nuclear power 
plants, if approved, until after PG&E has completed 3-D seismic studies 
and submitted a report to the NRC addressing the results of those 
studies. PG&E also noted that it believes it would be prudent to 
complete the seismic studies prior to issuance of the coastal 
consistency certification that is required under the Coastal Zone 
Management Act (CZMA). PG&E indicated that the 3-D studies and the 
report addressing the study results are expected to be completed by 
December 2015. On April 12, 2011, counsel for PG&E sent a letter to the 
NRC's Atomic Safety and Licensing Board that states ``PG&E has not 
requested any suspension or delay in the NRC staff's ongoing safety and 
environmental reviews of the [Diablo Canyon] license renewal 
application.'' It further notes that ``PG&E also is not requesting any 
delay in the schedule for the licensing hearing process.''
    As a result of PG&E's requested deferral of issuance of renewed 
operating licenses for the Diablo Canyon nuclear power plants, the NRC 
staff has updated the staff's review schedule and milestones to reflect 
the delays in the license review process associated with the projected 
completion of the seismic studies and the CZMA's coastal consistency 
certification. While the staff review schedule delays are not a stay or 
suspension of the license renewal process, the revised review schedule 
allows for the time to consider information associated with the 
anticipated 3-D seismic studies.
    Stakeholders, including local citizens, will be able to comment on 
the relevance of the 3-D seismic studies in at least one of two ways. 
Stakeholders will be able to comment on the Environmental Impact 
Statement (EIS) regarding the Diablo Canyon license renewal application 
when it is published. After the EIS is published, members of the public 
will have the opportunity to comment on the EIS in person at an NRC-
sponsored public meeting to be held near the plant or in writing 
through www.regulations.gov. Stakeholders may also petition the NRC for 
an action on the Diablo Canyon license renewal at any time. Please see 
www.nrc.gov/about-nrc/regulatory/enforcement/petition.html for a 
complete discussion of this process.

    Question 2. The NRC license renewal process does not require a 
review of emergency planning, security, current safety performance or 
seismic issues because, according to the NRC, these items are dealt 
with on an ongoing basis. As a Commissioner you argued that 
``considering emergency preparedness during the license renewal process 
would be good public policy and a very valuable exercise.'' Do you 
still believe in the value of this analysis?
    Are there other issues that could be appropriately addressed within 
the license renewal process?
    Response. Yes, I believe consideration of additional review areas, 
such as emergency preparedness, as part of license renewal continues to 
have merit; however, it is unlikely that the agency would change our 
regulations given the number of plants that used the existing 
requirements and past considerations used in developing the license 
renewal regulations.
    If we were to adopt more of a full scope license renewal review 
process, an additional area for consideration would be review of a 
plant's design basis and supporting analysis.

    Question 3. Do you have an estimate of how long it will take before 
the Japanese are safely able to maintain cooling and effectively 
shutdown the reactors? How long does the NRC expect to have staff on 
the ground in Japan?
    Response. Based on the information available, it appears that Tokyo 
Electric Power Company (TEPCO) is able to effectively maintain the 
reactors in shutdown condition and maintain cooling.
    The reactors at Fukushima were shut down immediately after the 
earthquake and remain shutdown today. It is unlikely that damaged cores 
such as those present in the Fukushima Daiichi plants can achieve a 
geometry and material composition to spontaneously restart. In June, 
TEPCO installed a circulating cooling system for the Fukushima Daiichi 
Units 1 through 3. The normal reactor injection system consists of two 
independent trains of three injection pumps. TEPCO also installed 
redundant and diverse systems as backup for cooling the reactors, which 
includes a train consisting of three pumps to inject fresh water via an 
alternate injection path. Additionally, TEPCO has six dedicated fire 
trucks capable of injecting into Units 1 through 3. Finally, TEPCO 
placed additional fire trucks on high ground, which should survive 
another severe tsunami.
    The NRC has reduced the staff on the ground in Japan from the 
initial level sent over shortly after the accident. The NRC anticipates 
having some presence in Japan for the foreseeable future to advise the 
US Ambassador on the safety of American citizens and military assets in 
Japan. Additional NRC objectives are to gather lessons learned that can 
be applied to US plants.

    Question 4. Can you describe the enhanced inspection activities 
your resident inspectors are undertaking here in the U.S. in response 
to the disaster in Japan?
    Response. Inspections were performed to assess licensee 
preparations that have been put in place at every operating power 
reactor to prevent or mitigate possible loss of functions (due to large 
fires or explosions), station blackout (loss of all alternating 
current), flooding, and flooding with earthquakes. The associated 
inspection reports were issued on May 13. NRC inspectors found that all 
the reactors would be kept safe even in the event that their regular 
safety systems were affected by these events. The NRC will use its 
Reactor Oversight Process to further evaluate the inspection results 
and ensure any issues are fixed.
    Inspections were also completed to assess licensees' readiness to 
implement their severe accident management guidelines. These guidelines 
outline licensee actions in the event of severe accidents beyond what 
the plant was licensed for. The associated inspection results were 
issued on June 6, 2011. Overall, the NRC believes plants are safe; 
however, NRC inspectors found many of the plants should improve either 
training of their staff on these procedures, or ensure the guidelines 
are appropriately updated. The NRC's task force incorporated these 
inspection results into its short-term review to help determine if any 
immediate changes to NRC requirements are called for. The inspection 
results will also help inform the NRC's long-term review of possible 
revisions to agency licensing and oversight processes.

    Question 5. The NRC recently issued an information notice to 
licensees to make them aware of events in Japan and the kind of 
activities they should undertake. It is my understanding that this 
notice does not require specific action, but encourages it. Is this 
understanding correct? If so, do you expect the NRC will issue new 
requirements (rather than just recommendations) in response to the 
disaster in Japan?
    Response. Information Notices are issued to provide significant 
recently identified information about safety, safeguards, or 
environmental issues. Recipients are expected to review the information 
for applicability to their facilities and consider actions, as 
appropriate, to avoid similar problems. Information Notices do not 
require action per se.
    The NRC's task force studied the events at Fukushima and assessed 
their impacts on U.S. plants, and issued its report with 
recommendations to the Commission on July 12, 2011. The Task Force 
developed a comprehensive set of 12 recommendations including 
improvements in dealing with a loss of power, dealing with earthquakes, 
flooding, spent fuel pools, venting and preparedness and updating the 
regulatory framework so that it is more logical, systematic and 
coherent. The Commission continues to deliberate on the Task Force 
report, and will vote on the recommendations, supplemented by 
additional staff papers that the Commission directed the staff to 
provide, that require a Commission policy decision.
    As described in the response to Question 4, the NRC also issued two 
temporary instruction procedures to assess licensee's preparedness for 
events that exceed the design basis of the plant. Also, on May 11, 2011 
the NRC issued Bulletin 2011-01 to companies licensed to operate U.S. 
nuclear power plants, requesting information on how the plants are 
complying with requirements to deal with the potential loss of large 
areas of the plant after extreme events. The Bulletin sought 
information on the plants' approach to ensuring their strategies remain 
effective over time. Plants responded to the Bulletin in June 10, 2011 
with information confirming their mitigative-strategy equipment is in 
place and available, and that the strategies can be carried out with 
current plant staffing. Plants also responded to the Bulletin in July 
with further information in areas including:
    <bullet>  how essential resources are maintained, tested, and 
controlled to ensure availability;
    <bullet>  how strategies are re-evaluated if plant conditions or 
configurations change; and
    <bullet>  how arrangements are reached and maintained with local 
emergency response organizations.
                                 ______
                                 
      Response by Gregory B. Jaczko to Additional Questions from 
                             Senator Inhofe
    Question 1. Please provide a list of all dates when the NRC 
Operations Center was activated in a response mode since 1980. Please 
include the basis for its activation, the duration of its activation, 
which mode it was in, and a description of the various response modes.
    Response. For an incident at a specific licensed facility, the NRC 
response mode is determined by consideration of the licensee emergency 
classification (Table 1) and the NRC's independent assessment of 
incident conditions. The NRC response mode for other types of incidents 
(e.g., a transportation incident involving regulated material, regional 
electric grid incident affecting multiple licensed facilities, large-
scale natural disaster, international disaster, national-level domestic 
threat, and/or terrorist threat/attack not focused at a specific 
facility) is determined by the NRC's independent assessment of the 
aggregate of available incident-related information, including 
information from licensees and other sources.
    <bullet> Since 1980, the NRC Headquarters Operations Center (HOC) 
has never entered the EXPANDED ACTIVATION Mode.
    <bullet> Since 1980, the NRC HOC has never entered the ACTIVATION 
Mode.
    <bullet> Since 1980, the NRC has staffed its HOC on 15 occasions 
while in the MONITORING Mode. The basis and durations for these 15 
events are listed below. Please note, however, that prior to 2001, the 
NRC Events Data base was not used to document the agency's entrance 
into MONITORING Mode. Thus, the duration of the NRC's response for 
events prior to 2001 is not available.

          <bullet> Davis Besse Loss of Feedwater Event (06/09/85)
          <bullet>  Sequoyah Fuels Uranium Hexafluoride (UF6) Release 
        Event (01/04/86)
          <bullet> Chernobyl Reactor Event (04/26/86)
          <bullet> Vogtle Station Blackout Event (03/20/90)
          <bullet> GE Wilmington Potential Criticality event (05/29/91)
          <bullet> Hurricane Andrew (08/23/92)
          <bullet> TMI Security Intrusion Event (02/07/93)
          <bullet> Tokaimura Criticality Event (09/30/99)
          <bullet> 9/11 Terrorist Attacks (09/11/01)
          <bullet>  Northeastern U.S. Electrical Blackout (08/14/03 @ 
        16:40-8/15/03 @ 20 o'clock)
          <bullet>  BWXT-Lynchburg Criticality Alarm Event (07/13/05 @ 
        23:20-07/14/05 @ 00:26)
          <bullet> Hurricane Katrina (08/28/05 @ 17 o'clock -09/06/05 @ 
        19 o'clock)
          <bullet> BWXT-Lynchburg Material Event (08/02/07 @ 12:15-08/
        02/07 @ 14:15)
          <bullet> B&W N.O.G-Lynchburg Fuel Event (07/15/09 @ 20:47-07/
        16/09 @ 01:03)
          <bullet> Japan Earthquake/Tsunami (03/11/11 @ 09:46-05/16/11)

    <bullet> Unless otherwise designated, the NRC is in a constant 
State of readiness or NORMAL Mode. NORMAL Mode is the NRC's routine, or 
normal State of operations.
    The NRC's response is flexible and tailored to the specific 
incident(s). Pre-designated response modes enable the agency to 
activate response capabilities in a structured manner and focus the 
agency's response, as appropriate, at the region, headquarters, or 
incident site. This flexibility permits the NRC response to be 
commensurate with incident characteristics and severity and with 
licensee activities. The NRC's response modes are described below:
    <bullet> NORMAL Mode.--The routine, or normal, State of NRC 
operations includes all activities designed to maintain incident 
response readiness, such as 24/7 staffing by Headquarters Operations 
Officers (HOOs). In addition, the NRC is poised to respond at its 
alternate Continuity of Operations (COOP) site. The regional offices 
are prepared to back up each other and headquarters. When warranted, 
such as during national special security events, the NRC may dispatch 
staff to the Department of Homeland Security's (DHS) National 
Operations Center (NOC) and other sites to enhance coordination and 
communications.
    <bullet> MONITORING Mode.--The NRC escalates to the MONITORING 
mode, a heightened State of readiness for incident assessment, upon a 
decision by designated headquarters and regional managers. For a 
facility-specific or region-specific incident, the responsible regional 
office has the lead for agency response and appropriately staffs its 
incident response center. Headquarters supports the region and may have 
specific individuals participating in monitoring and/or analysis 
activities, but the HOC is not staffed and activated.
    The NRC may escalate to the MONITORING mode for situations that are 
not facility or region-specific, including but not limited to, natural 
phenomena potentially involving one or more licensees, multi-region 
electric grid incident, international incident, or terrorism-related 
incidents. For such situations, headquarters has the lead for agency 
response and the regions provide appropriate support.
    <bullet> ACTIVATION Mode .--The NRC escalates to the ACTIVATION 
mode if an incident is sufficiently complex or uncertain that it 
warrants extensive analysis and evaluation by the agency, if it 
warrants consideration for sending an NRC site team to the vicinity of 
the incident, or if the incident involves terrorist activities. In the 
ACTIVATION mode, the lead for agency response shifts from the region to 
headquarters. The HOC is fully staffed by the needed support teams 
under the leadership of the Executive Team (ET). As conditions develop 
and the incident is better understood, staffing may be reduced 
accordingly. For a facility-specific or location-specific incident such 
as a transportation incident, the responsible regional office continues 
staffing of its incident response center and may prepare a site team to 
travel to the licensee's site or the location of the incident. 
Headquarters and the regional office maintain continuous communication, 
evaluate available information, make appropriate notifications, and 
prepare for escalation of response should it be necessary. Other 
regional offices provide appropriate support.
    <bullet> EXPANDED ACTIVATION Mode.--The NRC escalates to the 
EXPANDED ACTIVATION mode if the incident severity and/or situation 
uncertainty warrants the dispatch of a site team, delegation of 
selected authority to the Site Team Director, and turnover to the site 
team. EXPANDED ACTIVATION may be initiated in response to a facility-
specific incident at a licensee's site, incident(s) involving multiple 
licensees' facilities, terrorist attack or other incidents in which the 
site team capabilities of the NRC are needed to support the overall 
Federal response. Headquarters continues to lead the agency's response 
in the EXPANDED ACTIVATION mode. The ET Director leads the agency 
response, and the HOC maintains full staffing by the ET and support 
teams. Team membership is tailored to the specific incident. The 
regional office incident response center maintains full staffing which 
is adjusted to accommodate the site team. Other regional offices may 
partially staff their incident response centers or provide resources 
and/or personnel to the NRC site team.
    The EXPANDED ACTIVATION mode involves dispatch of an NRC site team 
to the licensee's site or the vicinity of an incident under the 
leadership of the Regional Administrator or designee. The Site Team 
Director may be delegated specific authorities from the ET Director to 
lead NRC response activities. The focus of NRC response is at the 
incident site, and the site team may have the lead for most of the 
agency response. At the site, the Site Team Director may assume 
supervision of NRC personnel, may represent NRC in interactions with 
other agencies (e.g., represents the NRC locally as coordinating agency 
or cooperating agency in accordance with the national response 
framework), and may decide what response actions must be taken, 
consistent with the delegated authority. The ET Director retains any 
authority not specifically delegated to the Site Team Director.
[GRAPHIC] [TIFF OMITTED] T8763.001

    Question 2. Please provide a list of all the occasions since 1980 
that an NRC Chairman has exercised emergency authority granted under 
Section 3 of the Reorganization Plan of 1980. Please indicate the basis 
for and duration of the exercise of emergency authority.
    Response. A list of the times and the associated duration in which 
the NRC has responded to an emergency situation is contained in the 
response to the previous question.

    Question 3. Please provide a comprehensive list of all actions you 
have taken under your emergency authority since March 11th.
    Response. I have kept my fellow Commissioners currently and fully 
informed of the NRC response to the events in Japan. These information 
exchanges have taken the form of direct briefings of Commissioners once 
per day in the first week after the accident (including one planning 
for a Commission meeting) and on an ad hoc basis after March 18. The 
Commissioners' staffs received numerous briefings from the Executive 
Team in the NRC Operations Center, as well as written status report at 
regular and frequent intervals.
    Specifically, I orally briefed the Commission as a collegial body 
on nine separate occasions on the Japan accident, and individual 
Commissioners on ten separate occasions.
    Commissioner's Assistants received 62 briefings from the Executive 
Team between March 11 and May 4. Three of these briefings occurred 
within the first 12 hours after the NRC entered into the mode of 
monitoring the accident on March 11 and a fourth was conducted within 
the first 24 hours.
    As of May 4, the Commission had also received 96 written status 
updates from NRC's Headquarters Operations Officer. In addition, the 
Commission received other written information and one page documents 
with pertinent information and analysis, and had access to the internal 
NRC Website where all of those reports were maintained.
    In addition, I worked with my fellow Commissioners to create a Task 
Force to examine the agency's regulatory requirements, programs, 
processes, and implementation in light of information from the accident 
following the March 11 earthquake and tsunami. The Task Force presented 
its report to the Commission on July 12, proposing recommendations on 
improving several safety-related areas.

    Question 4a. and b. On April 1st, the NRC appointed a task force to 
examine the agency's regulatory requirements, programs, processes, and 
implementation in light of information from the Fukushima Daiichi site 
in Japan, following the March 11 earthquake and tsunami.
    How much do you estimate this review will cost?
    Will the Commission need to reprogram funds from other programs to 
support this review? If so, from which programs?
    Response. The cost in fiscal year associated with NRC staff efforts 
to respond to the situation in Japan is $19 million. This amount was 
contained in the NRC's fiscal year reprogramming action that was 
approved by Congress. The cost in fiscal year to implement the task 
force's near-term recommendations to ensure that the NRC's regulations, 
requirements and processes reflect the lessons learned from the 
Fukushima nuclear emergency is still to be determined, and depends on 
what actions are approved by the Commission.

    Question 4c. On April 1st, the NRC appointed a task force to 
examine the agency's regulatory requirements, programs, processes, and 
implementation in light of information from the Fukushima Daiichi site 
in Japan, following the March 11 earthquake and tsunami.
    In addition to the announced task force members, how many staff 
will support this review. Please indicate the offices and programs 
where they currently work and the estimated time they will spend in 
support of the review.
    Response. The task force members have consulted with senior 
management and technical staff in various offices, including the Office 
of Nuclear Reactor Regulation, the Office of New Reactors, the Office 
of Nuclear Regulatory Research, the Office of Nuclear Security and 
Incident Response, and the Regional Offices on specific topics that are 
being addressed. The Task Force spent over 100 hours talking to agency 
staff, in addition to e-mails and other written communications.
    Additionally, during the task force's deliberations, the importance 
of severe accident management guidelines (SAMG) was highlighted. In 
order to evaluate the current status of SAMGs onsite and determine the 
need for any further recommendations, a temporary instruction (TI) 
inspection was issued on April 29, 2011, requesting that information 
regarding SAMGs at the 65 operating power reactor sites be gathered, 
assessed, and summarized. Approximately 900 direct inspection hours by 
NRC inspectors were spent to complete the TI inspection requirements.

    Question 5. What, if any additional resources are needed to ensure 
that adequate funding of the Fukushima task force does not impair 
progress on new plant licensing and design certification.
    Response. As discussed in the response to Question 4, the NRC 
reprogrammed $19 million in fiscal year from prior year unobligated 
carryover funds to cover the costs of the near and long term evaluation 
of the need for NRC actions following the events of Japan. Accordingly, 
the NRC did not require additional resources in fiscal year to continue 
efforts devoted to new reactor plant licensing and design certification 
reviews. Depending on how the Commission votes on the Task Force 
recommendations, and supplementary staff papers, the agency will likely 
be required to adjust its fiscal year budget to address potential 
changes to NRC's regulatory requirements, programs, and processes.

    Question 6. Please provide a list of the fees billed under 10 CFR 
170 to license renewal applicants currents under review and the 20 most 
recently issued license renewals.
    Response. See the attached tables starting on the next page.
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Well, thanks to both of you for your 
testimonies.
    Madam Chairman, Chairman Boxer?
    Senator Boxer. Thank you so much, Mr. Chairman.
    First, I want to thank both of you because you have been 
available to those of us on both sides of the aisle here to 
answer our questions. I appreciate that so much.
    I want to put in the record something I got from USGS that 
shows how many earthquakes, because Senator Barrasso said look, 
this earthquake happened over in Japan, it did not happen here. 
Obviously. But, how many earthquakes, I would say to my friend, 
have we had in America that they have managed to document? It 
is 157 earthquakes all over this great Nation and in every part 
of this country. So, I want to put that into the record. These 
are over 6.0.
    Senator Carper. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. One hundred fifty-seven earthquakes over 
6.0.
    I also ask for the documentation on tsunami. What I do have 
is the areas where the highest risks are. That would be Alaska, 
Hawaii, very high, West Coast, high, Puerto Rico, Virgin 
Islands, high, the others low to very low. So, I am going to 
put those, both, in the record.
    Senator Carper. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. Thank you.
    Mr. Jaczko, I know you have been very involved, Mr. 
Chairman, in helping the people in Japan. We, every one of us 
on both sides, are grateful because I think America is at its 
best when we are there for our friends and we certainly are.
    Well, right now you described, you said that it is a static 
situation, not a stable situation. So let me ask you, what is 
the best thing that could happen right now with those reactors, 
and what is the worst thing that could happen?
    Mr. Jaczko. Well, I am reluctant to speculate on what the 
worst thing is that could happen because, again, there is 
always things that one could postulate that are possible 
although very unlikely.
    Senator Boxer. Well, I think it is important. What is the 
worst thing could happen? I think we all believe you have to 
look at this. What is the best thing that could happen, what is 
the worst? Now, we all hope for the best, but what is the worst 
thing that could happen?
    Mr. Jaczko. Well, right now what our focus is on, it 
focuses on ensuring that we can continue to provide, or the 
Japanese can continue to provide, cooling to the reactor and 
water into the spent fuel pools. That is a process that is 
working right now.
    As I said, it is not necessarily the most stable 
configuration. So, for instance, there was an aftershock, I 
believe it was last night, and as a result they had to remove 
some individuals from the site. They lost some of the offsite 
power. So, some of the pumps in the systems that were working 
were not able to continue to work for about 50 minutes.
    So what we want to see is to move into a situation in which 
that kind of situation would be dealt with in a more 
predictable manner and with less possibility of the loss of the 
cooling systems. So, every day that the reactors continue to 
have cooling and continue to receive water and other types of 
cooling, the likelihood of a more significant release continues 
to go down.
    Senator Boxer. So the cooling, obviously here, is the key 
and there is nothing else that could happen in your mind, that 
could go wrong?
    Mr. Jaczko. That really is----
    Senator Boxer. If there is cooling going on.
    Mr. Jaczko. That is correct. The primary focus is to 
maintain cooling. If you lose the ability to cool the reactor 
cores, then you have the possibility of a further degradation 
in the fuel which could lead to possibly a greater release than 
what is going on now.
    Senator Boxer. Are the leaks still going on into the ocean?
    Mr. Jaczko. We believe right now that some of them have 
been stopped. But there is the possibility that there are other 
leaks and other material being released.
    Senator Boxer. How radioactive is that water?
    Mr. Jaczko. Right now, the Japanese are surveying the water 
that is going out and being, into the ocean, and they are doing 
surveys. I have not seen the latest figures about that level of 
contamination.
    Senator Boxer. Would you let me know, as soon as you know, 
what contamination is flowing into that ocean?
    Mr. Jaczko. Absolutely. We can provide you with detailed 
information about that.
    Senator Boxer. OK. Administrator Jackson, your Scientific 
Advisory Board found that EPA's fixed radiation monitors had a 
potential sampling bias against the collection of larger 
particles which could include hot particles. Have you taken any 
actions to address the SAB's concerns?
    Ms. Jackson. Yes, Chairman, we have. That report was done 
several years ago, and since that report was done, EPA 
responded to the request from the SAB to do an additional study 
on the efficacy of our monitoring equipment in capturing all 
sizes of particles. The really problematic ones are the smaller 
ones, and what we found through that study is that our fixed 
monitors can collect the very smallest particles reasonably 
effectively.
    Now, I do want to say, having newer monitors, there are 
newer monitors out there that get even greater capture, but if 
you look at the purpose of the system, which is to give broad 
levels of background for events that are known, the current 
system is certainly effective.
    Senator Boxer. Well, my time has expired. I just want to 
say to Chairman Jaczko, I have these two nuclear plants that 
were built a very long time ago and now apparently PG&E and 
Southern California Edison have withdrawn their re-licensing 
processing now.
    I guess what I want to say, and you do not need to answer 
this, but I am going to be talking to you about this, for me. 
Again, nobody has to respond to this. It is just, I am thinking 
common sense. You have now 7.4 million people that live within 
a 50-mile radius of one of my plants, and you have got about a 
half a million that live within a 50-mile radius of the other. 
Both of these sit on or near earthquake faults.
    So, all I am going to say to you and the other 
Commissioners when we do get a chance to speak with the others, 
and I think we will, is that to my mind, I think the 
Commission, when you are re-licensing, have to look at this as 
if it is a new opportunity. Would you license a plant that came 
to you now with that circumstance, right by or near earthquake 
faults, studies that say there will be more frequent 
earthquakes, both involved near tsunamis, or the one is more 
vulnerable to a potential tsunami?
    I just hope that you, and again, I do not, I am not asking 
you to answer this because you have got to think a long, hard 
time about this. But to me, as someone whose highest 
responsibility is the health and safety of all of these 
millions of people, if you would say no to a new operator, I 
hope you will think about how it makes any sense to just keep 
on going unless there is major reinforcements and hardening of 
some of these buildings and the rest.
    So, I just leave you with that thought. Those are my 
concerns.
    Senator Carper. Thank you, Madam Chair.
    Senator Barrasso.
    Senator Barrasso. Thank you very much Mr. Chairman.
    I appreciate both of you being here today and Chairman 
Jaczko, I appreciate the time you have been available to me by 
phone, visiting in the office and addressing some of these 
various concerns that are critical and questions that need to 
be answered. So, I appreciate that.
    I noted that last week the California Coastal Commission 
concluded that ``a nuclear emergency such as is occurring in 
Japan is extremely unlikely at the State's two operating 
nuclear power plants.'' Would you agree with that California 
Coastal Commission's conclusion?
    Mr. Jaczko. We think it is very unlikely to see a large 
earthquake and a tsunami.
    Senator Barrasso. They went on to say that the combination 
of a strong ground motion and massive tsunami that occurred in 
Japan cannot be generated by the kind of faults that exist 
close to the, in the vicinity of, the two plants, nuclear 
plants in California. Do you agree with their assessment there?
    Mr. Jaczko. It is my understanding that the type of fault 
in Japan was a different type of fault that does not exist off 
the coast of California.
    Senator Barrasso. OK. Thank you.
    Administrator Jackson, I mentioned in my opening statement 
that an April 6th Inside EPA story was entitled Activists Step 
Up Efforts to Strengthen Oversight on Uranium Recovery and I 
mentioned how those activist groups are using the nuclear 
emergency in Japan as a reason to place additional red tape on 
approving uranium mines domestically here in the United State.
    Do you see a connection between the Japanese nuclear 
emergency and the uranium mining in the United States?
    Ms. Jackson. No direct kind of connection, Senator.
    Mr. Barrasso. Thank you.
    Mr. Chairman, when we last had an opportunity to visit in 
my office, I discussed my concerns about the delay in approving 
permits for uranium mines in Wyoming. You had mentioned that 
the delay was because you were still working things out with 
the EPA and you thought that we had finally achieved the 
resolution that was necessary. You thought you now had a 
template to move forward with approving additional uranium 
mines.
    Do you believe you have worked out any of those issues now 
with the EPA in terms of uranium mining permitting so that now 
we can proceed with a faster permitting process?
    Mr. Jaczko. Well, I believe we have worked out, come to a 
good understanding of, how we deal with our environmental 
impact statements. We are, however, continuing to work through 
issues that are our responsibilities under, to consult with 
tribal governments as part of other requirements, and that is 
the last activity that we are working on as we finalize our 
efforts on these uranium recovery applications. That is not 
necessarily an issue involving the EPA.
    Senator Barrasso. So then, Administrator Jackson, you are 
comfortable with that statement? Do you commit to work with any 
issues that we need to resolve between the NRC and EPA in a 
timely manner?
    Ms. Jackson. I remain committed to working to resolve any 
issues we might have with respect to Wyoming. I do not believe 
the article in question actually referenced any sites in 
Wyoming but----
    Senator Barrasso. Just the overall approval. Thank you.
    I wanted to get back, Mr. Chairman, with the NRC's response 
in Japan and I know you have about 250 NRC staff working on a 
rotating basis, full functioning, and working hard on this.
    Given the commitment of the NRC's resources to Japan, if we 
had any sort of an emergency in the United States, would you be 
able to redeploy in a way that we would not put ourselves at a 
disadvantage?
    Mr. Jaczko. Absolutely. As this event has gone forward, we 
have looked at our staffing levels and actually we have 
transitioned our approach now to the staff in our Operations 
Center to have a smaller team there who can respond quickly but 
then would reach back to our larger agency to get information 
requests as they need. So, it is, it allows us to respond in 
the same timely way, but to do it in a way that allows us to 
continue with our other important responsibilities.
    Senator Barrasso. Finally, I think Senator Inhofe raised 
the issue about your invoking of emergency powers as a result 
of this. Could you describe to me how that, how you interacted 
with your fellow Commissioners during this nuclear incident? 
Have you relied on them for some of their expertise in making 
decisions as well?
    Mr. Jaczko. Sir, there is not so much, I think, invoking 
of, through the emergency authorities, that is an authority 
that the Chairman has. But most of the activities that I have 
engaged in as part of this response have been in my normal 
supervisory authorities over the staff at the agency and my 
communication responsibilities.
    I would note, and we could provide this information for the 
record, but immediately after we entered our monitoring mode on 
March 11th, an email was sent out indicating that we had done 
that. Within the first 24 hours, we had had four briefings of 
the assistants to each of the Commissioners. Over the last 
several weeks, I have done at least 26 briefings to my 
colleagues on the Commission, including one public Commission 
meeting that was held about a week after the event started.
    There have been about, overall, 60 briefings to staff of 
the Commission assistants and about 80 products have been 
provided to the Commission indicating the status of our 
response efforts and the activities that are ongoing.
    So, I think there has been very good communication with the 
Commission about what we are doing and how we are dealing with 
the response.
    Senator Barrasso. Thank you, Mr. Chairman, and thank you, 
Mr. Chairman.
    Senator Boxer. Mr. Chairman, as a point of personal 
privilege, since the Senator mentioned the plants in my State, 
I appreciate his concern, let me put into the record two 
letters by the California Coastal Commission saying that before 
there is a re-licensing they want new earthquake studies. That 
is No. 1.
    No. 2, what my friend said about the fact that it would be 
unlikely we would have such an accident in California, 
absolutely very unlikely. It is unlikely. That is exactly what 
they said about Japan. To the word. So, we have got to move 
beyond talk and get to the serious question of what do we do to 
everything in our power to make it safe.
    Senator Carper. Is there objection to the request? Hearing 
none, so ordered.
    Alright. I would ask a question, my first question, of 
Chairman Jaczko if I could.
    You have, I think, heard me say before that I like to quote 
Albert Einstein. Albert Einstein once said, in adversity lies 
opportunity. When Chairman Boxer asked the question, what is 
the worst that can happen, following up on this tragedy, one of 
the worst things in my mind that could happen is that we would 
not learn anything from it. That is one of the worst things 
that I think could happen.
    We have had not a whole lot of time, but some time has 
passed since this sad chapter began unfolding. Talk to us about 
some of the lessons that we have learned in the past weeks and 
maybe that would suggest that what we are doing is appropriate, 
good, smart, safe, and maybe some things that we have learned 
that would suggest that we could do better.
    Mr. Jaczko. Well, I think one of the issues that we have 
really come to recognize is that the station blackout event is 
a very serious event. I think the good aspect about it is that 
we have always known that that is a very serious type of event. 
It is a situation in which you lose all of the ability to have 
electrical power to the site.
    Fundamentally, right now, we think that is really the 
primary cause of the problem. What we are really working to 
establish is why exactly they got into this situation where the 
station blacked out and what were really the lead factors 
affecting that.
    I think we have seen the importance of emergency planning 
and having the ability to respond and provide emergency 
guidance to the population around a nuclear power plant and we 
have seen that that carries on its intended function, which is 
it moves people out of an area in which they can be exposed to 
harmful levels of radiation.
    So, if we just look at the kinds of things that we have 
right now, those are, I think, some of the big lessons that we 
have learned.
    We have this 90-day task force that is going to be looking 
at some very specific things in the next 2 months, 2 \1/2\ 
months, and I do not want to get too far in front of the work 
that they are doing because I think we have put together some 
really talented people at the agency who are going to do a 
good, thorough look at this, and I do not want them to start 
giving the answers that they hear me say at a hearing.
    So, I think at this point, I think that if there is any one 
other lesson I could say that we have learned is that after 
Three Mile Island we learned that it was very important to go 
about this kind of review in a systematic and methodical way 
with the appropriate sense of urgency and the need to move 
expeditiously.
    I think that is what we are doing, and that will be the 
continued focus that I have with the agency because we want to 
make sure that we put in place the kind of changes that make 
safety better, and not the kind of changes that in the end wind 
up undermining safety. So, that is why it is so important that 
we do it systematically and methodically.
    Senator Carper. OK. Thank you.
    I think it was Senator Alexander who said earlier, 
mentioned that if you took all of the spent fuel in this 
country and you stacked it up on a football field it would be 
about 20 or 25 feet high. To some that might sound like a lot, 
to others not so much.
    We have a Blue Ribbon Commission that has been working at 
the direction of the President to consider what we should be 
doing with that spent fuel. Give us some idea when we expect to 
hear back from that Commission? I think what they find or 
recommend to us might actually tie in closely with what they 
are facing in Japan.
    Mr. Jaczko. Well, I think that we are anticipating, I think 
an interim report from the commission sometime this summer and 
then with a final report sometime later, by the end of the 
year. When we look at these issues of spent fuel, this is 
something, again, the agency, the Commission, has put a strong 
focus on, on making sure that spent fuel can be stored safely 
and securely.
    The structures, whether in pools or whether in dry cask 
storage, are very robust structures that are designed to deal 
with a large earthquake, that are designed to deal with natural 
disasters and significant security-related events. So, we have 
kind of a multi-tiered system of protection that exists at all 
of our plants and that includes these unlikely events like 
these natural disasters and then a layer of protection on that 
to look at, if that kind of unlikely event happens and all the 
safety systems do not function well, we have additional 
procedures in place to address that kind of situation and 
ultimately equipment that is put in the plants to kind of do 
that last line of defense in terms of providing cooling to the 
pools or, ultimately, to the reactor core.
    Senator Carper. All right. Thanks.
    We have 104 nuclear power plants. I said earlier that I 
thought the first one was built about 50 years ago. I think it 
was built 42 years ago, not 50 years ago. But there are a 
number of plants that are up for re-licensure and some have 
already been relicensed. We have a number of applications 
before the Nuclear Regulatory Commission to build new plants 
with new technology, new design.
    How do the events from Japan, the tragic events from Japan, 
how do they figure into the re-licensing process for the, oh, I 
do not know, the dozen or so that are before the Commission 
today, or will soon be, for re-licensure? How do the lessons 
learned figure into the approval process, the review process, 
for the new design?
    Mr. Jaczko. Fundamentally, we think about these issues not 
necessarily for a plant that is 41 years old or 42 years old or 
1-year old or 10 years old. We think about this in terms of the 
plants that are there now and the safety of the existing fleet 
of reactors.
    So, the reviews that we are doing, the first review is 
really to identify any issues that we would need to address 
immediately. So, we would not wait for re-licensing or any 
other type of activity related to license extension to make 
changes to the plants. So, fundamentally, the kinds of changes 
we are looking at or possibly would need to make would be 
applicable to all of the plants in the country, whether they 
are getting their license extended or not.
    In addition, we have a very robust process of reviewing the 
license applications and the renewed license applications that 
gives the public an opportunity for input, that gives them an 
opportunity to raise issues. We think those procedures and 
processes are robust enough to deal with the new issues that 
come about from the Japan situation.
    But fundamentally, some of these changes may take time to 
implement and in the interim we will evaluate every situation 
as it comes up. If there is something we need to do to slow 
down, we will slow down. If we can move forward appropriately, 
we will move forward appropriately. But I think we will know, 
we will be in a much better position, after this 90-day review 
is done to see if there are any real immediate actions that 
need to be taken.
    Senator Carper. All right. Thank you very much.
    Senator Alexander, you are next.
    Senator Alexander. Thanks, Mr. Chairman. Thank you both for 
your testimony.
    Ms. Jackson, as we look at electricity produced in the 
United States, we use about, I think, about 25 percent of all 
electricity in the world for our country. I believe about 44 
percent is produced by coal, 20 percent by nuclear power, 23 
percent by natural gas, 7 percent by hydroelectric power, we 
usually think of those as base load powered, base load 
electricity, electricity that is reliable over long periods of 
time, about 3 percent is wind, much less than 1 percent is 
solar.
    What would be the effect on our country's ability to comply 
with EPA's clean air standards if we did not, if we replaced 
nuclear power with either coal plants or natural gas plants?
    Ms. Jackson. Well, nuclear powerplant emissions are low to 
zero for the pollutants that EPA regulates so there would be, 
presumably, an increase in pollution. Even with the best 
pollution control technology, fossil fuel plants are going to 
have higher emissions, including greenhouse gas pollution which 
nuclear power does not have.
    Senator Alexander. But probably half our coal plants do not 
have that----
    Ms. Jackson. About half of our coal plants in the country 
are not controlled for air toxics like mercury, arsenic, 
cadmium, acid gases. In fact, we just recently proposed a rule 
to address that issue. When it comes to carbon pollution, of 
course it is quite different.
    Senator Alexander. We have a lot of discussion, Senator 
Carper and I have worked a long time on the mercury issue. But 
the point is, to keep it in perspective, nuclear power provides 
about 20 percent of our electricity but about 70 percent of our 
emissions-free electricity, which is important as we think 
about clean air and climate change.
    Mr. Jaczko, how, for how long can the 104 reactors we have 
safely store spent fuel onsite?
    Mr. Jaczko. Well, the Commission recently restated what we 
refer to as our Waste Confidence Finding and that said that we 
believe at least about 40 years beyond the expected lifetime, I 
am sorry, about 60 years beyond the expected lifetime of a 
plant we can safely store spent fuel. That gets you generally 
to about 100 years of time that you could store this fuel 
safely and securely.
    We actually, as part of this recent decision, asked the 
staff to go back and really look longer than that and see are 
there, if there are any issues right now that would make it 
challenging to store that fuel for 200 or 300 years or a longer 
timeframe. So we expect to begin looking at that in the next 
year and have an answer in probably a couple of years about 
that question.
    But right now, we do not see any major issues that would 
present a significant challenge for that longer term storage of 
the fuel.
    Senator Alexander. For purposes of understanding what we 
are trying to store, does it sound about right to say, as I did 
earlier, that all of the used nuclear fuel that has been 
produced in the last 35 years would fill a football field then 
about 20 feet high?
    Mr. Jaczko. I have heard that statistic many times. I have 
actually never sat down and calculated it and made sure that it 
is right. But it sounds reasonable as an approximation.
    Senator Alexander. Now, the Nuclear Waste Policy Act of 
1982 established a fund into which ratepayers, those of us who 
pay our electric bills, have paid about $30 billion to build a 
final resting place for used nuclear fuel. A second step of the 
Obama administration's plan for used nuclear fuel, which I 
heartily endorse, is not just to store it safely onsite but 
then to do advanced research to find a better way to reuse 
nuclear fuel which will greatly reduce the mass of it and 
permit it to be used over and over again.
    But in the end, are we not still going to have some stuff 
left that needs to be stored over a long period of time? We 
still have this football field full of nuclear fuel spread 
around at 104 sites. Where are we going to put that? I mean, we 
have got $23 billion sitting in a fund we have collected from 
electric bills. Should we not be using it to find a way to put 
that since Yucca Mountain does not seem to be going anywhere?
    Mr. Jaczko. Well, from the NRC's perspective, our job is to 
make sure that that fuel, regardless of how it is being used, 
or stored, or reprocessed, or whatever the approach may be, is 
done safely and securely. So that is our No. 1 focus. We, of 
course, work with the industry, we communicate with the rest of 
the Federal Government as approaches are being developed to 
possibly deal with that in the long term.
    The Commission staff have been briefing the Blue Ribbon 
Commission and providing them with information about our 
approach to safety and security as they work to formulate their 
opinions about ultimately what could be done with this fuel in 
the long term.
    Senator Alexander. Thank you.
    Senator Carper. You are welcome. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thanks to each of you for the knowledge 
and energy that you bring and I use that term directly. 
Obviously, we feel pretty comfortable. However, the long 
history that Japan had with nuclear power and established 
nuclear regulatory system looked like Japanese installations 
were absolutely safe. But clearly, they were not.
    Now, what assurances do we have that our nuclear plants are 
as prepared as we could get for our worse case scenario?
    Mr. Jaczko. Well that, Senator, I would say that there are 
really three or four levels of protection that we have at the 
plants. First and foremost, the plants are designed for these 
very unlikely events based on what we think the maximum 
historical natural phenomenon is, so, like a hurricane or an 
earthquake or a tsunami. So, we start with that and we design 
the plants to be able to deal with that kind of a situation.
    Then, on top of that, all of the plants have a set of 
procedures and guidelines for what you would do in the 
situation that all of those systems that you built in to deal 
with the situation fail. Those are what we refer to as Severe 
Accident Management Guidelines. Those give you the procedures, 
the approaches to dealing with these very severe events if they 
were ever to occur. For that to occur, a lot of safety systems 
that are redundant and have a lot of backups would have to fail 
and not work properly.
    Even beyond that, if all of those systems were to fail, we 
have required all of the plants in this country to have an 
additional set of procedures to deal with very extreme damage 
conditions at the plant, much like you are seeing in Japan. We 
required all of the utilities to put equipment in place to 
respond and ultimately to be able to supply cooling to the 
reactors and cooling to the spent fuel pools.
    So, we have a robust system to really ensure that we can 
minimize or mitigate any potential releases to the public.
    Senator Lautenberg. What we see is rather frightening in 
scope because almost no matter what you do, you cannot guaranty 
that there will be zero risk in the production of nuclear 
energy and nuclear facilities. So, we keep on developing new 
policies as a result of, unfortunately, some terrible 
experience, and we have, we hope that we have no further 
terrible incidences.
    Ms. Jackson, you know New Jersey is home to four nuclear 
reactors, including the oldest nuclear plant in the country, 
the Oyster Creek Nuclear Generating Station, 2 years older than 
the damaged Japanese plant.
    Now, with your long experience of protecting health and the 
environment in New Jersey, how confident can we be that the 
nuclear plants in our State are sufficiently safe to protect 
all of our people at all times?
    Ms. Jackson. Well, I would defer to the Chairman on the 
safety issue, except to note what was recently announced, which 
is that that plant is voluntarily, the owners of that plant 
have agreed to shut it down. I think it is part of the solution 
with respect to that particular facility.
    Senator Lautenberg. Well, we are, it is little reassurance, 
honestly, because if they said OK, we will even cut short the 
period that the license covers, which means that there is an 
element to worry out there, and they cannot be----
    Mr. Jaczko. Senator, if I could just comment? My 
understanding of the, part of the reason for not extending the 
plant operation was motivated by the cost and some of the 
economic factors. Certainly, from the NRC's perspective, we did 
not see a safety reason for the plant to not operate beyond, I 
think, 2019 when the plant will operate.
    Again, when we do our license renewal, what we do is we add 
on additional requirements to the licensees for them to monitor 
the plant to make sure that as the plant equipment and the 
systems that are important for safety get older, that they have 
the way to monitor and make sure that those, that aging of 
those equipment does not have any adverse impact on safety.
    So, in addition to the standards in the regular strong 
safety program that we have, we add on top of that these 
additional requirements to make sure that as the plants age 
they do it in a way that is protective of public health and 
safety.
    Senator Lautenberg. Tom, I have one more question. One last 
question. The rest, beyond that, I will send to you for the 
record and look for a response.
    The NRC requires evacuation plans only within 10 miles of a 
plant. But the American Government has warned Americans in 
Japan to stay at least 50 miles away from the damaged reactor. 
They only confirmed that when we turned our ships around about 
50 or 60 miles out, I am not really sure.
    I guess, when all else fails, we have to be absolutely 
certain that a way to evacuate these areas is foolproof in 
terms of its ability and its durability. Would it make sense to 
require evacuation plans in our country to address the same 
distance to U.S. facilities for new plants?
    Mr. Jaczko. Well, that is something we are going to look at 
as part of the reviews that we are doing. The 10-mile 
evacuation zones that we currently have are designed to be the 
region in which you pre-stage and pre-prepare evacuations. If 
conditions were to warrant some additional option beyond that, 
those options, of course, could always be taken.
    But I think, as we have seen in Japan, nuclear events tend 
to develop over a long period of time. This is 3 weeks into 
this event and we have had the time and ability to make 
protective option recommendations and to update those and 
modify them as conditions at the plant change.
    So that 10 miles is really based around the idea of what 
you need to have prepared right away so if you have an event 
that develops quickly, you can address that and have pre-staged 
and pre-prepared what to do. But there is always the 
possibility to go farther, if necessary, or to modify the plans 
to deal with the existing conditions and the exact conditions 
on the ground.
    But I also want to stress that this is something we are 
going to take a look at as part of the reviews that we are 
doing to see if there are changes we should make to the 
requirements for emergency preparedness.
    Senator Lautenberg. Thanks very much and thanks to each of 
you.
    Senator Carper. Thank you, Senator Lautenberg.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair, and thank you all 
for your testimony.
    The first question I want to ask about, Mr. Jaczko, is, the 
venting system to release the hydrogen in the Japanese plants 
succeeded in getting the hydrogen outside of the core only to 
have it explode outside.
    The United States went through, in the 1980s, a hardening 
of our vent systems on our Mark I reactors and I understand the 
Japanese plants also went through an upgrade. But what is our 
initial understanding of why the venting system did not succeed 
in disposing of the hydrogen such that it would not explode 
after it left the core? Is there a difference in the venting 
system between the Japanese plants and the U.S. plants that 
should give us confidence that we would not have a similar 
problem?
    Mr. Jaczko. Well, at this point, it is not exactly clear 
what the source of the hydrogen was. Obviously, we saw 
hydrogen, or some fires, in the Unit 4 reactor. Well, that 
likely came from the spent fuel pools, the spent fuel pool in 
that building, because the reactor core there was not, did not 
have fuel in it.
    So, at this point, we do not have definitive information 
about the source of the hydrogen. It is possible that it came 
from the spent fuel pools and not necessarily from the venting 
operation. That is something that we will look into as we get 
some more, really as we get past the more emergent crisis in 
Japan, we will get the detailed information about that effort.
    But I would say that, really, the fundamental issue that we 
see here really is the station blackout event. In the United 
States, when we are talking about a station blackout event, we 
have a lot of protections in place to prevent that complete 
loss of electrical power to the site. We require each plant to 
have at least two diesel generators for each reactor. So, if 
there a multiple reactor site, they will have at least four 
diesel generators on the site. Those diesel generators have to 
have their fuel in an area that is protected so that it can be, 
it can supply the diesel generators in the event of some type 
of natural hazard.
    Then, beyond that, we have something that we call our 
station blackout or coping requirements which requires the 
utilities to be able to deal with that loss of offsite power 
until they are able to restore the offsite power.
    Senator Merkley. I am going to interrupt you because I only 
have a limited amount of time and actually you dodged the basic 
question which was, is our venting system different from the 
Japanese system?
    Also, I think it is understood that a fair amount of 
hydrogen in 1 and 3 came from both the splitting of water 
molecules and from probably explosion of the zirconium 
clouding. So, in that situation, and understanding that 
scenario, why did the hydrogen explode after it was vented 
rather than be dispersed safely into the atmosphere?
    If we have no insight, that is fine. But again, back to the 
core question, is our venting system different in some 
significant way?
    Mr. Jaczko. At this point, we do not have the detailed 
information to know.
    Senator Merkley. Let me go on to a second question then.
    In at least one of the reactors, I believe it is vessel 2, 
that there was discussion of plugs in the bottom of the reactor 
vessel, the core, that were used for loading fuel in and the 
concern that that design left a vulnerability and that plugs 
that were inserted after fuel was put in melted at a lower 
temperature than the rest of the containment, the rest of the 
core containment vehicle, and could have been a flaw that would 
allow, if you will, fuel to escape.
    Is that just specific to that one reactor or is that a 
common design? Has that been a discussed concern in the past? 
Do we have that design in the United States?
    Mr. Jaczko. We can get you specific information on that 
design. But again, I would stress that right now the 
information about the condition of all of the reactors is very 
preliminary and very uncertain. You indicated the hydrogen 
explosion. Again, it is correct that that is a result of, 
usually of exposure of fuel. But that can, of course, occur 
both in the spent fuel pools as well as in the reactor core.
    So again, the exact source of the hydrogen at this point is 
not clearly understood and it probably will be some time before 
we know definitively where that hydrogen came from, whether it 
was an interaction with the zirconium clouding in the spent 
fuel pool or the reactor core itself. That is where there is a 
bit of, some uncertainty right now.
    Senator Merkley. Here again you did not answer my core 
question which is, these plugs that are apparently in the 
design of at least one of those reactors that are on the bottom 
side, are those, do we have a similar design and that is a 
concern in American nuclear power plants?
    Mr. Jaczko. Again, as I said, we can get you that 
information. I do not have that off the top of my head right 
now. But again, I do not want to speculate necessarily that 
that was a contributing cause to any of the condition in 
Reactor 2 at this point.
    Senator Merkley. OK. Another issue is really the 
containment vessel itself. In 1972, there was a report from the 
predecessor organization, the Atomic Energy Commission, that 
recommended the Mark I system be discontinued because of 
unacceptable safety risks, basically because of the smaller 
containment design and it was susceptible to explosion and 
rupture from a buildup in hydrogen, obviously something that 
seems like it was an interesting insight given what we have now 
witnessed. Indeed, apparently the reason for this smaller and 
lighter container vehicle was simply the cost of the heavier 
and stronger containment vehicle.
    There was later, in the 1980s, discussion. An NRC official 
noted that Mark I reactors had a 90 percent probability of 
bursting if fuel rods overheat and melt.
    Have we, but there has been some changes to containment 
vehicles. Have we, do we feel like we have satisfactorily 
addressed the issues about the weakness of the containment 
vessel that were raised in the 1970s and the 1980s?
    Mr. Jaczko. Fundamentally, the issues, the actions that 
were taken were, as I think you indicated, one was to provide 
hardened venting which provides a release path, a sensor to 
release material as pressure builds up in the containment, to 
release that pressure and to do it in a way that you release, 
that you prevent as much of the release of radioactive material 
as possible when you do that process.
    The other thing that was done was efforts to do what is 
called inerting, or nitrogen inerting, which essentially means 
you introduce nitrogen into that containment atmosphere and 
based on the chemistry of that you reduce the likelihood of a 
hydrogen combustion.
    So, those came out of results and studies that were done in 
the late 1980s in what we called our Individual Plant 
Examinations and then a series of followup studies that looked 
at what are these kinds of severe accident risks and how do you 
ultimately mitigate them.
    So, for the Mark I containments, that was, those were the 
changes that were made to address that. Now, again, we are 
going to look at the information from Japan to see how similar 
or different their designs were at the time of the accident to 
our designs to see if there are additional lessons that we 
would learn to apply to those particular containments.
    Senator Merkley. Thank you.
    Senator Carper. You are welcome. Thank you.
    Madam Chair.
    Senator Boxer. Thanks.
    I want to followup on earthquake faults because we have 
written the Commission and we have asked you for an explanation 
of how many of our reactors, or let us just say our plants, are 
located on or near seismically actively faults? Do you have 
that number for me today?
    Mr. Jaczko. The number, and I think you mentioned it in 
your initial statement----
    Senator Boxer. I know.
    Mr. Jaczko. Generally, we would say that there are two 
plants that are near, in high seismic areas, and about nine 
plants that are in more medium areas.
    But I want to stress, we design, require all plants in the 
United States to be designed to deal with seismic events. Some 
of us who are here in Washington know, it was only a couple of 
months ago that we felt an earthquake here in Washington.
    So, they are all designed to deal with seismic events and 
we design them, again, based on the accelerations that the 
plant itself would feel, or the actions and motions that the 
plant would feel at the actual site of the plant rather than 
based on the magnitudes of the earthquake because----
    Senator Boxer. OK, before you get into all that, I do not 
have a lot of time. In Japan, they would give the same answer. 
They gave the same answer. TEPCO said we are proud of the 
robustness of our containment vessels. In the case of an 
earthquake, everything would safely stop, blah, blah, blah. I 
would put this into the record if I could.
    Senator Carper. No objection.
    Senator Boxer. Not the blah, blah, blah, but the actual 
words----
    [Laughter.]
    Senator Carper. No, I think we should put in the blah, 
blah, blah.
    [Laughter.]
    Senator Boxer. The point is it is eerie to me because I do 
not sense enough humility from all of us here. We are, as some 
great scientist once said, we think we have all the answers but 
Mother Nature may not agree with us.
    A lot of what you are saying is the same thing that they 
said. You are right, you are being conservative because even 
though plants do not sit on or near, you are being, you are 
thinking ahead. But the fact is, if you take one of my, we have 
the two plants that are high intensity seismic areas, one is 
built to, they are both built to withstand a certain level of 
earthquake, and yet, so was the Japanese plant, it was, I 
believe, 7.5 it was built to withstand. They got a 9.0.
    We cannot know for sure what is going to happen. So I 
guess, are you doing a major inspection as Senator Feinstein 
and I asked you to, the NRC, of our two plants that are in 
these high propensity earthquake zones?
    Mr. Jaczko. Well, we are looking at all the plants to make 
sure that we have----
    Senator Boxer. I am asking about my two plants.
    Mr. Jaczko. We are not doing anything specific to those two 
plants, but we are looking at all the plants in this country to 
see if there are lessons learned from Japan----
    Senator Boxer. Well, you just said that there are two 
plants that are in the highest risk and yet you are not 
treating them any differently. That is a little worrisome to 
me.
    Mr. Jaczko. Well, Senator, I would not necessarily say that 
they are in the highest risk.
    Senator Boxer. Well, you said there were two plants on the 
highest seismic activity areas and those two are my plants in 
our State.
    Mr. Jaczko. What we look at, ultimately, is the 
consequences. The plants that are in California are designed to 
deal with much, much higher seismic activity than any other 
plants in the country.
    Senator Boxer. Well, there may be a reason for that, Mr. 
Chairman----
    Mr. Jaczko. Absolutely.
    Senator Boxer. Because they are more at risk. Look, we just 
had the new report that says that they are not built to high 
enough earthquake-proof standards because we have reports there 
is a new fault at Diablo. We will hear that from Senator 
Blakeslee, who is coming forward. We, and in the case of San 
Onofre, there are reports that say there will be much more 
frequent activity than were suspected, both in perhaps tsunami 
and this.
    So look, I am asking you again. I do not know if we got the 
letter back from them on this, a response? If you could just, 
you know how Senator Feinstein and I feel. We, it is on our 
watch. I do not know how many people are in the States of 
Delaware? How many people in Delaware?
    Senator Carper. Almost 1 million.
    Senator Boxer. How many in your State? Half a million. I 
have got a half million people who live within 50 miles of one 
of my plants, and 7.4 million who live within 50 miles of my 
other. So, this is not about some theoretical catastrophe if 
something went wrong.
    I know you feel you do ongoing inspections and all the 
rest. Well, some of those ongoing inspections found some safety 
problems, too. So, let me just press you. I know Senator 
Blakeslee is coming up. He is from the other political party 
and we are working together on this. I think that is an 
important point. This has nothing to do with partisanship.
    If I will not be here for his testimony, can I send you his 
testimony and ask you to take another look because, we have 
both of these plants are up for renewal, although their 
licenses run until about 2022, something like that, 2027, 2022? 
So, they are not going anywhere. But they are up.
    They are both now going to undertake new 3D earthquake 
studies, which is great, and I praise both of the operators for 
doing that. But it seems to me that while that is happening, 
correct me if I am wrong, but I think Congressman Bilbray said, 
tell me if I heard him right, that the chance of something like 
this happening, an event like this, is between 7,000 and 10,000 
years----
    Mr. Jaczko. I think he said the frequency of a 7.0 
magnitude earthquake is about every 7,000 years, approximately.
    Senator Boxer. OK.
    Mr. Jaczko. But I do not want to speak for the Congressman.
    Senator Boxer. But again, I would say to you, take a look 
at the record and the 157 earthquakes we have had over 6.0. So, 
and as we know, listen, I was told when I was a County 
Supervisor they said 100 year flood, we have to plan for a 100-
year flood. I was a lot younger then and I said, oh, gosh, do 
we really need to do this? It is a 100-year flood. Well, that 
does not mean it is going to happen in 100 years. It could 
happen seven times within 10 years, and then not happen again, 
as you know.
    So, we have got to respond in a much different way. I just 
do not feel the humility from all sides here. I do not think we 
are humble enough in the face of what Mother Nature could do. I 
think that is, although I have to admit that the statements 
made by all parties here, I thought were very reasoned.
    But I just think we need to inject a little more humility 
in this because look at what happened in Japan. They are so 
proud, they are bragging about how this could never happen. 
They arrogantly boasted of their world best nuclear power 
technology. Now, they cannot even figure out how to stop the 
darn thing from leaking and all the rest.
    So, anyway, enough said. Thank you.
    Senator Carper. Thank you.
    Senator Barrasso? All right.
    Administrator Jackson, I do not want you to feel like you 
are being ignored here, so I am going to----
    [Laughter.]
    Ms. Jackson. I am happy.
    Mr. Jaczko. I thought since she was here I would not get so 
many questions.
    Ms. Jackson. I very much appreciate it.
    Senator Carper. You can barely see her lips move when you 
speak, Mr. Chairman.
    [Laughter.]
    Senator Carper. Administrator Jackson, if you could, we 
were talking earlier, I do not know if it was Senator Alexander 
or somebody else, we were talking about the number of people 
who have died in the 41, 42-year history of nuclear power 
plants in this country because of the radiation, folks either, 
folks who worked in those plants or lived in the area around 
those.
    I think I asked this question of Chairman Jaczko the last 
time he was here and I think he said, to the best of his 
knowledge, no one has died of radiation poisoning or sickness. 
Is that close to what you said?
    Mr. Jaczko. At nuclear power plants. There have been in 
some of the related industries, some accidents that let to 
fatalities. But in the nuclear power, at the plants themselves, 
no, there have not been.
    Senator Carper. OK. Thanks.
    Administrator Jackson, you have been great to work with us 
on a wide range of clear air issues involving sulfur dioxide 
emissions, nitrogen oxide emissions, mercury emissions, and I 
do not know, I do not want to put you on the spot.
    But, I would like to just get a sense for the range of 
injuries, death, brain damaged children born, babies born, 
because of emissions from fossil fuel plants that put out not 
just CO<INF>2</INF> but also sulfur dioxide and nitrogen oxide 
and mercury. Can you just give us a sense for that?
    I think we are talking about people who, we are talking 
about the loss of not just tens of lives or hundreds of lives 
but far greater. Can you just give us a sense of that over, I 
do not know, 40 years? Just give us a sense of the magnitude. 
Are we talking about thousands of folks who lives have been 
shortened, whose lives have been taken? Just give us a sense of 
that magnitude.
    Ms. Jackson. I would be happy to. But first let me thank 
you for your leadership on clean air issues. You have a long 
and outstanding record.
    Senator Carper. Thanks for saying that.
    Ms. Jackson. Why do I not simply say that we recently 
released a proposed rule to deal with mercury and other toxic 
emissions from fossil fuel plants, primarily power plants that 
burn coal, and the estimates were annual estimates of tens of 
thousands of fewer bronchitis incidents, and 150,000, I believe 
the number was, fewer asthma-related doctor or hospital visits.
    When it comes to fine particle pollution, it is not just 
sickness, it is death. So, literally tens of thousands per year 
of avoided deaths, premature deaths, as a result, each and 
every year.
    So I do not have a number for 40 years that accumulates, 
but of course, the Clean Air Act has been around for 40 years 
and has a long and proud history of, I think the most recent 
estimate was $2 trillion in avoided health costs and benefits 
by 2020 alone. Of course money is not the same as lives saved 
and the tragedy of a sick child, but it has quite, those 
emissions have real impact for public health.
    Senator Carper. One of our colleagues earlier in the 
hearing made the point that for almost any source of 
electricity in this country, there are risk concerns related to 
them. Obviously, we have the kind of concern, the risk has been 
borne in Japan. We need to be mindful of, to learn as much from 
this as we can, to make sure that kind of tragedy does not 
occur here or hopefully in any other country.
    But whether it is coal-fired plants, in our State we want 
to deploy offshore windmill farms and hopefully we will start 
doing that in about a year or so, but there are people who 
think they are unsightly, there are people who are concerned 
about the lives of birds. We have concerns with respect to 
tapping the great reserves of natural gas that we are happy to 
have found but there are concerns raised about the fracking. 
There are concerns with respect to solar panels and some of the 
materials that we use to create those.
    There are all kinds of concerns. What we have to have here 
at the end is to be as vigilant as we can for all of them. But 
I would just ask us to be as mindful and concerned about our 
air pollution problems that relate to fossil fuel plants as we 
are the potential loss of life or endangerment of health due to 
nuclear power plants. Sometimes, I think we lose our sense of 
balance.
    I want to ask you, as a followup to that, Administrator 
Jackson, about the EPA's radiation monitoring, if I could. In 
the next panel, we have got several State and local officials. 
Let me just ask, how does the EPA inform State and local 
officials about potentially high levels of radiation in milk or 
water in their community, and what actions will be taken if 
high levels of radiation are found by EPA monitoring?
    Ms. Jackson. Let me first State that every model we have 
seen, and we agree with the inputs to the model, do not show 
that we will see any high levels. We have not seen high levels. 
If anything, I would characterize them as trace increases from 
background. One of the wonderful things about our RadNet system 
is that we have decades of background data. So, we have a good 
understanding of what is normal, if you will, for these 
monitors.
    What we have done is set up a system where we do post the 
data for rainwater and drinking water and milk, we post those 
on our Web site along with the air monitoring data which is 
both near real time. There is about a 4-to 6-hour delay, as 
well as some filter and cartridge data that takes a longer 
period of time.
    Even when we see a trace, a blip above background levels, 
we alert the States, entities that are affected where those 
monitors. We work very closely with our partners at Health and 
Human Services, because the CDC and FDA, depending on whether 
we are talking about foodstuffs like milk or other issues, it 
is very important that the health officials in those States are 
not surprised by even trace increases. Because we want them to 
feel comfortable that they know what the data says, what they 
mean, and to conceptualize that for citizens because most 
people are not used to speaking of radiation or understand some 
of these units that are coming at them.
    So, we have worked very hard at that. We have not gotten it 
perfect every time. We also work with elected officials, so 
that includes Members of Congress and Governors' offices as 
well.
    Senator Carper. All right. I am going to stop. A number of 
our colleagues, some of them were here, some of them were not, 
will have questions to submit in writing. How long do they have 
to submit them, do we know? Two weeks. So, colleagues have 2 
weeks to submit their questions in writing if they wish and we 
would just ask that you promptly respond to those.
    Thank you so much for being here and for testifying today. 
Again, our thanks to you and the teams that you lead at EPA and 
at the NRC for the continued vigilance that has been 
demonstrated in response to this disaster. Thanks so much.
    With that, we invite up our second panel, actually third 
panel. As our third panel participants take their seats, I am 
going to go ahead and begin the introductions.
    The first introduction is that of California State Senator 
Sam Blakeslee of the 15th District of California. Next we have 
Mr. James Boyd who serves as Vice Chair of the California 
Energy Commission.
    Next we have a familiar face and a friend from Delaware, 
Lew Schiliro. Mr. Schiliro retired from the FBI before becoming 
a Cabinet Secretary of Delaware's Department of Safety and 
Homeland Security. You are welcome. It is great of you to come.
    Next we have Mr. Curtis S. Sommerhoff and he is the 
Director of Miami-Dade County's Department of Emergency 
Management. Thanks so much. Next we have Mr. Charles Pardee. 
Actually, Charles Pardee is quite a notable citizen in the 
State of Delaware, so you have a namesake who you can be proud 
of in our State. This Charles Pardee is Chief Operating Officer 
at Exelon Generation.
    Finally we have Dr. Thomas B. Cochran, whose initials are 
the same as many of my colleagues and me, and he is a Senior 
Scientist with the Nuclear Program at the Natural Resources 
Defense Council. I welcome Dr. Cochran.
    For all of your statements, if you would actually use, I 
will give you about 5 minutes. Do not try to go much over that. 
If you do, I will have to rein you in a little bit. But 5 
minutes, and your full statements will be included in the 
record.
    Let me start with Senator Blakeslee. My first question is 
to you. How many State Senators are there in California? We 
know you have 53 House Representatives.
    Mr. Blakeslee. We have 40 State Senators in California 
representing about 37 million people. So, just a little bit 
under 1 million constituents per Senator.
    Senator Carper. How many State Reps do you have?
    Mr. Blakeslee. Fifty-three Members of Congress and 80 
members of the Lower House.
    Senator Carper. All right. Great. Thanks. Please proceed.

 STATEMENT OF SAM BLAKESLEE, SENATOR, CALIFORNIA STATE SENATE, 
                          DISTRICT 15

    Mr. Blakeslee. Thank you very much, Mr. Chair.
    My name is Sam Blakeslee. I am a California State Senator 
and, as Chairman Boxer indicated, I am a Republican. In fact, I 
am the former Minority Leader in the Lower House.
    I am a former research scientist who earned his doctorate 
for California Earthquake Studies from U.C. Santa Barbara, and 
as a geophysicist I worked for a number of years in the oil and 
gas industry for Exxon in Houston, Texas. I now live with my 
wife and two daughters in San Luis Obispo, 10 miles from Diablo 
Canyon.
    The seismic setting for the Diablo Canyon site has been a 
source of well-documented controversy for over four decades. In 
1967, the operator of Diablo Canyon, PG&E, stated in their 
initial permit application the site had only ``insignificant 
faults that are showing no movement for at least 100,000 years 
and possibly millions of years.''
    Four years later, using oil industry seismic data, 
researchers discovered the Hosgri fault only three miles 
offshore which the USGS has estimated is capable of producing a 
magnitude 7.3 earthquake. In the end, it took 15 years, major 
retrofits, and more than $4.4 billion in cost overruns before 
the plant became operational.
    Upon being elected to the California legislature in 2005, I 
called on Pacific Gas & Electric to use more sophisticated oil 
and gas 3D seismic imaging technologies to assess the complex 
seismic setting just off the coast. PG&E's response to my call 
was a column written by a PG&E Vice President stating 
``Freshman Assemblyman Sam Blakeslee's proposed legislation to 
conduct another seismic survey of Diablo Canyon is unnecessary 
and bad policy for California customers.''
    Well, in 2006, Governor Schwarzenegger signed the 
legislation directing the Energy Commission to perform an 
independent review of the data to assess the potential seismic 
vulnerability of the State's nuclear power plants and to 
provide recommendations.
    That same year, PG&E moved to initiate the process to 
relicense the facility though there was no compelling need to 
rush the process as their current licenses last through 2024 
and 2025. Then, in 2007 while the Energy Commission study was 
being performed, a magnitude 6.8, not 9.0, 6.8 struck Japan and 
the largest nuclear power plant in the world was damaged with 
three of its reactors still shut down to this day.
    In 2008, the Energy Commission issued their report stating 
that uncertainties did in fact exist near the Diablo Canyon 
plant and that 3D seismic studies were recommended. PG&E's 
written response to the Commission was ``we believe there is no 
uncertainty regarding the seismic setting and hazard at the 
Diablo Canyon site.''
    Mere weeks later, the USGA discovered the active Shoreline 
fault running within some hundreds of yards offshore from 
PG&E's nuclear power plant and with an orientation that could 
potentially intersect with the much larger and very powerful 
Hosgri fault.
    Within mere days, PG&E rushed to declare ``we don't see 
anything that exceeds the plants design basis.'' The statement 
was made before collecting the data necessary to determine the 
precise location, length and relationship of the Shoreline 
fault to the nearby Hosgri.
    Fast forward to the events of just 1 month ago when a 
magnitude 9.0 earthquake struck offshore Japan on a fault 
system believed capable of only a magnitude 7.9. Like the 2007 
Japanese earthquake, the 2011 earthquake far exceeded the 
utilities seismic and engineering assumptions.
    Three weeks ago, at a California Senate hearing on this 
issue, I asked PG&E is they still continue to maintain, did 
they believe their previous assertion that there was no 
uncertainty in the seismic setting near their plant. This time 
PG&E responded that, although there is always some uncertainty, 
they were ``not concerned.''
    I then asked PG&E to suspend or withdraw their license 
application with the NRC until the seismic data is in hand to 
allow regulators to make informed decisions because, although 
PG&E may not be concerned about the seismic uncertainty, my 
community was very concerned. Yesterday, 1 day before this 
hearing, PG&E agreed to take this action.
    After 6 years of calling for these seismic studies, State 
legislation, recommendations by the Energy Commission, 
direction from the California Public Utilities Commission, two 
devastating Japanese earthquakes, and now a nuclear disaster of 
Chernobyl proportions, the utility is finally willing to slow 
its relicensing effort to collect long-overdue seismic 
information.
    In closing, I have two questions for Federal regulators. 
First, in the aftermath of the Japan crisis, will the NRC 
strengthen its own earthquake hazard review procedures that are 
conducted during the relicensing process for these two nuclear 
facilities that the NRC itself has identified as being located 
in the Nation's highest seismic hazard area?
    Second, given the longstanding reluctance of PG&E to accept 
even the need for such studies, what procedures will the NRC 
put in place to ensure there is independent peer review 
analysis so that we have accurate, scientifically-robust 
conclusions that are drawn by those who have looked at the data 
independently rather than relying solely upon the utility and 
in-house NRS staff?
    Thank you for the opportunity to present to this body.
    [The prepared statement of Mr. Blakeslee follows:]
  Statement of Sam Blakeslee, State Senator, California State Senate, 
                              District 15
    I am a California State senator who represents the 15th District on 
the Central Coast. For the previous 6 years I was the State Assembly 
Member representing the 33d District and served as Republican Leader 
immediately prior to being elected to the State Senate. I am a former 
research scientist who earned bachelors and masters in Geophysics from 
UC Berkeley and a Ph.D. for earthquake studies at UC Santa Barbara. I 
worked for Exxon as a research geophysicist and later as a strategic 
planner at their research lab in Houston Texas. I live with my wife and 
two young daughters in San Luis Obispo, 8 miles from Diablo Canyon, one 
of two operating nuclear power plants in the State of California.
    The seismic setting of the Diablo Canyon site has been a source of 
well-documented controversy for more than four decades. In 1967, the 
operator of Diablo Canyon, Pacific Gas and Electric (also known as 
PG&E) stated in their initial permit application the site had only 
``insignificant faults that have shown no movement for at least 100,000 
and possibly millions of years.'' Four years later in 1971, researchers 
discovered the Hosgri fault about three miles offshore, which the USGS 
estimates is capable of a magnitude 7.3 earthquake. This significant 
discovery led to major seismic retrofits. In 1981, PG&E realized that 
the retrofit blueprints had been reversed_structural supports that were 
meant for one reactor were actually built for the other reactor. In the 
end, it took 15 years and more than $4.4 billion in cost overruns 
before the plant was operational.
    After reviewing the geophysical work performed by PG&E, I became 
increasingly concerned that they did not appreciate the potential 
complexity of the seismo-tectonic setting of major fault blocks near 
the plant. Upon being elected to the California legislature in 2005 I 
called on my local utility to use more sophisticated geophysical 
methods to assess the complex seismic setting on the coast. My 
experience as an industry scientist had allowed me to become intimately 
familiar with the power of 3D seismic imaging techniques to directly 
image complex fault systems, particularly in marine settings.
    PG&E's response to my call was a column written by the nuclear 
power plant's vice president stating, ``Freshman Assemblyman Sam 
Blakeslee's proposed legislation to conduct another seismic study of 
Diablo Canyon . . . is unnecessary and bad policy for our California 
customers''.
    I then drafted Assembly Bill 1632, which was passed by the 
California legislature and signed by Governor Schwarzenegger in 2006, 
which directed the California Energy Commission to perform their own 
independent review the data and to assess the potential seismic 
vulnerability of the state's nuclear power plants and to provide 
recommendations. That same year PG&E moved to initiate the process to 
relicense the nuclear power plant though there was no compelling need 
to rush the process as their current licenses last through 2024 and 
2025.
    While the California Energy Commission was being performed a 
Magnitude 6.8 earthquake struck Japan in July 2007. The shaking far 
exceeded what the Japanese utility expected was possible for the 
offshore fault and the largest nuclear power plant in the world was 
badly damaged. Today, nearly 4 years later, 3 of the 7 reactors remain 
offline with cumulative energy replacement costs in the billions.
    In 2008, the California Energy Commission issued their report, 
pursuant to AB1632, which stated that the uncertainties did in fact 
exist near the Diablo Canyon Nuclear Power Plant, and that 3D seismic 
studies were recommended. PG&E's written response to the Commission 
was, I quote, [we] ``believe there is no uncertainty regarding the 
seismic setting and hazard at the Diablo Canyon Site''.
    Mere weeks later, the U.S. Geological Survey discovered the 
Shoreline fault running within some hundreds of yards offshore from 
PG&E's nuclear power plant and with an orientation that could 
potentially intersect with the powerful Hosgri fault.
    Within days, PG&E declared, ``We don't see anything that exceeds 
the plant's design basis.'' This statement was made before having 
completed any of the necessary analysis to determine the precise 
location, length, and relationship to the dangerous Hosgri fault. The 
USGS scientist who discovered the fault, in conversations with me, 
expressed her deep concern that PG&E would rush to make these 
assertions prior to completing the necessary research to determine the 
facts.
    In a California Assembly hearing as recently as 2009 PG&E stated 
``we're willing to go to the 3D, but right now we just don't think you 
jump right there as the prudent thing to do''. This foot dragging on 
acquiring the necessary seismic data has continued; all the while, PG&E 
has moved rapidly to finalize relicensing with the Nuclear Regulatory 
Commission.
    Fast forward to the events of this last month, when yet another 
Japanese earthquake struck. This time, a 9.0 magnitude earthquake 
struck offshore Japan on a fault system believed capable of a 7.9 
magnitude quake. This massive earthquake caused explosions at three 
reactors at the Fukushima Daiichi Nuclear Power Plant. Like the 2007 
Chuuetsu earthquake, the Toohoku earthquake far exceeded both the 
seismic and engineering assumptions. The devastating series of 
unexpected events revealed unknown vulnerabilities at the nuclear 
facility and their backup safety systems.
    Professor Akira Omoto of the Japan Atomic Energy Commission, who 
was involved in the construction of the Fukushima Daiichi nuclear 
facility, admitted that the engineering assumptions and redundant 
failsafe systems believed by experts to guard against a nuclear 
disaster, in the end, simply proved inadequate. ``We thought we had 
taken adequate precautions . . . but what happened was beyond our 
expectation.'' Despite having filed with the California Public 
Utilities Commission to obtain authorization for ratepayer funding for 
seismic studies that included an offshore 3-D survey, PG&E recently 
told local press that it is still evaluating whether to complete the 
studies.
    Three weeks ago the California Senate held a hearing on the 
Japanese earthquake, tsunami, and resulting nuclear crisis. I asked 
PG&E directly if they still continued to support their earlier 
assertion to the California Energy Commission that there was no 
uncertainty in the seismic setting near the plant. PG&E responded by 
saying that although there is always some uncertainty they had no 
concerns about that uncertainty. Under repeated questioning they said 
that they were not concerned about the uncertainty.
    In the wake of their repeated denials regarding any seismic 
uncertainty, their denial of any concerns, their documented resistance 
to acquiring necessary geophysical data, their premature assertions 
that all is safe without first obtaining the necessary data to support 
their conclusions, their rush to relicense a dozen years before their 
current licenses expire, and the tragic events producing the damage and 
destruction of two coastal nuclear plants due to two separate offshore 
earthquakes, I asked that PG&E suspend or withdraw its license 
application with the NRC until the seismic data is in hand to allow 
regulators to make informed decisions. They refused to answer my 
question at the hearing but said they would get back to me. I followed 
up a week later and called asking for a meeting with their President to 
discuss the issue. They refused to allow the meeting to occur. They 
have not yet responded to my request. That is why I am here today to 
seek your help as the utility appears determined to race to re-
licensure before the seismic data can be acquired and analyzed.
    We are at a critical juncture in California. In the aftermath of 
the two Japanese earthquakes and nuclear accidents policymakers have a 
duty to ensure that State and Federal regulators have all the necessary 
data to make informed decisions regarding the conditions of re-
licensure for California's two coastal nuclear power plants.
    Failures by Federal and State regulators to provide adequate 
independent oversight and responsibly enforce appropriate safety 
measures has recently led to catastrophic human and environmental 
disasters in the past.
    The Deepwater Horizon Gulf oil spill, the most significant 
environmental tragedy in the history of the Nation, was attributed by 
experts as both an industry and governmental regulatory failure. 
Mineral Management Services adopted a passive check-the-box mentality 
and failed to provide rigorous oversight.
    And here we face another potentially threatening scenario, yet 
again, with Diablo Canyon confirmed by Federal regulators as one of two 
nuclear power plants in the highest risk seismic areas in the Nation. 
It is unquestionable that there remains significant uncertainty about 
the seismic potential and risk around Diablo Canyon Nuclear Power 
Plant, and this uncertainty is of great concern to the California local 
and State regulators and authorities. In recent years, elected 
officials and regulators with oversight responsibility have reiterated 
requests that PG&E first conclude the necessary seismic work prior to 
pursuing relicensing. The data that would be collected from these 
studies must be available to the Nuclear Regulatory Commission before 
the relicensing application process is completed. As the current 
operating licenses for Diablo Canyon are valid through 2024 and 2025, 
we believe that there is more than sufficient time for advanced seismic 
studies and review to be properly performed. Relicensing prior to the 
completion of this rigorous analysis would be premature.
    It is our sincere hope that PG&E will earn the trust of local 
residents, regulators, and elected officials by voluntarily withdrawing 
or suspending its re-licensing activities until the geophysical has 
been completed. If PG&E will not voluntarily do so, I would request 
that this body direct the NRC to suspend its consideration of PG&E's 
application until it has received the critical information it needs to 
make a thorough and responsible decision.

[GRAPHIC] [TIFF OMITTED]

 Responses by Sam Blakeslee to Additional Questions from Senator Boxer
    Question 1. On April 11th, PG&E asked the Nuclear Regulatory 
Commission to delay issuance of the Diablo Canyon license renewal until 
after PG&E has completed the 3-D seismic studies and submitted a report 
to the NRC addressing the results. We have subsequently learned that 
PG&E did not request a delay in the license hearing process, but merely 
a delay in the final issuing of the license until after PG&E has 
completed the 3-D study.
    Why is it important for the results of the 3-D seismic study to be 
considered as part of the license renewal hearing process? Do you 
believe that all stakeholders, including local citizens, should be able 
to comment on the relevance of the study's results as part of a normal 
NRC relicensing process?
    Response. The critical safety threat to Diablo Canyon is seismic 
risk. The dominant seismic feature and greatest seismic risk, according 
to the NRC, is the Shoreline Fault. The NRC cannot adequately conduct a 
safety review without knowing the potential shaking of the site. Strong 
ground motion shaking is directly related to the proximity of the plant 
to the fault, the total length and size of the fault, and the degree to 
which the fault interacts the Hosgri Fault. This information must be in 
hand while the NRC is conducting the safety review, not after. After 
reviewing the completed seismic studies, the NRC may find it 
appropriate to condition relicensing on retrofits, which should be part 
of the safety review.
    Three dimensional seismic reflection mapping is necessary to 
understand the complex geologic setting of Diablo Canyon. Diablo Canyon 
was designed to withstand a 7.5 M seismic event on the Hosgri Fault. 
The Shoreline Fault was not considered at the time Diablo Canyon was 
originally reviewed and approved by the NRC. Our current understanding 
of the Shoreline Fault is based on data from a number of micro 
earthquakes that delineate a portion of the fault. The actual 
seismically active segment of the fault could be much larger and could 
tie directly into the Hosgri Fault. An intersection of the two faults 
would dramatically change our understanding of the seismic setting of 
the plant and force a reconsideration of the plant's current design.
    In addition to my own efforts, the County of San Luis Obispo Board 
of Supervisors, the California Energy Commission, California Public 
Utilities Commission, California Coastal Commission, and Congresswoman 
Lois Capps have all either recommended and/or required the completed 3-
D study in advance of any decisions regarding relicensing of Diablo 
Canyon. The only entity not making the seismic study a priority is the 
very entity charged with the greatest responsibility for ensuring the 
safety of the plant, the NRC.
    The most pressing issue facing Diablo Canyon and the NRC is to 
resolve the seismic uncertainty, not immediate approval of the license 
renewal application. The current operating licenses do not expire until 
2024 and 2025, well over a decade from when the seismic studies should 
be complete. It is both perplexing and disturbing that the NRC would 
insist on making a decision on the license renewal application 
uninformed by the completed 3-D seismic study.

    Question 2. The NRC license renewal process does not review 
emergency planning, security, current safety performance or seismic 
issues because, according to the NRC, these items are dealt with on an 
ongoing basis. Do you agree with this approach?
    Do you believe that the use of this information in relicensing 
could help officials determine the true costs to Californians of 
relicensing the facility by providing information on the costs of 
potentially needed retrofits or whether such retrofits could address 
plant safety issues?
    Response. Seismic issues at nuclear power plants in active fault 
zones, like Diablo Canyon, should be reviewed in a comprehensive, 
systematic manner during license renewal. This punctuated higher level 
review should analyze plant systems and how they operate in potential 
events. The analysis should include the expertise of a broad range of 
third parties and include an independent peer review to ensure the data 
and conclusions are thoroughly vetted. An analysis of this caliber is 
more robust than routine day-to-day monitoring. Ongoing monitoring 
should not preclude a punctuated higher level analysis during license 
renewal. These activities are not mutually exclusive.

    Senator Carper. Thanks so much. Thanks for coming here to 
testify for us today. Very, very good testimony. Thank you.
    Mr. Boyd, please. Welcome.

 STATEMENT OF JAMES D. BOYD, VICE CHAIRMAN, CALIFORNIA ENERGY 
  COMMISSION, CALIFORNIA LIAISON OFFICER TO THE U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Boyd. Thank you, Senator, and to Senator Barrasso, 
thank you for being here.
    I am Jim Boyd, Energy Commissioner, and I happen to be the 
State's Liaison Officer to the U.S. Nuclear Regulatory 
Commission, which may indicate why, perhaps, I am here. I 
appreciate this opportunity. I appreciate you having this 
hearing.
    Senator Carper. A quick question, Mr. Boyd. Are you 
appointed by the Governor and confirmed by the Senate? How does 
it work in California?
    Mr. Boyd. Yes.
    Senator Carper. OK. How long have you served?
    Mr. Boyd. Nine, I am in my tenth year.
    Senator Carper. OK. Thanks very much. Please proceed.
    Mr. Boyd. This tragic 9.0 magnitude earthquake and its 
impacts on the Japanese people and this power plant certainly 
underscore the importance relating to seismic understandings in 
a State like California.
    You have heard all about our two plants. You have heard 
from Senator Blakeslee in detail the difficulties we have had 
with the operator of one plant and the need for seismic 
studies. We have another plant, San Onofre, which, the 
recommendations apply equally. The 2008 study found that there 
are seismic concerns there that affect tsunami potential as 
well.
    Subsequently, you heard from Senator Boxer, earlier, who 
referenced that my agency and the PUC directed the two 
agencies, the operators of these plants, to undertake the 
studies. But that resulted in a race by PG&E to file for 
relicensing well in advance of what anyone thought would be 
necessary.
    This new technology, technology that Senator Blakeslee has 
indicated, has been used by the oil industry for years. PG&E 
has done some studies, mainly because the NRC ordered them to 
have an active seismic study after all the fiasco of many years 
ago and to have a need to redesign the plant.
    Unfortunately, while we had been pushing for this, the NRC 
has to date indicated that the license renewal review process 
does not include an assessment of seismic vulnerabilities. It 
does not require that these advanced seismic studies be 
included within the scope of their review.
    Until yesterday, when we learned that PG&E has changed 
their mind and they want to hold up their license, we felt that 
the NRC was going to finish their review in 2012, and these 
studies would not even be done until 2013.
    So, I thank you for having a hearing that may have had an 
impact upon PG&E. But, in spite of that, we still need a 
condition from Southern California Edison, the operator of San 
Onofre, that they will do the same types of studies, and they 
told me they are reconsidering their position.
    For us, lessons learned are first that we are looking to 
the NRC to carry out its short-term and long-term review of 
events in Japan and if they do the good job that they did on 
Three Mile Island, we expect a lot of positive recommendations 
and results. But we need to implore the Congress support the 
NRC, not only in these efforts but in implementing and ensuring 
that followup actions are taken and implemented at all U.S. 
reactors as soon as feasible after they finish their studies.
    Not only should they include the lessons learns from Japan, 
but we have some thoughts we would like to pass on to the NRC, 
and have in previous correspondence, in addition to lessons 
learned studies that we have underway with regard to seismic.
    First is in the Waste Confidence Decision. The Chairman 
referenced to that. The NRC's Waste Confidence Decision which 
concluded that spent nuclear fuel can be stored safely onsite 
at reactors for 100 years should be reexamined, particularly 
spent fuel stored in seismically active coastal areas. The 
safety of long-term storage of spent fuel in seismically active 
or tsunami prone areas need to be reevaluated in light of what 
is happening in Japan.
    Second, spent fuel management. The Nation's spent fuel 
management systems and practices should be reevaluated, 
including the current practice of storing spent fuel in pools 
in tighter storage configurations than original plant designs 
called for.
    The Energy Commission, in 2008, recommended that the 
utilities return their spent fuel pools to more open racking 
configurations as soon as feasible. Storing more spent fuel in 
pools in closer configuration creates greater heat load, 
thereby increasing the risk of fire and other possible 
problems.
    As more and more spent fuel accumulates at reactor sites, 
plant owners have had to re-rack their pools multiple times to 
increase their onsite spent fuel storage capacity. This is an 
increasing safety issue at California's two plants, and the 
station blackout issue is another one that affects the 
operation of spent fuel pools.
    So, in closing, I would say we would like to see that the 
two utilities in California undertake the studies that have 
been recommended. We would like to have these studies included 
in NRC's license renewal evaluation of these plants because 
they give no support in their routine oversight of a plant 
license for the activities that are being carried out and the 
recommendations that have been made.
    We need to assure ourselves that when these studies are 
done, all of these activities that need to be taken with regard 
to equipment and process operations should be taken into 
account.
    Thank you for this opportunity.
    [The prepared statement of Mr. Boyd follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
 Responses by James D. Boyd to Additional Questions from Senator Boxer
    Question 1. The NRC license renewal process does not review 
emergency planning, security, current safety performance or seismic 
issues because, according to the NRC, these items are dealt with on an 
ongoing basis. Do you agree with this approach? Do you believe that the 
use of this information in relicensing could help officials determine 
the true costs to Californians of relicensing the facility by providing 
information on the costs of potentially needed retrofits or whether 
such retrofits could address plant safety issues?
    Response. While the NRC position of indicating that these issues 
should be dealt with on an ongoing basis is perhaps strategically 
correct, our experience is that it is not working properly, in 
California in the case of the license renewal process for Diablo Canyon 
Nuclear Power Plant. NRC has both not acted on the extensive 
discussions and correspondence on seismic issues at Diablo Canyon over 
the past years under their ``ongoing basis'' criteria, nor has it made 
it a factor to be considered in the current relicensing process. One 
can only assume the same practice if and when San Onofre files for 
license extension.
    The NRC license renewal process should include a site-specific 
evaluation of significant issues, that vary from plant to plant, 
including emergency planning and preparedness, security, current safety 
performance and seismic issues. Such an analysis will provide 
information that is needed to determine the true costs and benefits of 
relicensing the facility. This is particularly true for seismic issues 
with respect to the San Onofre Nuclear Generating Station (SONGS) and 
Diablo Canyon Nuclear Plant, since they are located in the most 
seismically active areas when compared with other U.S. reactors.
    In my attached letter to the NRC dated April 12, 2010, we 
identified a number of issues that PG&E and the NRC should analyze in 
depth regarding the possible environmental and safety impacts from 
renewing the operating licenses for Diablo Canyon. The issues we 
identified are: seismic risks, at-reactor accumulation of spent fuel, 
security, emergency planning, reactor vessel embrittlement, evaluation 
of energy alternatives, plant safety culture, and plant once-through 
cooling. A thorough analysis of these issues will provide information 
that is essential to assessing the true costs and benefits of renewing 
Diablo Canyon's operating licenses compared with alternatives and the 
potential environmental and safety impacts from license extension.
    Seismic issues should be thoroughly evaluated during license 
renewal for California's nuclear power plants, particularly in light of 
the long history of seismic concerns at Diablo Canyon and SONGS and the 
fact that construction costs for both Diablo Canyon and SONGS greatly 
exceeded original estimates largely due to seismic retrofit costs. For 
example, Diablo Canyon's construction costs exceeded the initial $320 
million estimate (1968 dollars) by more than $5 billion largely due to 
seismic retrofits. \1\ Construction costs at SONGS also far exceeded 
initial estimates $436 million (1971 dollars) compared with $4.5 
billion.
---------------------------------------------------------------------------
    \1\ California Energy Commission, Nuclear Power in California: 
Status Report: Final Consultant Report; Prepared for the 2005 
Integrated Energy Policy Report, available at: http://
www.energy.ca.gov/2006publications/CEC-150-2006-001/CEC-150-2006-001-
F.PDF
---------------------------------------------------------------------------
    The discovery in 2008 of a new major fault--the Shoreline Fault--
near the Diablo Canyon and recent tragic events at the Fukushima 
Daiichi plant following the 9.0 magnitude earthquake and tsunami on 
March 11 underscore the importance of analyzing seismic issues as part 
of California's license renewal evaluation. Although the NRC says they 
examine seismic issues on an ongoing basis, the NRC did not require 
PG&E and SCE to complete advanced seismic studies to address major 
uncertainties regarding seismic hazards at both sites. In addition, 
although the NRC required PG&E to develop a Long-Term Seismic Program, 
SCE was not required to have one nor were either utility required to 
have an Independent Peer Review Panel to review their study plans and 
findings. The NRC to date has consistently stated that they will not 
evaluate site-specific seismic issues during their license renewal 
evaluations.
    The Energy Commission and its consultant conducted a 2-year 
comprehensive assessment of California's operating nuclear plants. 
Assembly Bill 1632 (Blakeslee, Chapter 722, Statutes of 2006) directed 
the Energy Commission to assess the potential vulnerability of ``large 
baseload generation facilities of 1,700 megawatts or greater'' to a 
major disruption due to a seismic event or plant age-related issues. 
The Energy Commission adopted this assessment in November 2008 as part 
of the 2008 Integrated Energy Policy Report (IEPR). \2\ We believe that 
the studies recommended in the Energy Commission's AB 1632 Report and 
the 2008 and 2009 Integrated Energy Policy Reports (IEPRs), including 
the advanced seismic studies, must be included as part of license 
renewal review evaluations. If these seismic studies indicate that 
there are potentially greater risks or higher stresses for the plants' 
structural components and additional seismic retrofits are required, 
this information must be included in the cost-benefit analysis for 
license renewal. As noted in the 2009 IEPR, the comprehensiveness, 
completeness, and timeliness of these studies will be critical to 
license renewal assessments for Diablo Canyon and SONGS. Although PG&E 
is required to submit its license renewal feasibility assessment to the 
California Public Utilities Commission (CPUC) by June 30, 2011, PG&E 
does not expect to complete the advanced seismic hazard studies until 
2013. In addition, the NRC's stated plans are to issue the Draft Safety 
Analysis Report and the Draft Environmental Impact Statement for Diablo 
Canyon's license renewal review in June 2011 before these advanced 
seismic studies have been completed. These license renewal evaluations, 
including NRC's safety and environmental impact analyses for Diablo 
Canyon's license renewal, must include the results of the AB 1632 
Report recommended studies that the Energy Commission and the CPUC have 
directed PG&E to complete.
---------------------------------------------------------------------------
    \2\ California Energy Commission, An Assessment of California's 
Nuclear Power Plants: AB 1632 Report, available at: 
[http:www.energy.ca.gov/2008publications/CEC-100-2008-009/CEC-100-2008-
009-CMF.pdf]; also see AB 1632 Assessment of California's Operating 
Nuclear Plants: Final Consultant Report, MRW & Associates, Inc., 
October 2008, CEC-100-2008-005-F available at: [http://
www.energy.ca.gov/2008publications/CEC-100-2008-005/CEC-100-2008-005-
F.PDF

    Question 2. According to a 2008 California Energy Commission (CEC) 
report, new seismic and geologic data indicates that San Onofre Nuclear 
Generating Station ``could experience larger and more frequent 
earthquakes than had been anticipated when the plant was designed.'' 
Can you explain how you came to such a conclusion and how this 
information should be used by plant operators and the NRC?
    Response. The AB 1632 Report concluded that the design basis for 
SONGS is based on a safe-shutdown earthquake (SSE) of magnitude 7.0 at 
a distance of 8 km on the Southcoast Offshore Fault Zone. \3\ Following 
NRC review, SCE calculated the maximum bedrock acceleration from this 
earthquake at 0.67 g. As part of the subsequent Probabilistic Seismic 
Hazard Assessment (PSHA), SCE evaluated the SSE value of 0.67g to be 
associated with an annual probability corresponding to a return period 
of 7,194 years. The standard for nuclear plant design is a return 
period of 10,000 years. A more recently updated PSHA which accounted 
for blind thrust faults, newer ground motion attenuation relationships, 
and near-source ground motion effects evaluated the return period 
associated with the SSE bedrock acceleration to be 5,747 years. As a 
result, the AB 1632 Report concluded that advances in seismology have 
revealed that the SONGS site ``could experience larger and more 
frequent earthquakes than had been anticipated when the plant was 
designed.'' \4\ In addition, the California Coastal Commission's 
analysis indicated that ``there is credible reason to believe that the 
design basis earthquake approved by U.S. Nuclear Regulatory Commission 
(NRC) at the time of the licensing of SONGS 2 and 3 . . . may 
underestimate the seismic risk at the site.'' \5\
---------------------------------------------------------------------------
    \3\ MRW & Associates, AB 1632 Assessment of California's Operating 
Nuclear Plants, Final Consultant Report, October 2008, CEC-100-2008-
005-F, pp. 58-59, available at [http://www.energy.ca.gov/
2008publications/CEC-100-2008-005/CEC-100-2008-005-F.PDF]
    \4\ MRW & Associates, AB 1632 Assessment of California's Operating 
Nuclear Plants, Final Consultant Report, October 2008, CEC-100-2008-
005-F, pp. 58-59, available at [http://www.energy.ca.gov/
2008publications/CEC-100-2008-005/CEC-100-2008-005-F.PDF]
    \5\ California Coastal Commission, http:www.coastal.ca.gov/energy/
E-00-014-3mmi.pdf,page 19.

    Question 3. In your testimony you mentioned that the California 
Energy Commission recommended that PG&E and Southern California Edison 
change the way they are storing fuel in their spent fuel pools. Can you 
explain why the Commission made this recommendation and how it would 
increase safety?
    Response. Due to the lack of a Federal permanent spent fuel 
disposal facility, the spent fuel pools at Diablo Canyon and SONGS have 
been ``re-racked'' to provide increased storage capability by placing 
the fuel assemblies closer together (Federal regulations permit 
reracking of spent fuel pools.) The more densely configured spent fuel 
pools are considered to have greater risk than a spent fuel pool that 
has a more open racking arrangement. A loss-of-coolant event 
precipitated by an accident or extreme event, such as a terrorist 
attack, earthquake, or tsunami, in a re-racked spent fuel pool with its 
spent fuel more closely packed than original designs, could result in 
extensive radiation release and contamination. Reconfiguring the spent 
fuel in the pools to more evenly distribute radioactive decay heat 
loads may help reduce the vulnerability of spent fuel pools. A 2006 
study by the National Academies concluded that it appears to be 
feasible to reduce the likelihood of a fire involving spent fuel 
following a loss-of-pool-coolant event by using readily implemented 
measures including reconfiguring the spent fuel in the pools 
(redistributing the high decay-heat assemblies so that they are 
surrounded by low decay-heat assemblies.) \6\
---------------------------------------------------------------------------
    \6\ National Academies, Safety and Security of Commercial Nuclear 
Fuel Storage, Public Report, 2006, p. 9.

    Question 4. What are your recommendations for storing spent fuel at 
nuclear power plants in California?
    Response. The Energy Commission's 2008 Integrated Energy Policy 
Report, recommended that PG&E and SCE should return the spent fuel 
pools to open racking arrangements as soon as feasible, while 
maintaining compliance with NRC spent fuel cask and pool storage 
requirements, and report to the Energy Commission on their progress in 
doing so. \7\ The California utilities to date have not reported any 
progress in pursuing the Energy Commission's recommendation to modify 
their spent fuel pools' racking to a less dense configuration. With 
abandonment of the Yucca Mountain repository program, a Federal 
permanent geologic repository or centralized dry cask storage facility 
likely will not be available for decades. This means the accelerated 
additional and continued utilization of onsite dry cask storage. As a 
result, spent fuel will remain at Diablo Canyon and SONGS indefinitely.
---------------------------------------------------------------------------
    \7\ 2008 Integrated Energy Policy Report, p. 69, available at: 
[http://www.energy.ca.gov/2008<INF>--</INF>energypolicy/index.html]

    Question 5. On April 11, PG&E asked the Nuclear Regulatory 
Commission to delay issuance of the Diablo Canyon license renewal until 
after PG&E has completed the 3-D seismic studies and submitted a report 
to the NRC addressing the results. We have subsequently learned that 
PG&E did not request a delay in the licensing hearing process, but 
merely a delay in the final issuing of the license until after PG&E has 
completed the 3-D seismic study. Why is it important for the results of 
the 3-D seismic study to be considered as part of the license renewal 
hearing process? Do you believe that all stakeholders, including local 
citizens, should be able to comment on the relevance of the study's 
results as part of a normal NRC relicensing process?
    Response. It is essential that these advanced seismic studies be 
included in license renewal reviews because, as mentioned previously, 
new studies may indicate a greater seismic hazard for Diablo Canyon 
than previous estimates, which could have significant safety and cost 
implications if expensive seismic retrofits are required. There are 
major uncertainties regarding Diablo Canyon's earthquake hazard, for 
example, whether the Hosgri and Shoreline Faults may potentially 
interact together creating a larger magnitude earthquake than if either 
fault ruptured independently. PG&E in a January 2011 report to the NRC 
indicated that the Shoreline Fault is segmented. However, a recent USGS 
report indicated that there is no objective evidence supporting 
segmentation of the Shoreline Fault. Segmentation vs. non-segmentation 
is important in estimating earthquake magnitude potential. For example, 
the Japanese greatly underestimated the 9.0 magnitude earthquake and 
tsunami on March 11 and had predicted that the large offshore fault 
zone was segmented and that these segments would rupture separately. 
However, five segments ruptured together, rather than independently, 
creating a much larger earthquake than had been predicted.
    The Energy Commission in its 2008 and 2009 Integrated Energy Policy 
Reports recommended that PG&E and SCE complete certain studies and 
actions, including completing 3-D and other advanced seismic studies 
for Diablo Canyon and SONGS, and that these studies be included in the 
California Public Utilities Commission's and the NRC's license renewal 
reviews for Diablo Canyon and SONGS. The California Public Utilities 
Commission (CPUC) in June 2009 directed PG&E and SCE to complete these 
studies as part of these plants' license renewal evaluations. The CPUC 
approved funding for the advanced seismic studies at Diablo Canyon and 
in 2011 funded an Independent Peer Review Panel to review PG&E's study 
plans and findings.
    The California Coastal Commission similarly notified the NRC on 
April 25, 2011 that the proposed relicensing for Diablo Canyon ``is 
subject to Federal consistency review by the California Coastal 
Commission, completion of which is a necessary part of the NRC's 
eventual relicensing decision.'' To help conduct its review, the 
Coastal Commission has asked PG&E to provide the results from these 
advanced seismic studies. In addition, California Senator Sam 
Blakeslee, Congresswoman Lois Capps and the San Luis Obispo County 
Board of Supervisors have called for including these advanced seismic 
studies in Diablo Canyon's license renewal evaluations. Therefore, an 
increasing number of State and local officials are calling for 
completing these advanced seismic studies and including them in the 
license renewal evaluations for Diablo Canyon and SONGS. There is 
sufficient time to complete these studies, thoroughly analyze the 
results including independent peer review of the results, and include 
this information in cost-benefit evaluations of license renewal for 
Diablo Canyon. Diablo Canyon's operating licenses do not expire until 
2024 and 2025 and SONGS' licenses do not expire until 2022. PG&E 
recently told the CPUC they plan to complete these advanced seismic 
studies by 2013.
    I agree that stakeholders should be provided an opportunity to 
comment on the seismic study results as part of the NRC's license 
renewal review. Although PG&E has maintained an extensive Long-Term 
Seismic Program at Diablo Canyon as a condition of their operating 
license, PG&E did not discover the Shoreline Fault nor did they 
discover the Hosgri Fault. A Shell Oil scientist discovered the Hosgri 
Fault and USGS scientists discovered the Shoreline Fault. Independent 
reviews of earthquake hazard potential for Diablo Canyon are vital to 
understanding the seismic risks for the site. Interested stakeholders 
may have significant new data to contribute or different 
interpretations of PG&E's study results and should be allowed to 
comment on the study results as part of NRC's license renewal 
evaluation for Diablo Canyon.

[GRAPHIC] [TIFF OMITTED] 

    Senator Carper. Thank you, Mr. Boyd.
    Next we will introduce Lew Schiliro, Secretary Schiliro. 
How long have you been Secretary now?
    Mr. Schiliro. Just over 2 years, Senator.
    Senator Carper. Before that I know you spent a few years in 
the FBI. How many?
    Mr. Schiliro. Twenty-five years, sir.
    Senator Carper. Twenty-five years. Thank you for your 
service to our country and to our State. We are delighted that 
you are here today.
    Please proceed.

   STATEMENT OF LEWIS D. SCHILIRO, J.D., CABINET SECRETARY, 
      DELAWARE DEPARTMENT OF SAFETY AND HOMELAND SECURITY

    Mr. Schiliro. Thank you, Senator, and good afternoon, 
Chairman.
    I am Lew Schiliro, the Secretary of Delaware's Department 
of Safety and Homeland Security. On behalf of Governor Jack 
Markell, I am honored to be here today to address the important 
issue of Homeland Security as it relates to radiological 
emergency plans and preparedness. I would like to thank you for 
the attention and focus on this most important topic.
    In the days and weeks that have followed the nuclear energy 
crisis in Japan, many citizens have raised concerns regarding 
radiological emergency preparedness in the United States. In 
Delaware, the citizens' concerns about the safety of nuclear 
energy facilities and the State's ability to handle a 
radiological emergency were directed to our Department.
    Our Department is comprised of several Public Safety 
Divisions, including the Delaware State Police, Capital Police, 
the Office of Highway Safety and, most importantly, the 
Delaware Emergency Management Agency, which we refer to as 
DEMA.
    While our divisions often work together during a public 
safety emergency, DEMA is primarily responsible for the State's 
Radiological Emergency Plan and preparedness activities. I 
would like to open my statement today with information on the 
nuclear energy utility located just off our State's shore and 
our State's Radiological Emergency Plan. I will then share some 
insight into our experiences with the utility.
    Our State's location along the East Coast puts it within 50 
miles of four nuclear generating stations. They are Limerick 
Nuclear Generating Station and Peach Bottom Atomic Energy 
Station, both in Pennsylvania, Calvert Cliffs Nuclear 
Generating Station in Maryland, and the Salem/Hope Creek 
Nuclear Generating Station in New Jersey. Of these four 
stations, Salem/Hope, which is a 740-acre site operated by 
PSE&G, is the closest, located just 2.5 miles from the Delaware 
shoreline. Together, these plants comprise the second largest 
nuclear generating facility in the United States and generate 
enough electricity for 3 million homes each day.
    According to the 2010 Census, there are approximately 
41,000 people in Delaware who currently live within a 10-mile 
radius of this utility. The area is more commonly known as the 
Emergency Planning Zone or EPZ. It should be noted that within 
the last 10 years, Delaware's population in the EPZ increased 
by over 17,000 citizens, according to the recent census. This 
increase necessitates a mandatory evaluation of our evacuation 
routes and times.
    The close proximity of Salem/Hope makes it the most 
potential threat to our State and as such, DEMA's radiological 
staff continues to work closely with the nuclear people at 
PSE&G and the New Jersey State emergency management officials 
to maintain and update the State's radiological plan. This 
comprehensive plan, which is approved by FEMA, is DEMA's 
roadmap to provide command, control and coordination for any 
potential nuclear plant incident impacting our State.
    As required by the Nuclear Regulatory Commission and FEMA, 
within a 6-year cycle, DEMA conducts three plume exercises 
which really test the State's emergency response capability 
within the EPZ and one injection exercise which tests the 
State's readiness to address needs within a 50-mile radius of 
the utility.
    Historically, Delaware's Federally-graded exercises have 
received very high marks from FEMA and these are graded 
exercises that are quite thorough and exhaustive inasmuch as 
they test each and every State emergency response resource that 
could potentially have a role in any radiological emergency 
incident. They involve our first responders, our evacuation 
plans, reception centers which are registration and 
decontamination sites, traffic control access points, shelters, 
schools, hospitals and emergency worker decontamination 
centers.
    In addition to that, FEMA conducts quarterly radiological 
drills with PSE&G and New Jersey that specifically focus on the 
EPZ and our responder resources. In 2010, 821 people received 
training specific to the REP Plan and Emergency Worker 
Equipment.
    I am going to cut some of this short, Senator, but we have 
absolutely an excellent relationship with PSE&G and the 
emergency response officials in New Jersey.
    I welcome the opportunity, as this goes on, to answer any 
questions that you may have regarding those plans.
    Thank you.
    [The prepared statement of Mr. Schiliro follows:]
Statement of Lewis D. Schiliro, J.D., Secretary, Delaware Department of 
                      Safety and Homeland Security
                              introduction
    Good Afternoon, Chairman Boxer, Ranking Member Inhofe, and members 
of the Subcommittees. I am Lewis D. Schiliro, Secretary of the Delaware 
Department of Safety and Homeland Security. On behalf of Governor Jack 
A. Markell, I am honored to be here today to address the important 
issue of homeland security as it relates to radiological emergency 
plans and preparedness. I would like to thank you for your attention 
and focus on this most important topic.
    In the days and weeks that have followed the nuclear energy crisis 
in Japan, many citizens have raised concerns regarding radiological 
emergency preparedness in the U.S. In Delaware, citizen concerns about 
the safety of nuclear energy facilities and the State's ability to 
handle a radiological emergency were directed to our Department. Our 
Department is comprised of several public safety divisions including 
the Delaware State Police (DSP), Capitol Police and the Delaware 
Emergency Management Agency (DEMA). While our divisions often work 
together during a public safety emergency, DEMA is primarily 
responsible for the State's radiological emergency plan (REP) and 
preparedness activities. I would like to open my statement today with 
information on the nuclear energy utility located just off the State's 
shore and our State's Radiological Emergency Plan. I will then share 
some insight into our experiences and relationship with the Utility.
       nuclear generating stations in close proximity to delaware
    Our State's location along the East Coast puts it with in 50-miles 
of four nuclear generating stations. They are Limerick Nuclear 
Generating Station and Peach Bottom Atomic Power Station, both in 
Pennsylvania; Calvert Cliffs Nuclear Generating Station in Maryland; 
and Salem/Hope Creek Nuclear Generating Station in New Jersey. Of these 
four stations, Salem/Hope Creek, a 740-acre site operated by PSEG 
Nuclear, is the closest, located just 2.5 miles from the Delaware 
shoreline. Together, the plants comprise the second largest nuclear 
generating facility in the U.S and generate enough electricity for 
three million homes each day. According to the 2010 Census, there are 
approximately 41,000 people in Delaware who currently live within a 10-
mile radius of the Utility. This area is more commonly known the 
Emergency Planning Zone (EPZ). It should be noted that within the last 
10 years, Delaware's population in the EPZ increased by over 17,000 
citizens according to the recent census study. This increase 
necessitates a mandatory evaluation of our evacuation routes and times.
        radiological emergency plan, exercises and notification
    The close proximity of Salem/Hope Creek makes it the most potential 
threat to our State and as such DEMA's Radiological Staff continues to 
work closely with PSEG Nuclear and New Jersey State Emergency 
Management officials to maintain and update the State's radiological 
emergency plan. This comprehensive plan, approved by FEMA, is DEMA's 
roadmap to provide command, coordination and support for any potential 
nuclear power plant incident impacting our State. As required by the 
Nuclear Regulatory Commission (NRC) and FEMA, within a 6-year cycle 
DEMA conducts three (3) plume exercises which test the State's 
emergency response capabilities within the EPZ and one (1) ingestion 
exercise which test the State's readiness to address needs within a 50-
mile radius of the Utility. Historically, Delaware's federally graded 
exercises have received high marks from FEMA. These federally graded 
exercises are quite thorough and exhaustive in that they test each and 
every State emergency response resource that could potentially have a 
role in a radiological emergency incident. They involve our first 
responders; evacuation plans; reception centers which are registration 
and decontamination sites for the public; traffic access controls; 
shelters; schools; hospitals; and emergency worker decontamination 
centers. In addition, DEMA conducts quarterly radiological drills with 
PSEG and New Jersey that specifically focus on the EPZ emergency plans 
and responder resources. In 2010, 821 people received training specific 
to the State's REP Plan and Emergency Worker Equipment.
A. Partnerships with Multiple Governmental and Private Agencies
    Over the years, DEMA has successfully forged partnerships with 
multiple Federal, state, county and local agencies to support our 
emergency response plans. DEMA currently maintains 22 Memorandums of 
Understanding with various agencies and organizations for resources and 
assistance. These agencies bring resources that would not otherwise be 
readily available to DEMA. For example, unlike other states, our 
Delaware National Guard is an integral part of our emergency plan. It 
provides support for field monitoring and air sampling as well as 
staffing for two reception centers and an Emergency Worker 
Decontamination Center. In 2010, Delaware participated in drills and 
exercises that involved 1,070 staff from private and governmental 
agencies.
B. Emergency Notification and Activation of Plan
    DEMA has established a 24-hour contact through Delaware State 
Police (DSP) Communications for Salem/Hope Creek notifications. Within 
15 minutes of a radiological emergency, PSEG shall send an alert to 
DEMA via DSP Communications. This alert triggers the activation of the 
State's Emergency Operations Center and will start the notification 
process to our emergency support resources including the State Division 
of Public Health, Department of Natural Resources and Environmental 
Control (DNREC), National Guard and Department of Agriculture as well 
Federal resources that include FEMA, U.S. Environmental Protection 
Agency, Department of Energy, U.S. Department of Agriculture and NRC.
C. Monitoring Sites
    While notification of a radiological incident shall come from PSEG, 
DEMA also has seven (7) stand-alone monitoring sites within the EPZ. 
These units provide readings 24-hours a day and are equipped with 
battery powered back-ups. These units are also programmed to send an 
alert to DSP Communications for the purpose of initiating the 
notification procedure. An alert from any of the stand-alone units 
would necessitate a call to PSEG to determine and confirm if there had 
been an incident of concern. If the alarm was not triggered by a PSEG 
release, DEMA would contact DNREC to investigate and determine the 
source and extent of the incident.
    One additional stationary monitoring unit is located in Dover. This 
unit is managed and monitored by the USEPA through its RADNET program.
                    public information and education
    On a nearly continual basis, DEMA participates in various outreach 
programs throughout the State. Emergency preparedness information 
provided to the general public covers public notification, evacuations, 
sheltering and distribution of potassium iodide. The public also 
receives information via the PSEG Nuclear Informational Calendar. It 
offers detailed planning guidance for residents living within the EPZ. 
DEMA also makes direct contact with civic associations, community 
groups, schools and businesses located in the EPZ to provide plans and 
training.
A. Potassium Iodide Distribution
    For the past 10 years, Delaware has offered a potassium iodide 
public distribution program. The NRC has provided the recommended 
dosage of potassium iodide to all Delaware residents within 10-miles of 
the Salem/Hope Creek Nuclear Generating Stations. In determining the 
amount of potassium iodide Delaware requests, the anticipated growth of 
the population within the 10-mile Emergency Planning Zone was taken 
into consideration, to ensure all persons living within the EPZ are 
issued the appropriate dosage. Besides the public distribution, 
additional supplies in caches are maintained at the Registration sites 
for distribution to the public upon arrival, if warranted. Each year in 
the fall, DEMA and the Division of Public Health work together to host 
several potassium iodide public distribution events. In response to 
recent citizen requests, a potassium iodide distribution event was held 
last week.
        experience and relationship with pseg nuclear officials
    The Department and DEMA have a positive working relationship with 
PSEG Nuclear officials and have found them to be quite responsive to 
our needs and concerns. PSEG provides approximately $1.4 million each 
year to fund the State's radiological emergency preparedness program 
and activities. This is the State's only source of funding for its 
radiological program.
    PSEG Nuclear has invited Department leaders and DEMA staff to the 
Salem/Hope Creek Generating Stations on several occasions for plant 
tours. More importantly, during the quarterly drills, several DEMA 
radiological staff and public information officers travel to Salem/Hope 
Creek Generating Station to work as a team with PSEG staff and New 
Jersey officials. This arrangement has allowed our staff to become very 
familiar with not only the emergency plans and procedures but with the 
PSEG facility and its staff. In addition, PSEG hosts annual training on 
utility emergency plans and procedures. Each year, PSEG officials 
partner with DEMA to host an awards luncheon for elementary school 
students who submit artwork for its radiological emergency information 
calendar that is distributed to residents within the Delaware portion 
of the EPZ. Likewise, a similar activity is sponsored by New Jersey & 
PSEG for the New Jersey portion of the EPZ.
                                closing
    At this time, the Department does not have any specific concerns 
regarding the Salem/Hope Creek Generating Stations or the other nearby 
nuclear energy facilities. I am confident that DEMA and its supporting 
partners are prepared to handle a radiological incident within our 
State.

    Senator Carper. Thank you very, very much, Mr. Secretary.
    Welcome, again, Mr. Sommerhoff. Please proceed. Thank you 
for joining us.

    STATEMENT OF CURTIS S. SOMMERHOFF, DIRECTOR, MIAMI-DADE 
               DEPARTMENT OF EMERGENCY MANAGEMENT

    Mr. Sommerhoff. Good afternoon, and I wanted to thank 
Environment and Public Works Committee Chairman Boxer, Ranking 
Member Inhofe, Clean Air and Nuclear Subcommittee Chairman 
Carper, Ranking Member Barrasso, and the distinguished 
committee members.
    I am Curtis Sommerhoff, Director of the Miami-Dade 
Department of Emergency Management. The community I serve spans 
nearly 2,000 square miles, includes 35 municipalities, and has 
a population of more than 2.5 million. We are a coastal 
community vulnerable to a number of natural and manmade 
disasters including the threat of hurricanes, flooding, fires, 
mass migration, oil spills and radiological events.
    Miami-Dade County's response to emergencies and disasters 
is guided by a Comprehensive Emergency Management Plan, an all-
hazards approach which supports the County's ability to respond 
to any type of emergency. Within our comprehensive plan we have 
a number of hazard-specific annexes, including a Radiological 
Emergency Preparedness Plan.
    Our plans are regularly assessed and assumptions analyzed, 
revised and ultimately certified by the Federal Emergency 
Management Agency. Site visits and evaluated exercises bring 
together local, State and Federal agencies, as well as members 
of the utility, to enhance collaboration and programming. FEMA 
oversight and formal after action reports highlight significant 
areas that might need improvement.
    In the event of an emergency at the nuclear power plant, we 
have a public alert and notification system that includes 
warning sirens in the area around the plant, identified support 
facilities for the delivery of emergency services, fully 
trained and equipped public safety response personnel, and 
protective measures that are adjusted to the threat level.
    Our ability to effectively respond to a radiological or 
other threat lies not only in our comprehensive planning but 
our long history of implementing protective actions for the 
public. Over the past decade alone, evacuation orders have been 
issued to the public on 10 occasions as a result of hurricanes 
and tropical storms and, together with our partner agencies, we 
have coordinated the evacuation, transportation, sheltering, 
medical care and feeding of tens of thousands of evacuees.
    Consider this. In the 10-mile Emergency Planning Zone 
surrounding the Turkey Point Nuclear Power Plant, there are 
approximately 180,000 residents. Within Miami-Dade's three 
designated Hurricane Evacuation Zones, there are more than half 
a million residents.
    We have identified shelters for temporary housing with 
special consideration given to individuals with special needs. 
We have designated areas for the dissemination of emergency 
supplies, like water, ice, food and tarps in the event of 
widespread destruction or power outages.
    We have ready-to-activate Disaster Assistance Centers to 
provide social services to residents in need of financial 
assistance, prescriptions refills, short- and long-term housing 
and first aid, and contracts and mutual aid agreements to 
ensure the continuity of operations during disaster response 
and recovery. In line with the National Response Framework, all 
of our plans are scalable, flexible and adaptable.
    The County's Department of Emergency Management fosters an 
ongoing collaborative planning relationship with the County's 
mission essential departments and partner agencies to address 
life safety and property implications from existing hazards. We 
have a long-established state-of-the-art Emergency Operations 
Center, our nucleus for response and recovery efforts.
    When disaster threatens, our emergency managers, private 
and non-profit sector partners, as well as our media partners, 
come together under one roof, a critical component for a 
coordinated response and timely and accurate information 
dissemination. Local, State and Federal coordination enables us 
to augment and resupply personnel and equipment as needed, even 
over extended periods.
    Our strengths and experiences from hurricane response carry 
over to our ability to implement actions for a radiological 
event. Conversely, our planning for a potential radiological 
event has a positive effect on our ability to respond to other 
hazards.
    Based on our experiences, we respectfully offer the 
following recommendations for consideration.
    The recommendation of the Nuclear Regulatory Commission to 
evacuate Americans out to 50 miles from the Fukushima Daiichi 
Plant has raised many questions. We support analysis of the 
data and assumptions behind the recommendation to determine if 
Emergency Planning Zones in the United States need to be 
revised. Of course, a wholesale change to increase the plume 
exposure pathway must be carefully evaluated and weighed 
against the value of making the revision.
    It is also important to note that local officials currently 
have the flexibility to revise public protective action based 
on accident parameters and the situation on the ground.
    As we have seen in the crisis in Japan, as well as other 
disasters across the United States, interaction and 
coordination with Federal partners is sometimes hampered by the 
lack of familiarity of local and State response organizations 
with Federal processes and systems. Increasing the inclusion of 
FEMA and other Federal agencies in local and State training and 
exercises would make the transition from a local response to a 
Federally-integrated response more seamless and efficient.
    Finally, it is essential to maintain and expand emergency 
management all-hazard funding programs such as the Emergency 
Management Performance Grant Program. This year alone, every 
EMPG dollar spent in Miami-Dade County is matched with over 
five local dollars to build emergency management capabilities 
that enhance our community's disaster preparedness.
    EMPG dollars have also enabled us to invest in staff and 
resources that have been made available to communities 
throughout the country, including assistance we were able to 
deploy to New York after the 9/11 attacks and, more recently, 
to neighboring Florida counties directly impacted by 2004s 
record-breaking hurricane season.
    Once again, I thank you for the opportunity to share our 
experiences, observations and recommendations.
    [The prepared statement of Mr. Sommerhoff follows:]
  Statement of Curtis Sommerhoff, Director, Miami-Dade Department of 
                          Emergency Management
                              introduction
    Thank you Environment and Public Works Committee Chairman Boxer, 
Ranking Member Inhofe, Clean Air and Nuclear Safety Subcommittee 
Chairman Carper, Ranking Member Barrasso, and distinguished committee 
members.
    I am Curtis Sommerhoff, Director of the Miami-Dade Department of 
Emergency Management, and am pleased to have the opportunity to share 
with you Miami-Dade's approach to preparedness, response and recovery, 
including our plans in the event of a radiological emergency. The 
events at Japan's Fukushima Daiichi nuclear power station have rightly 
focused attention on the safety of existing nuclear power plants, the 
soundness of emergency plans, and the readiness of emergency 
responders.
    Let me begin by sharing a bit about myself and Miami-Dade County. I 
have spent my career in and around emergency management_from addressing 
water and wastewater emergencies . . . to overseeing hazardous 
materials and response programs . . . to managing Miami-Dade County's 
Radiological Emergency Preparedness Plan. I have served during 8 
Presidentially Declared or Major Disaster Declarations, including 
Hurricanes Wilma and Katrina, and was appointed Director of Miami-Dade 
Emergency Management in 2009.
    The community I serve spans nearly 2,000 square miles, includes 35 
municipalities and has a population of more than 2.5 million people. We 
are a coastal community vulnerable to a number of natural and man-made 
disasters, including the threat of hurricanes, flooding, fires, mass 
migration, oil spills and radiological events.
                         abilities & strengths
    Miami-Dade County's response to emergencies and disasters is guided 
by a Comprehensive Emergency Management Plan . . . an ``all-hazards'' 
approach which supports the county's ability to respond to any type of 
emergency. Within our comprehensive plan, we have a number of hazard 
specific annexes, including a Radiological Emergency Preparedness Plan.
    The Turkey Point Power Plant operated by Florida Power and Light is 
located approximately 25 miles south of the city of Miami, and includes 
two nuclear power reactors. Miami-Dade County's vulnerability analysis 
accounts for the possible risks posed by nuclear power, and we have a 
robust planning, training and exercise program to ensure our response 
capabilities are appropriate.
    Our plans are regularly assessed and assumptions analyzed, revised, 
and ultimately, certified by the Federal Emergency Management Agency 
(FEMA). Site visits and evaluated exercises bring together local, State 
and Federal agencies, as well as members of the utility to enhance 
collaboration and programming. FEMA oversight and formal after-action 
reports highlight significant areas that might need improvement.
    In the event of an emergency at the nuclear power plant, we have a 
public alert and notification system that includes warning sirens in 
the area around the plant; identified support facilities for the 
delivery of emergency services; fully trained and equipped public 
safety response personnel; and protective measures that are adjusted to 
the threat level.
    Our ability to effectively respond to a radiological--or other 
threat--lies not only in our comprehensive planning, but our long 
history of implementing protective actions for the public. Over the 
past decade alone, evacuation orders have been issued to the public on 
10 occasions as a result of hurricanes or tropical storms; and together 
with our partner agencies, we have coordinated the evacuation and 
transportation, sheltering, medical care and feeding of tens of 
thousands of evacuees.
    Consider this: In the 10-mile Emergency Planning Zone surrounding 
the Turkey Point Nuclear Plant, there are approximately 180,000 
residents. Within Miami-Dade's three designated Hurricane Evacuation 
Zones, there are more than a half a million residents.
    We have identified shelters for temporary housing, with special 
consideration given to individuals with special needs. We have 
designated areas for the dissemination of emergency supplies like 
water, ice, food and tarps in the event of widespread destruction or 
power outages. We have ready-to-activate Disaster Assistance Centers to 
provide social services to residents in need of financial assistance, 
prescription refills, short and long-term housing and first aid; and 
contracts and mutual aid agreements to ensure the continuity of 
operations during disaster response and recovery. In line with the 
National Response Framework (NRF), all of our plans are scalable, 
flexible and adaptable.
    The County's Department of Emergency Management fosters an ongoing, 
collaborative planning relationship with the county's mission essential 
departments and partner agencies to address life-safety and property 
implications from existing hazards. We have a long-established, state-
of-the-art Emergency Operations Center _our nucleus for response and 
recovery efforts. When disaster threatens, our emergency managers, 
private and non-profit sector partners, as well as our media partners, 
come together under one roof_a critical component for a coordinated 
response and timely and accurate information dissemination. Local, 
State and Federal coordination enables us to augment and resupply 
personnel and equipment, as needed, even for extended periods.
    Our strengths and experience from hurricane responses carry over to 
our ability to implement actions for a radiological event. Conversely, 
our planning for a potential radiological event has a positive effect 
on our ability to respond to other hazards.
                            recommendations
    Based on our experiences, we respectfully offer the following 
recommendations for consideration:
    (1) The recommendation by the Nuclear Regulatory Commission to 
evacuate Americans out to 50 miles from the Fukushima Daiichi Plant has 
raised many questions. We support analysis of the data and assumptions 
behind the recommendation to determine if Emergency Planning Zones in 
the U.S. need to be revised. Of course, a wholesale change to increase 
the plume exposure pathway must be carefully evaluated and weighed 
against the value of making any revision.
    It is also important to note that local officials currently have 
the flexibility to revise public protective action based on accident 
parameters and the situation ``on the ground''.
    (2) As we have seen with the crisis in Japan as well as with other 
disasters across the U.S., interaction and coordination with Federal 
partners is sometimes hampered by the lack of familiarity of local and 
State response organizations with Federal processes and systems. 
Increasing the inclusion of FEMA and other Federal agencies in local 
and State training and exercises would make the transition from a local 
response to a federally integrated response more seamless and 
efficient.
    (3) We support recent revisions to radiological emergency 
preparedness regulations requiring greater variation in exercise 
scenarios. Variations that are infrequently exercised at the local 
level, but carry great importance include consideration of food 
embargos, legal and financial challenges to home and business owners, 
long-term displacement of residents, impacts to the environment and 
economy, and integration of American Nuclear Insurers into the recovery 
process.
    (4) Because a nuclear event of Japan's magnitude invariably 
engenders a great deal of national and international interest, a 
centralized Web site similar to the Deepwater Horizon site 
``restorethegulf.gov'' can provide a one-stop source for official 
information.
    (5) Finally, it is essential to maintain and expand emergency 
management all-hazard funding programs such as the Emergency Management 
Performance Grant Program (EMPG). This year alone, every EMPG dollar 
spent in Miami-Dade County is matched with over five local dollars to 
build emergency management capabilities that enhance our community's 
disaster preparedness.
    EMPG dollars have also enabled us to invest in staff and resources 
that have been made available to communities throughout the country, 
including assistance we were able to deploy to New York City in the 
aftermath of the 9/11 attacks, and more recently, to neighboring 
Florida counties directly impacted by 2004s record-breaking hurricane 
season.
    Once again, thank you for the opportunity to share our experiences, 
observations and recommendations. I am pleased to answer any questions 
you may have.

    Senator Carper. Good. Thanks so much, Mr. Sommerhoff.
    Mr. Pardee, you are now recognized. Please proceed. Thank 
you for joining us.

 STATEMENT OF CHARLES PARDEE, CHIEF OPERATING OFFICER, EXELON 
                       GENERATION COMPANY

    Mr. Pardee. Good afternoon, Chairman Carper, members of the 
committee.
    My name is Charles Pardee. I am the Chief Operating Officer 
at Exelon Generation and as such responsible for all of the 
company's generating assets, including 17 units at 10 sites in 
Illinois, Pennsylvania and New Jersey.
    I appreciate the opportunity to appear this afternoon on 
behalf of the nuclear industry to discuss the safety of nuclear 
power plants here in the United States.
    We have been following the events in Japan closely since 
the historic earthquake and tsunami struck the plant on March 
11th. Many in the United States nuclear industry have both a 
professional and a personal interest in the events unfolding 
there.
    Many of us, myself included, have been to Japan a number of 
times as part of international technical exchange programs to 
share operating experience with the Tokyo Electric Power 
Company and others. In fact, I was at the Fukishima Daiichi 
station about a week prior to the earthquake striking there on 
one such exchange.
    Our hearts go out to the Japanese people as they respond to 
the humanitarian crisis they are facing. Currently, six Exelon 
employees are in Japan assisting with efforts there to secure, 
stabilize and ultimately decommission the Fukushima Daiichi 
reactors.
    It is understandable that many Americans are asking if 
power plants in the United States are safe in light of the 
events in Japan. I firmly believe that they are safe, and I 
would like to make three primary points about the safety of 
nuclear plants in the United States to buttress this belief.
    First, our plants are designed and licensed to withstand a 
variety of natural disasters including earthquakes, floods, 
tornadoes and, where appropriate, tsunamis. Plants are designed 
to withstand potential disasters based on the most extreme 
event known in their geographic location with significant 
margin added to that extreme event to ensure safety. Margins 
are reviewed and improved as necessary as additional 
information or experience becomes available to us.
    Second, safety systems, equipment and emergency procedures 
at nuclear power plants are not frozen in time once the plant 
is built. In fact, safety is an issue that is being constantly 
examined by both the industry and our regulators. We have 
undertaken extensive safety enhancing upgrades to our plants in 
the aftermath of Three Mile Island, the events of 9/11, and 
other events such as Hurricanes Katrina and Andrew that have 
impacted the United States.
    Particular attention has been paid to putting systems in 
place to avoid a buildup of hydrogen in containment areas, the 
likely cause of the explosions at the Japanese plants. In 
addition, we require multiple redundancies and back up power 
supplies in the event of a loss of offsite power, the 
precipitating factor in the loss of cooling water issues that 
have led to the most extensive damage at the Japanese reactors.
    In addition, full capability simulators have been installed 
at each plant in the United States, giving every operating crew 
the ability to train under realistic conditions on extreme 
events, such as loss of all AC electrical power, to ensure our 
mitigation strategies are robust and our operators are fully 
qualified to respond. I earned an operating license at a plant 
similar to one of the Fukushima Daiichi reactors in the 1990s, 
and I personally went through this training to learn how to 
combat scenarios such as the loss of all electrical power.
    Third, while it may take months, if not years, to fully 
understand what happened at the Japanese reactors, the industry 
is not waiting to take action to incorporate lessons learned 
from this event. Indeed, I firmly believe that the nuclear 
industry is unparalleled in its ability to incorporate lessons 
learned to ensure excellence in operations.
    There are two institutions, the U.S.-based Institute of 
Nuclear Power Operations and its international equivalent, the 
World Association of Nuclear Operators, that are devoted to 
ensuring excellence by sharing best practices, assessing and 
incorporating lessons learned from events such as this, and 
rigorously assessing plant performance to ensure sound 
operations.
    In the United States, the Institute of Nuclear Power 
Operations ensures that reactor operators do not become 
complacent in any area of operations, particularly when it 
comes to safety-related issues. There is a focus on continuous 
learning from events, both large and small, that occur at other 
plants. Whenever a significant event occurs, INPO performs an 
analysis to determine relevant lessons learned that are then 
shared with all operators.
    Within days of the earthquake and the tsunami, the industry 
issued directives to each of our plants to undertake a variety 
of actions to ensure that seismic and safety-related equipment 
was in good material condition and to review our emergency 
response plans including each plant's capability to manage a 
total loss of offsite power. These assessments are ongoing and 
I am confident that both industry and NRC will have additional 
action items in the coming weeks and months to further enhance 
our ability to operate safely.
    Aside from the safety of nuclear reactors, I know that 
there are also concerns about the safety of spent fuel pools in 
light of the events in Japan. As with our reactors, we have 
taken a number of steps in the aftermath of Three Mile Island 
and 9/11 to bolster security to spent fuel pools. Back-up power 
systems, abundant onsite water supplies and additional high 
capacity pumps provide us with the defense and depth to ensure 
safety of these pools.
    Let me conclude by recognizing the dedicated employees of 
the United States nuclear industry. Safety is, and continues to 
be, the primary focus of our industry, and we have tens of 
thousands of highly skilled, thoroughly trained employees 
working tirelessly every hour of every day such that our plants 
operate safely and efficiently.
    Thank you for this opportunity.
    [The prepared statement of Mr. Pardee follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Mr. Pardee, thank you so much for joining 
us today.
    Dr. Thomas Cochran. We have a Senator named Cochran, Thad 
Cochran from Mississippi.
    Mr. Cochran. Not related.
    Senator Carper. What was that? Uncle Thad?
    [Laughter.]
    Mr. Cochran. Not related.
    Senator Carper. Oh. OK.

   STATEMENT OF THOMAS B. COCHRAN, Ph.D., SENIOR SCIENTIST, 
    NUCLEAR PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL, INC.

    Mr. Cochran. Chairman Carper, and also Chairman Boxer and 
members of the committee, I want to thank you for providing 
NRDC and me the opportunity to present our views on the 
Japanese nuclear disaster and its implications for nuclear 
power reactors in the United States.
    I have submitted my complete statement for the record. I 
will briefly highlight a few things here.
    You requested that I offer my views regarding the 
implications the disaster has for reactor safety in the United 
States. First, I think we all are in agreement that the first 
priority is to provide assistance to our friends in Japan. But, 
eventually, and even today, we are turning to the issue of the 
implications for the United States.
    Before turning to that issue, I wish to make two 
observations. First, my colleague, Dr. Matthew McKinzie, and I 
made a rough preliminary estimate of the collective radiation 
dose from the external exposure based on monitoring data from 
Japan. We should be mindful that the uncertainties in the 
estimated exposures at this stage are quite large. There is 
much we simply do not know. With this caution, we find the 
collective dose from the external exposure to date, and the 
consequentially excess cancers that are projected to result, 
appear to be 10 to 100 times greater than the collective 
radiation dose resulting from the Three Mile Island accident.
    After Chernobyl, the Fukushima nuclear accident ranks as 
the second most dangerous civil nuclear power reactor accident 
to date. The collective dose to date from the Fukushima 
accident appears to be in the neighborhood of 100 times less 
than that from the Chernobyl accident. Similarly, the long-term 
human health consequences are one to two orders of magnitude 
less than the immediate non-nuclear consequences of the 
earthquake and tsunami. This is a preliminary comparison and it 
may change as we learn more.
    Second, Dr. McKinzie and I have reexamined the historical 
frequency of partial core melt accidents. We found the 
historical frequency of core melt accidents worldwide is far 
greater than what the NRC considers safe. By this measure, 
operational reactors worldwide are not sufficiently safe.
    Because of differences in the numbers of reactors, the 
reactor safety cultures and the regulatory oversight, the next 
nuclear power plant disaster is more likely to occur abroad 
than in the United States. But if nuclear power is to have a 
long-term future, greater attention should be given to current 
operational reactors. Older obsolete designs should be phased 
out rather than have their licenses extended.
    Turning to the implications for U.S. nuclear power 
reactors, there are concerns raised by the Fukushima nuclear 
disaster that bear directly on the safe operation and 
regulation of our domestic fleet. While others will add to this 
list, our immediate concerns include:
    Are old GE BWRs with poorly designed Mark 1 and Mark 2 
containments and subsequent upgrades imposed by the NRC safe 
enough to continue operation or have their licenses extended?
    What additional improvements should be made to cope with 
hydrogen production in the event of a fuel clad interaction 
with steam? What improvements must be made to extend the time 
reactors can cope with loss of offsite power?
    The NRC is overdue in requiring that spent fuel be removed 
from wet pools to hardened dry casks as soon as the spent fuel 
has cooled sufficiently to be passively cooled in air.
    Which reactor sites are located in areas that cannot be 
adequately evacuated? Which reactor stations impose an undue 
economic risk to local, State and even the U.S. economy in the 
event of a partial core melt accident? Which U.S. reactors 
should be upgraded or phased out due to the risk of earthquake, 
flooding or tornado that is beyond the design basis?
    Potential radiological accidents caused by earthquakes and 
tsunamis should be addressed in emergency response plans for 
U.S. reactors. Nuclear plant owners and operators must assume a 
larger share of financial risk in the event of a catastrophic 
nuclear accident.
    What are the implications of predicted sea level rise due 
to climate change on the safety of nuclear reactors near 
coasts? What are the implications for continued failure of the 
NRC to finalize and implement a fire protection rule?
    What changes should be implemented regarding radiation 
monitoring during routine plant operations following an 
accident? Perhaps most importantly, what is the best process 
for addressing these concerns?
    I would like to elaborate on a couple of these starting 
with the last, the need for an independent commission----
    Senator Carper. Doctor, I am going to ask you not to 
elaborate too much, if you will.
    Mr. Cochran [continuing]. Similar to the Kemeny Commission 
that investigated the Three Mile Island accident. Such an 
independent body could engender public confidence by thoroughly 
examining nuclear safety issues including assessing the 
conclusions and proposed corrective actions arrived at by both 
the nuclear industry and the NRC's 90-day safety review.
    I will just touch on one of these issues that I raised. The 
20-year license extensions already granted to 23 U.S. 
operational BWRs with Mark 1 and Mark 2 containments should be 
shortened. Similarly, no 20-year license extension should be 
granted to the eight BWRs with Mark 1 and Mark 2 containments 
that have not received license extensions.
    Mr. Chairman, thank you. I will stop there. I have some 
more but I have run out of time and look forward to your 
questions.
    [The prepared statement of Mr. Cochran follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Carper. Thanks so much for your testimony. As I 
said earlier, the entire statement will be made part of the 
record.
    I am going to telegraph a pitch and let you know what my 
last question is going to be to the panel. Basically I am going 
to ask each of you to give us a just a really good takeaway, a 
really good takeaway, not just for Chairman Boxer and myself 
and Senators Inhofe and Barrasso, but just really one good 
takeaway from each of you from this hearing for our committee, 
please. So just be thinking about that.
    In the meantime, let me ask a first question of Secretary 
Schiliro, and that would be, after seeing the devastation in 
Japan, are you concerned with our State, with Delaware's 
emergency planning process? Could anything be improved? To 
follow onto that, do you feel our plan is flexible enough to be 
changed if you saw a need to expand beyond the 10-mile 
evacuation plan?
    Mr. Schiliro. Thank you, Senator. We have a very robust 
group in Delaware and it truly is a team effort. The ability of 
DEMA to incorporate all of our partners from the law 
enforcement and public safety communities, both State and our 
Federal partners, I think is very robust.
    Certainly I think the lesson that we need to learn is what 
can we take away from the events in Japan that would allow us 
to evolve that plan? Because it truly is a living document and 
certainly something that we need to understand.
    As has been stated, the 10-mile EPZ is something that we do 
practice for and plan for. However, I do think the plan is 
flexible enough, and certainly in the power of the Governor, 
that in the event that the circumstances go beyond that 10 
miles, that we certainly could react to. We do, as has been 
stated, plan for that in terms of hurricane evacuations. So, it 
is adaptable.
    I think, as was stated earlier, what the 10-mile zone 
allows us to do is to really give that early warning and to 
really just start to begin from that. But there is no doubt in 
my mind, based upon the people that we have in Delaware, that 
if we needed to expand it, we certainly could and would do 
that. So, I feel very comfortable with that.
    Senator Carper. All right. Thank you.
    Let me follow that one with a question of Mr. Sommerhoff 
and perhaps of Secretary Schiliro as well. The question is, 
many of the families in Japan have been away from their homes 
for I guess close to a month or so. In your emergency planning, 
is it explained to people being asked to evacuate that it could 
be not just for a couple of hours or a couple of days? It could 
be, in this case, for over a month for a lot of the folks in 
Japan, and I guess the clock is still running there.
    But do we have long-term emergency housing that can 
accommodate people for these kinds of extended periods of time?
    Mr. Sommerhoff. One of the things we try to do as we, when 
we educate the public and certainly practice these drills and 
exercises, is we have an emergency reception center concept. 
The idea with the emergency reception center is to have a 
place, at least temporarily, for people to seek shelter and 
emergency services from local government.
    From there, we are also looking at some offsite reception 
centers, some more long-term sheltering capability. Then we 
would be looking at Federal resources coming in, as well as 
aids from the nuclear industry through American nuclear 
insurers and others, to provide more resources for those long-
term housing needs and those types of opportunities.
    But all of those things that you mentioned in terms of both 
human and health services type things, as well as the housing 
issues and the mass care issues, all that is provided and 
explained to folks in terms of education, as well as the 
resources at the reception center concept.
    Senator Carper. OK. Mr. Schiliro, Secretary Schiliro, 
anything you want to add to that?
    Mr. Schiliro. Just one quick note, Senator. As you know, we 
have had occasion, unfortunately, to stand up, primarily 
through the Red Cross short-term shelters, one in the event of 
certain snowstorms that we have recently had and weather-
related events, and generally that works very well.
    But obviously in the event that we needed longer term, the 
primary responsibility would be for the public safety and, if 
that were the case, I am confident that through our Federal 
partners and other related resources we would be able to 
accomplish that.
    Senator Carper. All right, thank you.
    A question, if I could, of Mr. Pardee. This is a question 
relating to alert systems. In Secretary Schiliro's written 
statement, he stated that within, he said within 15 minutes of 
a radiological emergency, PSE&G must send an alert to 
Delaware's emergency response team. Do you know if that is a 
requirement that is established by the Nuclear Regulatory 
Commission?
    Mr. Pardee. Yes, Mr. Chairman. The Nuclear Regulatory 
Commission has very strict reporting guidelines that are 
applicable to all nuclear stations in the United States that 
ensure timely reporting of events as they are unfolding and 
regular periodic updates to make sure, as further information 
is acquired by the station, that that information is shared 
with State and Federal officials for the purposes of making 
quick protective action recommendations and mustering resources 
to assist.
    Senator Carper. OK. During an emergency, how does a company 
communicate with the NRC and with local governments?
    Mr. Pardee. We have emergency response facilities both 
local to the site and remote from the site, our emergency 
operating facilities. Those facilities all have dedicated 
communication links between the Nuclear Regulatory Commission 
op centers and on a State-by-State basis. They are emergency 
operating centers. These are dedicated phone lines, they have 
back-ups in the form of satellite, radio or cellular 
communications and such. So, there are multiple communications 
links in which to share the information I described.
    Senator Carper. Did you say earlier that you had spent some 
time in Japan?
    Mr. Pardee. I have. I have been to both Fukushima Daiichi 
and the Kashiwazaki-Kariwa station that suffered an earthquake 
about 3 years ago. In that case, I went about 2 weeks after 
that earthquake hit.
    Senator Carper. A member of my staff, I think it might have 
been Laura Haynes, I think, said to me earlier today, suggested 
that the NRC has the ability to monitor control rooms, maybe of 
all the nuclear power plants in the United States. I do not 
know if that is true, but if you know, and the second, like a 
followup, whether that is true or not, do the folks in Japan 
have a similar kind of capability?
    Mr. Pardee. We in the United States all have something 
called the Emergency Response Data System which is a provision 
to provide technical data to the NRC Emergency Operations 
Center and other interested parties. I am not strictly familiar 
with what exists within the Japanese regulatory protocol, but I 
do know that information flow seems to be much more greatly 
challenged than I would ever expect it to be here in the United 
States.
    Senator Carper. OK. Thanks.
    I am going to ask a question of Secretary Schiliro and then 
I am going to ask Dr. Cochran and Mr. Boyd and Mr. Pardee to 
followup on this. But here is the question of Secretary 
Schiliro. In your written testimony, I think you stated 
approximately 41,000 Delawareans live within 10 miles of 
PSE&G's Salem/Hope Creek facilities. Is that about right?
    Mr. Schiliro. That is correct, Senator.
    Senator Carper. All right. If there was a full evacuation 
of that 10-mile radius because of an emergency at the PSE&G 
facilities, how long do you think it would take to conduct that 
full evacuation?
    Mr. Schiliro. Our modeling, Senator, depending on the time 
of the day and the time of the year, anywhere between three and 
6 hours.
    Senator Carper. Three and 6 hours. All right. Again, if I 
could, of Dr. Cochran and Charles Pardee and Mr. Boyd, if a 
nuclear power plant in this country faced a full blackout, 
faced a full blackout, similar to what we have seen at the 
Fukushima facility, in your opinion, would we have a few days 
before we might see the fuel rods degrade and therefore see 
harmful radiation levels?
    I am going to say that one again. I will just say it again. 
If a nuclear power plant in this country faced a full blackout 
similar to what we have seen at the Fukushima facility, in your 
opinion, would we have a few days before we might see the fuel 
rods degrade and therefore witness harmful radiation levels?
    Mr. Cochran. I do not believe so if you include within that 
full blackout the loss of emergency power generation at the 
site. For example, you have both batteries and diesel generator 
backup systems. Diesel generators failed in Japan because of 
the tsunami. If they failed in the United States, you then can 
rely on, and they also relied upon, battery power. At some 
reactors the batteries are only designed for 4 hours, it is my 
understanding.
    Senator Carper. Do we have any idea if those batteries can 
be recharged? I just drove one of those new Chevrolet Volts 
yesterday and the Chevrolet Volt, as you may know, the battery 
provides, constantly provides, the force, if you will, for the 
wheels to move. Whether the engine, if the engine is running, 
the engine does not run, turn the wheels. It powers the battery 
so the battery can be charged constantly.
    Any idea if these batteries at the nuclear power plants can 
be charged or recharged while they are drawing down 
electricity? Does anybody know?
    Mr. Pardee. Yes they can, Mr. Chairman.
    Senator Carper. OK. Thanks.
    Mr. Pardee. We have to have the requisite equipment 
available, but they can be recharged. They are big automobile 
batteries. Very big automobile batteries.
    Senator Carper. I bet they are. Thanks. OK. Doctor, go 
ahead and finish your response now.
    Dr. Cochran. Well, in order to recharge them, you have to 
have a source of power. Your original premise was that you lost 
power, that you had a station blackout, so you would not be 
able to charge them under those circumstances.
    I think you have touched on one of several very important 
issues that need to be addressed as a consequence of this 
disaster. In my judgment, the most important thing you need to 
do is address how this process should be undertaken. We support 
the NRC's review. We support the industry's review. But we do 
not feel that is adequate.
    We should rely solely on the NRC to review its own previous 
failures, and we therefore believe that you need something akin 
to a Kemeny Commission that you had following the TMI accident, 
similar to the Blue Ribbon Commission you had following the BP 
oil spill.
    There are people in the industry, people in the Government, 
who do not want to have an independent review because they see 
that it might threaten their future course of actions.
    Senator Carper. All right. Thank you. May I ask, if I 
could, Mr. Boyd and Mr. Pardee to respond as well to this 
question. Mr. Boyd?
    Mr. Boyd. Thank you, Senator. I know, and I just checked 
with my good Senator here, that Diablo Canyon has a real 
problem with regard to evacuation of, you heard the very small 
numbers of people. But there is incredibly limited access. So, 
the number we have is about 15 hours to evacuate the area 
because, and that assumes the overpasses have not collapsed on 
the freeway and that assumes it leaves one of the only two 
escape routes available.
    At SONGS, it is a little different with 7 million people. I 
do not have the estimate on the top of my head but it, while we 
have significant freeway systems there, it is still a very 
substantial period of time that has been modeled over and over 
again and I can get you that information.
    Additional comments on the second question because it 
relates to the evacuation issue. Both of our plants have 8 hour 
battery backup capability. Diablo Canyon's backup generators 
are fairly high up on the hillside so it would take a very 
significant tsunami to impact them. But, nonetheless, we are in 
discussions now as a result of what happened in Japan with both 
utilities about the whole question of station blackout.
    The SONGS generators are right at the plant which is right 
on the beach although, hopefully, a less earthquake prone area. 
But nonetheless, they have the advantage of the entire Marine 
Corp across the street, Camp Pendleton, and arrangements have 
been made for backup generation, portable generators and what 
have you, in the event of some kind of problem there.
    Diablo Canyon does not have that luxury and we have been 
talking about helicoptering in batteries and what have you in 
the event there is a serious problem there.
    Senator Carper. All right. Thank you. One last word, if you 
would, Mr. Pardee, on this question, please.
    Mr. Pardee. Yes, sir. For the first question regarding 
evacuation times, our times also vary, station dependent, time 
of day, time of year, seasonal varieties, but somewhere on the 
order of four to 10 hours is representative of our stations as 
well.
    To your question about our ability to forestall fuel damage 
for a number of days per station blackout, I do not believe 
that we would have fuel damage, although I do not mean to 
trivialize the amount of work that would be required on the 
part of the operators to create that result.
    But we do have, even in the event of depleting batteries, 
we have procedures here in the United States for manual 
operation of our emergency pumps that would require no battery 
power for operation or measurement instrumentation. In other 
instances, we have temporary or portable battery supplies, such 
as carts with batteries on them, that would allow us to operate 
the equipment necessary to keep the core from being damaged. 
This equipment and these procedures are pre-staged. We train on 
them. We have formal qualification programs on them.
    I am positive that we will learn things out of the Japanese 
event that will make us better. We are already starting to 
investigate how we can extend the lives of our batteries and 
such. I am sure we will have to look harder at spent fuel pools 
and their ability to withstand sustained loss of AC electrical 
power. But the direct answer to your question is, I would not 
anticipate fuel damage after 48 hours.
    Senator Carper. OK. Thanks very much.
    Let me go back to the pitch I telegraphed earlier and that 
is to ask each of you if you could share with us one takeaway 
before you go back. I will just start, if I could, with, I will 
start with Senator Blakeslee. If you would not mind responding, 
that would be great.
    Mr. Blakeslee. Thank you, Senator. I appreciate the 
opportunity.
    We have 104 reactors in the Nation and the NRC has 
identified there are only two plants that are in the highest 
seismic potential category and both of them happen to be 
coastal plants. But only one of them has a recently identified 
fault of significant proportions in very close proximity.
    My concern in listening to Commissioner Jaczko's comments 
in response to Senator Boxer's questioning was that, although 
he is looking at procedures in a 90-day and a 6-month window, I 
heard nothing that identified the unique needs of these two 
plants, and the one plant in particular, which have these 
direct analogies to the threat faced in Japan through the 2007 
and 2011 earthquakes.
    So I would again, the one take away I hope we can walk away 
with is that for these two facilities in California, we upgrade 
our relicensing procedures to formally include seismic safety 
criteria and standards that directly relate to earthquake 
hazard in our process.
    Senator Carper. All right. Thank you, Senator. Thanks so 
much for being with us today.
    Mr. Boyd, please.
    Mr. Boyd. The Senator took my first item but I knew he 
might so I have got a couple of others noted here. I will 
mention one of them, and that is the spent fuel pool safety 
issue that has been discussed today. The re-racking of the 
spent fuel pools into high density and the slow speed with 
which these pools are being emptied in order to put materials 
into dry cask storage is a serious concern to us, particularly 
in the high seismic activity areas, again, like California's 
two plants.
    Senator Carper. All right. Thank you, sir. Secretary 
Schiliro?
    Mr. Schiliro. Yes, thank you, Senator. In my mind, and as 
you know, Senator, our obligation is for the safety of the 
people of Delaware. But what to me is paramount is that we 
learn from the events in Japan from the standpoint of their 
reaction and the emergency response that they had. We need to 
learn the lessons from that. That information needs to be 
transparent. It also needs to be shared with the State and 
local counterparts, the people that would actually be forced to 
respond to this kind of event.
    So, what I hope is that once the lessons are learned, and 
once that information is gotten, that there be system to share 
that with us so that we can change and develop our plans to 
meet that. If that does not occur, then to me, that would be 
the greatest tragedy.
    So, I would hope that as the NRC and the other Federal 
agencies get that that it be shared and that we learn from 
that. Thank you.
    Senator Carper. All right. Good. Thanks so much for joining 
us today.
    Mr. Sommerhoff.
    Mr. Sommerhoff. Senator, thank you. Our protective action 
decisionmaking, it is based on plant conditions and it is based 
on the conditions on the ground. From that, we start making our 
implementation for protective actions for the public.
    We are always looking first, when we look at issues that 
are going to require evacuation, and evacuation is not always 
the protective action that we are going to implement, it might 
be sheltering in place, but we will look at those people who 
are in close proximity to the plant initially and then we are 
also going to look at those vulnerable populations, those 
difficult to move populations.
    I cannot think of a situation where we would just say, 
everybody within 10 miles evacuate now. It does not happen like 
that. It happens in phases. That is how we conduct evacuations 
for all types of hazards, including hurricanes and other types 
of hazards.
    So, I just wanted to make sure that this was this 
understanding that the way we do implement evacuation 
protective actions, it is not everybody evacuate at once. I do 
believe the 10-mile Emergency Planning Zone is the appropriate 
planning standard for us.
    We have always considered that there could be 
implementation of protective actions outside that 10-mile zone. 
We have never thought that, based on environmental conditions 
or conditions at the plant that somehow radiation would stop at 
10 miles and just fall to the ground. We always have considered 
that we would have to move outside that 10 miles and implement 
actions outside to address the public there.
    So, I just wanted to make sure that that understanding was 
known.
    Senator Carper. Good. Thanks. Thanks so much. Mr. Pardee, 
one good takeaway.
    Mr. Pardee. Yes. Thank you again for the opportunity. For 
my takeaways, I would simply say that we understand the concern 
on the part of the committee and the general public, the public 
at large.
    We are committed to open, transparent and proactive 
communications regarding our current State and what changes we 
are implementing based on the lessons learned from the events 
in Japan and that we share the objective of the committee to 
protect the public health and safety. We will do that through 
concerted operations and by profitably learning from the 
lessons learned and taking actions to improve our safety 
posture.
    Senator Carper. All right. Thanks. Thanks so much.
    Dr. Cochran, you have the last word, please.
    Mr. Cochran. Mr. Chairman, on page 5 of my written 
statement, I gave you just over a dozen take-home lessons.
    Senator Carper. Cheaper by the dozen?
    Mr. Cochran. I would hesitate to choose one or even several 
as more important than others. But, let us take the spent fuel 
issue. We are 50 years into this industry and we do not have a 
geologic repository. We need to start getting that spent fuel 
in hardened, safe, dry cask storage and we ought to do it at 
the reactor sites as well as any interim site.
    Then there is the issue of these BWRs. We have old reactor 
designs out there. One-third of the U.S. fleet. The issue that 
you should be thinking about is whether we have in place a 
process that ensures that those reactors get relicensed over 
and over again and we try to patch up their design 
deficiencies, or are we going to get the clunkers off the 
street? We ought to have a process that retires these old, 
obsolete designs and replaces them with better technology.
    Senator Carper. All right. Thanks. Thanks for those closing 
thoughts.
    Before I thank you all and send you on your way, I just 
want to go back to something that Chairman Boxer said earlier 
in the hearing. She was asking our second panel, Chairman 
Jaczko and Administrator Jackson, she asked what is the worst 
that can happen? I think that is paraphrasing her, but she 
asked what is the worst that can happen?
    I said, a few minutes after that, I said maybe the worst 
thing that could happen was on the heels of this terrible 
tragedy where the folks of Miyagi, which as I may have said 
earlier and as Secretary Schiliro knows, is our sister State to 
the State of Delaware, the Miyagi Prefecture, I have been there 
before and feel a real sense of empathy and compassion for the 
folks there.
    But maybe the worst thing that could happen, at least for 
us here, would be for all this pain and suffering to have 
occurred in Japan and for us not to have learned anything from 
it. Or maybe for us to have learned from it but not to have 
done enough about it, not to have acted on the lessons that we 
have learned.
    There is a responsibility, I think, for all of us, not just 
on this committee, not just in the Congress, not just in the 
industry, not just at the NRC, but there is a responsibility 
for all of us to work together to make sure that we fully 
implement the lessons that we learn and that we remain vigilant 
until we have done that.
    I will close with the words I use often in this room and 
that is, everything I do I know I could do better. I think that 
is true for all of us and it remains true of the nuclear 
industry. We just need to remain eternally vigilant, eternally 
vigilant. I am encouraged today that that is our intent and we 
need to make sure that that is not only our intent, but it is 
actually what occurs.
    With that having been said, I thank you again for joining 
us here today and for providing your input. We look forward to 
working with you in this ongoing dialog. Thank you so much.
    With that, this hearing is adjourned.
    [Whereupon, at 5:40 p.m. the committee was adjourned.]
    [Additional statement submitted for the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                 [all]
</pre></body></html>
